<html>
<title> - PUBLIC LANDS AND FORESTS LEGISLATION</title>
<body><pre>[Senate Hearing 112-226]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-226
 
                  PUBLIC LANDS AND FORESTS LEGISLATION

=======================================================================



                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON

                      ENERGY AND NATURAL RESOURCES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                            S. 1024

                            S. 1090

                            S. 1144

                            S. 1149

                            S. 1344



                                     

                               __________

                             AUGUST 3, 2011


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
72-433                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
MARK UDALL, Colorado                 RAND PAUL, Kentucky
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
CHRISTOPHER A. COONS, Delaware       DEAN HELLER, Nevada

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Abbey, Robert, Director, Bureau of Land Management, Department of 
  the Interior...................................................    10
Flynn, Edward, President, FMC Wyoming, and Chairman, Board of the 
  American Natural Soda Ash Corporation..........................    29
Kyl, Hon. Jon, U.S. Senator From Arizona.........................     5
Nichols, Scott, U.S. Geothermal, Inc.............................    33
Tidwell, Thomas, Chief, Forest Service, Department of Agriculture    17
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    47


                  PUBLIC LANDS AND FORESTS LEGISLATION

                              ----------                              


                       WEDNESDAY, AUGUST 3, 2011

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:37 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order.
    This afternoon the Subcommittee on Public Lands and Forests 
will receive testimony on five bills addressing issues under 
the jurisdiction of the Bureau of Land Management and the 
Forest Service. The bills on today's agenda include S. 1024, 
designating the Organ Mountains and other public lands in New 
Mexico as wilderness; S. 1090, designating certain lands in the 
Cherokee National Forest in Tennessee as wilderness; S. 1144, 
to amend the Soda Ash Royalty Reduction Act of 2006 to extend 
the reduced royalty rate for soda ash; S. 1149, to expand 
geothermal production; and S. 1344, to direct the Secretary of 
Agriculture to take immediate action to recover ecologically 
and economically from a catastrophic wildfire in Arizona.
    The bills on today's agenda cover a variety of issues and 
involve different states across the Nation. However, they share 
a common trait, in that each of these bills is extremely 
important to the states that are covered by the legislation.
    I know the two wilderness bills, for example, are the 
result of many years of work by the Senate sponsors and folks 
in the local communities.
    When this hearing was first announced, the Senate was 
scheduled to be in session today. However, since the Senate is 
now adjourned, several of my colleagues have left Washington to 
return home, so this hearing will perhaps be a little bit more 
abbreviated than most. We intend to include all of the written 
statements in the record.
    I'm pleased that we're joined today by heads of the two 
agencies involved with the legislation. I'd like to welcome BLM 
Director Bob Abbey, and Forest Service Chief Tom Tidwell, who 
will give the Obama administration's views on all of the bills.
    The subcommittee has also invited Edward T. Flynn to 
testify on S. 1140, the Soda Ash Competition Act. Mr. Flynn is 
the President of FMC Wyoming Corporation, a subsidiary of FMC 
Corporation. Mr. Flynn is also the General Manager of Alkali 
Chemicals Divisions for FMC Corporation and has held this 
position since 2002. He's currently Chairman and a Board member 
of the Board of Directors for the American National Soda Ash 
Corporation, and is also Secretary-Treasurer and a member of 
the Board of Directors for the Industrial Minerals Association 
of North America.
    The subcommittee has also invited Mr. Scott Nichols to 
testify on S. 1149, the Geothermal Production Expansion Act of 
2011. Mr. Nichols is Manager for Lands and Permitting at a 
major geothermal energy company, U.S. Geothermal, located in 
Boise, Idaho. Before coming to U.S. Geothermal, he was the 
Environmental Service Manager for Brown and Caldwell, an 
environmental services firm in Boise, and served for 12 years 
before that with the Idaho Department of Lands.
    I'd just like to take a minute to discuss two of the 
bills--the Soda Ash bill and the Geothermal bill--that are 
especially important in my part of the country. Both of these 
bills have bipartisan support. Senator Risch and Senator Crapo 
are co-support--cosponsors of the Geothermal bill, along with 
my colleague from Oregon, Senator Merkley. Senator Barrasso, 
Senator Enzi and Senator Cochran are cosponsors of the Soda Ash 
bill, along, again, with Senator Merkley.
    Both of these bills are aimed at the development of 
resources on public lands. My goal for both of these bills is 
to strike the proper balance between developing public 
resources to provide clean energy and jobs, while ensuring that 
the interests of our taxpayers are protected.
    The Geothermal bill would expand existing authority that 
the Secretary of the Interior has under the Geothermal Steam 
Act to issue non-competitive leases for geothermal development. 
The reason for this is to allow a geothermal project which is 
already under lease to expand the boundaries of its project so 
that it can fully develop the geothermal energy resource that 
it has discovered. This will increase the amount of renewable 
energy that can be produced from the project and the amount of 
royalties that would be paid to the Treasury.
    The bill includes specific provisions to ensure that our 
government receives fair-market value for these adjacent leases 
and receiving annual rental payments equal to those that would 
be paid for competitive leases.
    The legislation also has the support of the Geothermal 
Energy Association, and I ask unanimous consent that a letter* 
from the Association be made part of the record.

    * See Appendix II.
---------------------------------------------------------------------------
    The Soda Ash Bill would continue a policy put in place by 
this committee and the Congress in 2006 to provide a reduced 
Federal royalty for soda ash that's produced on public lands. 
The reason for the policy, then, and the reason for continuing 
it now, is that the soda ash market is an international market, 
and some of our international competitors are trying to game 
this market.
    At the time Congress acted in 2006, China had adopted a 
policy of providing a rebate on its value-added tax to Chinese 
exporters of its synthetic substitute for soda ash. Although 
China abandoned this practice in 2007, it resumed the rebates 
in April 2009 and has continued them to this day. Without 
objection, two bipartisan letters* sent by members of the House 
and Senate in 2009 and 2011, including myself and Senator 
Barrasso, who serves on this committee, to the U.S. Trade 
Representative and the Secretary of Commerce calling on them to 
raise this trade abuse with the Chinese government, will be 
made a part of the record.
    The legislation is also supported by the Glass Packaging 
Institute, and, without objection, a letter* from the Institute 
in support of the bill will also be made part of the record.
    The current royalty rate authorization expires in October. 
It was my hope that the Congress would have the benefit of an 
economic analysis of the benefits of keeping American soda ash 
production competitive. It's my understanding that the Interior 
Department is still working on this report, which was required 
by the original 2006 legislation for this purpose.
    I look forward to the Department's testimony on this 
legislation, but the time is short for taking action to make 
sure that hundreds of millions of dollars in U.S. soda ash 
exports, and the jobs they provide, don't fall victim to unfair 
foreign trade practices because our Government wasn't able to 
act.
    Finally, I want to raise one last concern of great 
importance for my State, and it involves Director Abbey, who 
will be here today. I have learned of some extremely serious 
errors that were committed by the Bureau of Land Management in 
estimating the 2011 county payment for the ONC Counties. An 
incorrect level of funding was used to calculate these payments 
originally, and as a result, counties in my home State will be 
receiving some $11.6 million less in 2011 than they had planned 
on under prior estimates by the Bureau of Land Management.
    To make matters worse, when the Bureau of Land Management 
recognized this error in March of this year, they failed to 
notify the congressional delegation or the counties about this 
mistake. In fact, my office has yet to receive the corrected 
data, or a response to a letter that I have sent to the agency, 
to Mr. Abbey, on this matter. So, we will have some questions 
on this matter after Director Abbey is here.
    [The prepared statement of Senator McCain follows:]
  Prepared Statement of Hon. John McCain, U.S. Senator From Arizona, 
                               on S. 1344
    Mr. Chairman, I'm pleased to join my colleague, Senator Jon Kyl, as 
a cosponsor to S. 1344, legislation that provides for the timely 
removal of post-wildfire dead and drying trees in northern Arizona. 
This bill is extraordinarily important to my state in terms of job 
creation, public safety and wildfire prevention.
    As you know, Arizona experienced its largest wildfire in state 
history this summer with the 538,000-acre Wallow Fire. Left standing 
are many millions of large ponderosa pine trees that no longer resemble 
their picturesque appearance nor serve their former ecological purpose 
but instead pose a safety hazard to roads, private property and utility 
lines. These trees must be removed quickly lest we encourage the 
considerable risks of falling trees, potential insect infestations, or 
reburns.
    I commend the Forest Service for responding to the Wallow Fire burn 
area with plans to conduct some tree removal under their existing 
categorical exclusion authority. Unfortunately, the reality is the 
Wallow Fire area is so vast that many of these dead trees will remain a 
public danger without a tailored policy for conducting meaningful tree 
removal operations. This legislation establishes a procedure for 
removing these dead trees in partnership with forest contractors that 
is both mindful of environment priorities and economic conditions. The 
bill would also require that a portion of the tree removal receipts be 
returned to offset the costs of future thinning projects. Not only is 
this bill desperately needed for the safety of communities in northern 
Arizona, it is estimated the tree removal projects that would result 
from this legislation could create hundreds of local jobs. This bill 
represents a sensible approach to federal land management policy that 
I'm proud to support.
    Mr. Chairman, this legislation can help address a federal problem 
in ways that will benefit both local communities and the Apache-
Sitgreaves National Forest. However, time is of the essence because 
every day that passes means a growing mass of dying trees will only 
compound the devastation caused by one of the worst natural disasters 
in Arizona history.
    I urge the Committee to quickly pass this legislation.

    Senator Wyden. I'm very pleased that Senator Risch, my 
friend and colleague from Idaho is here, and also Senator Kyl, 
who we will greet momentarily. But, let's hear from Senator 
Risch as this time.
    Senator Risch. Mr. Chairman, I'd like a statement from 
Senator Barrasso regarding this hearing be placed in the 
record, please.
    Senator Wyden. Without objection. So ordered.
    [The information referred to follows:]

  Prepared Statement of Hon. John Barrasso, U.S. Senator From Wyoming
    I want to thank the Chairman for scheduling this hearing today.
    Let me begin by welcoming Edward Flynn. Mr. Flynn is President of 
FMC Wyoming Corporation. FMC is the largest soda ash producer in 
Wyoming.
    FMC recently announced it was reopening its Granger soda ash 
production facility in Wyoming. This means increased production and 
more American jobs.
    The soda ash industry supports thousands of jobs in Wyoming. With 
unemployment at 9.2 percent, promoting job growth is a top priority. We 
can create jobs by reducing Washington red-tape, simplifying the tax 
code, and keeping royalty rates low. These steps will help American 
companies compete.
    I want to thank Senator Wyden for his leadership on this issue. I 
am an original cosponsor of Senator Wyden's Soda Ash Competition Act. 
The bill extends the existing royalty rate on soda ash. The current 
royalty rate has helped American soda ash producers compete with China. 
Keeping the current royalty rate is important for job growth and export 
growth.
    The President has announced a goal of doubling U.S. exports. Soda 
ash production can help achieve that goal. The Soda Ash Competition Act 
provides a straightforward solution for increasing American exports.
    The current royalty rate was set by a 2006 law championed by my 
predecessor, Senator Craig Thomas. The law also requires the Interior 
Department to analyze the impact of the reduced royalty rate. The 
report is due in October 2011.
    Senator Wyden and I--along with three other Senators--sent a letter 
in May 2010 requesting the Department expedite the study. The report is 
still not complete.
    It is important for Congress to have an opportunity to review this 
study before the royalties are changed. The Department should delay any 
increase in royalties until Congress can evaluate the impact on jobs.
    I am also interested in several of the other bills included in this 
hearing. I see two wilderness bills that interest me because one 
reflects the exact recommendations from the current forest plan and one 
does not.
    S. 1090--Senator Lamar Alexander's bill designates certain public 
land in the Cherokee National Forest as Wilderness. S. 1024--Senator 
Bingaman's bill to designate the Organ Mountains and other public land 
as components of the National Wilderness Preservation System and the 
National Landscape Conservation System.
    Senator Alexander's bill adheres to the recommendations from the 
current forest plan for the Cherokee National Forest. While Senator 
Bingaman's bill goes beyond what was recommended in the land management 
plan produced by the Bureau of land Management.
    I have one other concern that needs explanation before I will be 
comfortable supporting this bill at a business meeting. That is the 
relative distance between the proposed Wilderness boundary and the 
Mexican border.
    Several bills are recommending the elimination of Wilderness and 
other set-asides that might encumber Border Patrol activities within 
100 miles of the border. I want to make sure people who have been 
border patrol agents and are border patrol agents give us their best 
advice before I will be comfortable with the boundaries proposed in 
this bill.
    Mr. Chairman, thank you again for scheduling this hearing.

    Senator Risch. I yield back my time, and let's proceed.
    Senator Wyden. All right.
    Very pleased to see Senator Kyl.
    Senator Kyl and I have worked together often on forestry 
issues. We've served together on the Senate Finance Committee.
    Senator Kyl, we welcome you. Please make whatever remarks 
you wish this afternoon, and we'll make the prepared remarks a 
part of the record in their entirety.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. I appreciate that. Thank you, Mr. Chairman, 
and Senator Risch.
    Folks should know that there are still some hardworking 
Senators here in Washington even though the Senate is no longer 
in session. As you point out, some of the matters before you 
are truly emergency matters in time.
    Such is the case with respect to the legislation that 
Senator McCain and I have introduced--S. 1344, the Arizona 
Wallow Fire Recovery and Monitoring Act.
    When I was last before the committee, the fire was still 
raging in eastern Arizona. It had just blown through the small 
community in which I have a cabin, destroying about two-thirds 
of the cabins on the road, just barely missing mine and my two 
neighbors'. We went up over 4th of July, put up sandbags all 
over the community for people that couldn't help themselves 
and, of course, around our own cabins. Because, with the 
mountain right behind us totally denuded of any vegetation now, 
the ash and mud, with the summer rains, are beginning to come 
down the mountain and threaten the communities. Recovery is a 
huge and immediate problem right now.
    Fortunately, the Forest Service and their BAER Teams, have 
jumped to the effort, spreading a lot of seed and straw, and 
doing whatever else they can do. I'm sure Chief Tidwell will 
have more to say about that in a moment. But, money is short.
    The fire cost over $100 million to fight, and the estimates 
are that the recovery can be twice that much. Our bill 
addresses that, and it addresses two aspects of this huge fire.
    This fire, incidentally, in terms of the size, was over 
538,000 acres, which is over 841 square miles. I think that's 
about as big as the State of Rhode Island. Because of the size 
of this fire, the tools that the Forest Service would usually 
employ, for example, to remove dead and dying trees that pose a 
threat to people and to communities, to deal with the removal 
of trees and watersheds and so on; and sometimes, even in a 
broader area, try to salvage whatever timber is salvageable. 
Those tools are simply inadequate to the task. They've never, I 
think, had a fire this size for salvaging over 200,000 acres, 
and the need to restore that area, with zero funds in the 
budget.
    So, our bill addresses this in two ways, without taking 
away any of the existing authorities that the Forest Service 
has and is already beginning to employ. For example, trying to 
remove as many of the trees along roadways as possible under 
the categorical exclusions permitted by existing law.
    In addition to that, this legislation would provide some 
additional authorities for the Forest Service to move forward 
with the kind of environmental review that would be appropriate 
under these circumstances. It requires a comprehensive hazard 
tree and commercial timber evaluation, which the Forest 
Service, and my conversation with Chief Tidwell yesterday, is 
already commencing to prepare. It simplifies the National 
Environmental Policy Act compliance by limiting the 
alternatives to be analyzed, and specifying that an 
environmental assessment must be completed; and then, 
monitoring of removal projects implemented under the bill would 
be required, and all appeals and judicial review would follow 
processes in the Healthy Forest Restoration Act, which was, as 
you know, Mr. Chairman, and act that you had a lot to do with 
on a bipartisan basis to get established.
    So, it would provide that we can move forward fairly 
quickly. That's necessary because, as you know, in 18 months or 
so, the value of any, of this timber is, goes down 
dramatically. After a couple years it doesn't have commercial 
lumber value any longer. So, speed, time is of the essence.
    The other thing it does is to provide that if there is any 
income from this salvaged timber, that it can be plowed right 
back into the Forest Service for restoration on this forest. 
That's critical, because of the huge number of acres that will 
need to be treated here. There just isn't the money in the 
Forest Service budget. But to the extent that we can make some 
money from the forest, from the timber that will be salvaged 
off of this forest, it would provide a source of funds that 
would not have to otherwise come out of the Forest Service 
budget for restoration.
    Mr. Chairman, I've got several letters here and resolutions 
from political jurisdictions in the area that I would ask be 
made a part of the record.
    Also, I think, if, I think Chief Tidwell will put in the 
record a great report the Forest Service prepared entitled, 
``How Fuel Treatment Saved Homes from the 2011 Wallow Fire.''* 
It's just another exhibit, in case anybody needed it, that 
fuels treatment before the fire occurs is a huge benefit in not 
only saving property, but helping the forest fire fighters do 
their job. So, that's for the further work of this committee. 
But, I would ask unanimous consent that both of those items be 
inserted in the record.
---------------------------------------------------------------------------
    * Report has been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Wyden. Without objection, Senator Kyl.
    [The prepared statement of Senator Kyl follows:]
 Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona, on S. 
                                  1344
    Chairman Wyden, Ranking Member Barrasso and members of the 
subcommittee, thank you for holding this hearing and giving me the 
opportunity to testify on S. 1344, the Arizona Wallow Fire Recovery and 
Monitoring Act. I introduced this bill on July 11 with Senator McCain 
in response to the Wallow Fire, a catastrophic mega-fire that burned 
more than half a million acres, supplanting the 2002 Rodeo-Chediski 
Fire--which burned 468,000 acres just 40 miles to the west of this 
fire--as the largest wildfire in Arizona history. Together these 2 
fires blackened nearly a million acres in the picturesque White 
Mountains in Eastern Arizona, a top destination for outdoor recreation 
in the West and a favorite of valley residents seeking a break from the 
summer heat.
    For nearly 40 days, the Wallow Fire burned. Television crews and 
media reporters flashed images on the evening news of heroic 
firefighters and the first-ever DC 10 dropping slurry to battle a blaze 
in the Southwest. The fire was front and center in what will likely go 
down as one of the worst fire seasons in our nation's history. The fire 
destroyed 32 homes and four rental cabins. Nearly 10,000 people were 
evacuated at one point. The suppression effort for this fire alone cost 
American taxpayers more than $100 million. Although the fire may now be 
extinguished and the media frenzy may be over, for these communities 
and the landscapes they hold dear, the story isn't over.
    Now we must turn our attention to recovery. Recovery from a 
megafire of this scope and magnitude is daunting. We have only a narrow 
window of opportunity to hasten forest rehabilitation; reduce the risks 
of flooding, insect epidemics and future fires; and capture some 
economic benefit from the hazard, dead, and dying trees. Of course, 
there is also much forest restoration and fuel reduction work that must 
continue on the front end to preserve the forests we have left. If we 
have learned anything from the Wallow Fire, it's that treatments work; 
I saw the successes first-hand while touring the affected communities 
of Alpine, Nutrioso, Greer, and Eager. But you don't have to take my 
word for it, just take a look at the fuel treatment effectiveness 
assessment titled, How Fuel Treatments Saved Homes from the 2011 Wallow 
Fire, prepared by the Forest Service. If this doesn't convince you, 
nothing will.
    Due to the intensity, size, and magnitude of the Wallow Fire, there 
are a tremendous amount of hazard, dead, and dying trees within the 
burned area near communities. Conservative estimates from the Forest 
Service indicate that more than 700 million board feet of mixed conifer 
and 679 million board feet of Ponderosa Pine may be recoverable across 
200,000 acres within the Wallow Fire area. These estimates do not even 
include wilderness, roadless areas, steep slopes and areas with 
threatened and endangered species. That is a significant acreage of 
hazard, dead, and dying trees! Every day that we wait, these trees will 
lose economic value. In fact, within just 2 short years, the scientific 
literature indicates that nearly 40 percent of a dead tree's value is 
lost. Under these post-fire conditions, we need to expeditiously move 
and use timber removal as a recovery tool to generate revenue and jobs 
and put the forest on a healthy trajectory for the future.
    This legislation would focus on expediting the removal of hazard, 
dead, and dying trees in community protection management areas within 
the Wallow Fire area. The removal projects prescribed under this act 
would be completed within 18 months of enactment.
    We saw the negative consequences of delay in the aftermath of 
Arizona's Rodeo-Chediski Fire. Bureaucratic regulations, onerous 
environmental requirements, and lawsuits so severely delayed salvage 
efforts that these trees had lost most of their economic value by the 
time projects were cleared to proceed. I do not want to see that 
mistake repeated again.
    That said, we are not looking to eliminate environmental safeguards 
or exempt timber harvest from federal environmental laws. The bill 
instead requires a comprehensive hazard tree and commercial timber 
evaluation and simplifies the National Environmental Policy Act 
compliance by limiting the alternatives to be analyzed and specifying 
that an environmental assessment be completed. Monitoring of timber 
removal projects implemented under the bill would be required. All 
appeals and judicial review would follow the processes in the 
bipartisan Healthy Forest Restoration Act.
    I understand that the Forest Service is currently doing some timber 
removal projects of hazardous, dead and dying trees using existing 
administrative authorities. This is a good thing. I expect the Forest 
Service to continue doing as much as possible--as quickly as possible--
under existing authorities. It is not the intent of this legislation to 
limit the ability of the Forest Service to use its existing tools. 
Rather, the legislation is intended to add a tool to the toolbox. Given 
the scale and the time frame of the timber removal work that must be 
done in the Wallow Fire area, it is not possible to treat the entire 
area by just using existing authorities to accomplish it. Moreover, 
there is no existing timber sale authority that gives the Forest 
Service the authority to retain 100 percent of the timber sale receipts 
or pump those receipts back into forest restoration. This is important 
because we all know that there is far more work that needs to be 
accomplished within the fire area than there are federal dollars. The 
only way to accomplish this ``win-win'' is through this legislation.
    This bill strikes a responsible balance between environmental 
concerns and economics after a catastrophic wildfire, and enjoys 
widespread support in my state. I urge the committee to support the 
legislation.

    Senator Wyden. I thank you for your excellent testimony. 
You know I very much share your view with respect to the 
treatment of these fuels. I mean, the West, and particularly 
the rural West, has a choice--we can either get there in a 
preventive kind of way, in a sensible way, to move in there 
with thinning and other kinds of approaches, or we can, in 
effect, wait until we have these infernos. That's what these 
fires are.
    You and I have talked about this. These are not natural 
fires. These are fires that stem from years and years of 
neglect. So, I very much share your view. We're just getting 
into some of the details of your bill, but it certainly sounds 
like you're very much on track. The Forest Service, I believe, 
generally shares that view. There may be one or two issues that 
we want to work with you on.
    But, you and I have worked together on a lot of forestry 
issues, and a lot of other matters. So, I'm looking forward to 
moving ahead with your legislation.
    Senator Risch, anything that you'd like to----
    Senator Risch. Briefly, Senator Kyl, for those of us that 
have been dealing with the issue for years, of fuel removal, 
particularly around private property, or any kind of 
improvements, we're really well aware of the necessity to 
remove. It's a constant fight.
    In Idaho we adopted a roadless plan. In fact, we're the 
only State that has a State-approved roadless plan. It's part 
of the negotiations with the stakeholders.
    In the large part of that, we negotiated a system whereby 
whatever the classification of the property immediately 
adjacent to these small towns--and we have lots of small towns, 
subdivisions, like your cabin is in, in Idaho--and we've 
negotiated to where we can do treatments around those, 
notwithstanding whatever the classification of the property is. 
We've had some real successes in that regard. Everybody that's 
ever fought fire knows exactly what happens when a fire hits 
either a treated area or an area that's had a previous fire.
    So, at least, this Senator's well aware of it, and we're 
going to continue to do everything we can to convince others of 
it. Appreciate you bringing those materials for us. They'll be 
helpful.
    Thank you, Mr. Chairman.
    Senator Kyl. Thank you.
    Thank you, Mr. Chairman. I do look forward to working with 
you to try to get this moved forward as much as possible.
    I think Chief Tidwell will tell you that the kind of 
treatment that did occur saved three communities. There were 
over 10,000 people evacuated from their homes at one point. 
Three of the communities were saved because of this kind of 
treatment. We need to do it elsewhere.
    But, in the meantime, we've got some restoration work to 
do, and this legislation will help us do the salvage and 
restoration, and I thank you very much for your attention to 
it.
    Senator Wyden. Thank you, Senator Kyl. We will excuse you 
at this time. You're, of course, welcome to stay if you want to 
ask anything of Chief Tidwell.
    Senator Kyl. We talked yesterday.
    Senator Wyden. Very good. Thank you.
    Let's bring forward our administrative witnesses--Robert 
Abbey, Director of the Bureau of Land Management, Department of 
the Interior; Thomas Tidwell, Chief of the Forest Service, 
Department of Agriculture.
    Gentlemen, if you all will come forward.
    I'd also like at this time, as our witnesses are getting 
settled, we have two statements from Chairman Bingaman, with 
respect to his bill, S. 24, the Organ Mountains, which is an 
important piece of legislation that he's joined in on by 
Senator Tom Udall. We want to put that into the record. Senator 
Alexander has spent a lot of time working on the Tennessee 
Wilderness Act of 2011. This is a piece of legislation that he 
and Senator Corker have worked on. They've both put a great 
deal of time in working with all of the stakeholders and folks 
at home. We're going to put both of their statements into the 
record at this time.
    [The information referred to follows:]
 Prepared Statement of Hon. Jeff Bingaman, U.S. Senator From New Mexico
    Mr. Chairman, thank you for holding this hearing. I would like to 
briefly discuss one of the bills on your agenda today, S. 1024, the 
Organ Mountains--Dona Ana County Conservation and Protection Act. I'd 
like to thank my colleague, Senator Tom Udall, who has joined me in 
sponsoring this bill.
    Very briefly, this bill is very similar to legislation that we 
sponsored during the previous Congress. It would designate 
approximately 240,000 acres of public lands in southern New Mexico as 
wilderness, as well as another 100,000 acres as National Conservation 
Areas, all of which would be managed by the BLM.
    The bill includes protection for the Organ Mountains, which are the 
iconic backdrop for the city of Las Cruces. The bill would also 
establish the Desert Peaks National Conservation Area to protect the 
canyons of the Robledo and Uvas Mountains and the Broad Canyon 
watershed which lies in between. And finally, the bill would protect 
the Chihuahuan desert grasslands and volcanic cinder cones in the 
Potrillo Mountains, which are located in the southwest portion of the 
county.
    Last Congress, we held two hearings on the previous version of this 
bill--one in Washington and another in Las Cruces. Based on the 
testimony we received at those hearings, we made further modifications 
to the bill, all of which are included in this year's bill.
    Among these changes were additional measures to improve border 
security in southern New Mexico beyond what exists today. Based on 
these modifications, U.S. Customs and Border Protection Commissioner 
Alan Bersin wrote a letter to me last year indicating that the bill 
``would significantly enhance the flexibility of U.S. Customs and 
Border Protection to operate in this border area.'' I would ask consent 
to include Commissioner Bersin's entire letter* in the record. All of 
the changes that we made to address border security issues are included 
in the bill before the subcommittee.
---------------------------------------------------------------------------
    * See Appendix II.
---------------------------------------------------------------------------
    While last year's bill was reported favorably out of this 
Committee, it unfortunately shared the same fate with all of the other 
public land bills and we were unable to get floor time before the end 
of the Congress. Despite the lengthy legislative process, I believe 
public support in New Mexico for this legislation remains high, and it 
is my hope that we will find a way to move this bill through the Senate 
and House during this Congress.
    Mr. Chairman, I know the subcommittee has a very full agenda this 
afternoon, and I appreciate this opportunity to discuss this bill. 
Thank you.
                                 ______
                                 
Prepared Statement of Hon. Lamar Alexander, U.S. Senator From Tennessee
    Thank you Chairman Bingaman and Senator Murkowski.
    I appreciate the invitation to speak before the committee about the 
Tennessee Wilderness Act of 2011. This is the second year that Senator 
Corker and I have introduced this legislation, but the first hearing 
we've had, so I thank the committee for having this hearing.
    Our bill will implement an important next step in conservation for 
some of the wildest, most pristine and beautiful areas in East 
Tennessee. Specifically, this bill will officially designate 19,556 
acres in the Cherokee National Forest as ``wilderness areas.'' To say 
that these are among the wildest, most pristine and beautiful areas in 
East Tennessee sets a very high bar, since the region is home to the 
Appalachian Mountains and our nation's most visited national park, 
which is also a World Heritage Site, the Great Smoky Mountains National 
Park. From growing up in these mountains and my many years of hiking 
the quiet trails of the Cherokee National Forest, I can personally 
attest that the wilderness areas we have protected there are something 
very special.
    I want to emphasize that the lands that will be designated as 
wilderness area are already Federal lands, part of the Cherokee 
National Forest. This was recommended for wilderness area designation 
by the U.S. Forest Service in the development of their comprehensive 
2004 forest plan, which included extensive opportunities for public 
comment. And in these tight budget times, I think it is important to 
note that these lands have been managed as Wilderness Study Areas since 
2004, and passing the bill into law would require no additional cost to 
the federal government to manage the land. Finally, our bill is also 
supported by all of the county mayors from the Tennessee counties that 
are impacted by this.
    Congress began protecting wilderness areas in the Cherokee National 
Forest in 1975 with additional wilderness areas being established by 
the Tennessee Wilderness Act of 1984 and the Tennessee Wilderness Act 
of 1986. The bill before the committee today will make important 
additions to this legacy of Tennessee's natural heritage. Combined, 
these areas have the effect of better protecting not only ecosystems 
and watersheds, but also the diverse recreational value of these areas.
    Congress first took steps to protect wilderness areas in the 1964 
Wilderness Act. Members of Congress then showed extraordinary 
prescience about the threats that destroy wilderness, in section 2(a) 
of the Act Congress states, ``In order to assure that an increasing 
population, accompanied by expanding settlement and growing 
mechanization, does not occupy and modify all areas of the United 
States and its possessions, leaving no lands designated for 
preservation and protection in their natural condition, it is hereby 
declared to be the policy of the Congress to secure for the American 
people of present and future generations the benefits of an enduring 
resource of wilderness.''
    Mr. Chairman, this is a simple bill, but it will make a significant 
contribution for these wild and pristine portions of the Cherokee 
National Forest.
    Thank you Mr. Chairman and Senator Murkowski

    Senator Wyden. Let's go forward, then, with the testimony 
of our witnesses, beginning with you, Mr. Abbey.

STATEMENT OF ROBERT ABBEY, DIRECTOR, BUREAU OF LAND MANAGEMENT, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Abbey. Thank you, Mr. Chairman, and Senator Risch. It's 
certainly a pleasure for me to testify today on behalf of the 
Department of the Interior.
    I will give a brief summary of my written testimony before 
this subcommittee today on three bills--S. 1024, regarding the 
New Mexico Wilderness; S. 1144, on soda ash royalty, and S. 
1149, on geothermal leasing.
    S. 1024, the Organ Mountain Desert Peaks Wilderness Act, 
designates two new National Conservation Areas and eight new 
Wilderness Areas in Dona Ana County, New Mexico. Also within 
the county, the legislation releases nearly 31,000 acres from 
Wilderness Study Area status, transfers land from the 
Department of Defense to the Bureau of Land Management for 
inclusion within the National Conservation Area, and withdraws 
certain additional lands from disposal, mining, and mineral 
leasing.
    Finally, in order to provide the greatest flexibility to 
the Department of Homeland Security and other law enforcement 
agencies, the bill includes a number of provisions to 
facilitate and improve border security.
    The Department of Interior supports S. 1024, and welcomes 
opportunities to engage in important discussions such as this 
that advance protection of some of America's most compelling 
landscapes.
    S. 1144, the Soda Ash Competition Act, extends for 5 years 
the royalty rate reduction provided for by a 2006 act of 
Congress for sodium mined on Federal lands. The provisions of 
the Soda Ash Reduction Act of 2006 expire in October.
    As you know, Mr. Chairman, our Department is completing a 
report analyzing the effects of the current royalty reduction, 
and we'll be providing a recommendation from the Secretary 
about continuing this reduction. The BLM has been working with 
other agencies within the Department of the Interior to prepare 
this report and will be providing it to you this September.
    We believe the information in our report may be helpful to 
Members of the Congress when assessing the merits of S. 1144. 
Our report will address the amount of sodium compounds and 
related products shipped to market from Federal lands; the 
number of jobs that have been created or maintained as a result 
of the royalty reduction; the royalty paid to the United States 
on the sodium compounds and related products, and a portion 
paid to states; and, as I mentioned earlier, a recommendation 
of whether the reduced royalty rate should continue.
    S. 1149 authorities the BLM to non-competitively lease 
Federal geothermal resources when a discovery of these 
resources is made that extends into adjoining unleased Federal 
lands. Under this legislation, a non-competitive lease may be 
made available for areas less than 640 acres that have not 
already been leased, are nominated to be leased competitively.
    Under the provisions of the legislation, the lessee would 
pay fair market value for the non-competitive lease in 
accordance with regulations issued by the Secretary of the 
Interior. The bill establishes a minimal price on the amount 
the Secretary may determine the fair market value to be.
    This legislation would make proposed fair market value 
determinations open for public comment and would allowed a 
qualified lessee and any effected party to appeal the 
determination. Further, a lease awarded non-competitively would 
be assessed the annual rental rate of leases awarded 
competitively.
    The Department of the Interior supports the goal of 
enhancing geothermal exploration and development. We believe 
the bill's provision that the Secretary of the Interior 
establishes regulatory procedures for determining fair market 
values of adjoining lands is the most effective way to ensure a 
fair return to American taxpayers.
    This legislation addresses several concerns that the 
Department raised during consideration of earlier legislation. 
We do have, or, still have a concern with a few provisions of 
S. 1149, including the minimal value provision and the short 
timeframes identified to conduct a rulemaking process. We'd 
like to work with the members of the subcommittee to address 
these issues.
    We appreciate, again, the opportunity to appear before this 
subcommittee to testify today, and we'll be happy to answer any 
questions that you might have.
    [The prepared statements of Mr. Abbey follow:]
     Prepared Statement of Robert Abbey, Director, Bureau of Land 
                 Management, Department of the Interior
                                s. 1024
    Thank you for inviting the Department of the Interior to testify on 
S. 1024, the Organ Mountains-Desert Peaks Wilderness Act. The 
Administration supports S. 1024, which designates two new National 
Conservation Areas (NCAs) and eight new wilderness areas in Doa Ana 
County, New Mexico. We welcome this opportunity to enhance protection 
for some of America's treasured landscapes.
Background
    Dona Ana County is many things--the county with the second highest 
population in New Mexico; home to Las Cruces, one of the fastest 
growing cities in the country; and a land of amazing beauty. Towering 
mountain ranges, dramatic deserts, and fertile valleys characterize 
this corner of the Land of Enchantment. The Organ Mountains, east of 
the city of Las Cruces, dominate the landscape. Characterized by steep, 
angular, barren rock outcroppings, the Organ Mountains rise to nearly 
9,000 feet in elevation and extend for 20 miles, running generally 
north and south. This high-desert landscape within the Chihuahua Desert 
contains a multitude of biological zones--mixed desert shrubs and 
grasslands in the lowlands ascending to pion and juniper woodlands, and 
finally to ponderosa pines at the highest elevations. Consequently, the 
area is home to a high diversity of animal life, including peregrine 
falcons and other raptors, as well as mountain lions and other mammals. 
Abundant prehistoric cultural sites, dating back 8,000 years, dot the 
landscape. The Organ Mountains are a popular recreation area, with 
multiple hiking trails, a popular campground, and opportunities for 
hunting, mountain biking, and other dispersed recreation.
    On the west side of Las Cruces are the mountain ranges and peaks of 
the Robledo Mountains and Sierra de las Uvas, which make up the Desert 
Peaks area. These desert landscapes are characterized by numerous mesas 
and buttes interspersed with deep canyons and arroyos. Mule deer, 
mountain lions, and golden eagles and other raptors are attracted to 
this varied landscape. Prehistoric cultural sites of the classic 
Mimbres and El Paso phases are sprinkled throughout this region along 
with historic sites associated with more recent settlements. This area 
is also home to the unusual Night-blooming Cereus--seeing the one-
night-a-year bloom in its natural surroundings is a rare delight. 
Finally, the area provides varied disbursed recreational opportunities.
    To the southwest of Las Cruces, near the Mexican border, is the 
Potrillo Mountains Complex. The geologic genesis of these mountains is 
different from that of the Organ Mountains and Desert Peaks area. 
Cinder cones, volcanic craters, basalt lava flows, and talus slopes 
characterize this corner of Doa Ana County. These lands are famous for 
their abundant wildlife, and contain significant fossil resources. A 
well-preserved giant ground sloth skeleton, now housed at Yale 
University, was discovered in this area. The sheer breadth of these 
lands and their open, expansive vistas offer remarkable opportunities 
for solitude.
    Senator Bingaman and a wide range of local governments, 
communities, user groups, conservationists, and Federal agencies have 
worked collaboratively to develop this consensus proposal to protect 
all of these special areas.
S. 1024
    S. 1024 proposes to designate two new NCAs and eight wilderness 
areas in Doa Ana County, New Mexico, which would be included in BLM's 
National Landscape Conservation System. The legislation also releases 
nearly 31,000 acres from wilderness study area (WSA) status, transfers 
land from the Department of the Defense (DOD) to the BLM for inclusion 
within an NCA, and withdraws certain additional lands from disposal, 
mining, and mineral leasing.
    Section 3 of S. 1024 designates eight wilderness areas totaling 
approximately 241,000 acres. The BLM supports the proposed wilderness 
designations in S. 1024. We would like the opportunity to work with the 
Chairman on minor boundary modifications for manageability.
    These new wilderness designations are in three distinct areas of 
the county. First, within the proposed 86,000 acre Organ Mountains NCA, 
19,200 acres would be designated as the Organ Mountains Wilderness.
    The second area is within the Desert Peaks National Conservation 
Area proposed in this legislation. The bill proposes three designations 
in this area: Broad Canyon Wilderness (13,900 acres); Robledo Mountains 
Wilderness (17,000 acres); and Sierra de las Uvas Wilderness (11,100 
acres). These three areas are within the 75,550-acre Desert Peaks NCA. 
Within the Robledo Mountains Wilderness, a small corridor of 
approximately 100 acres has been designated as ``potential wilderness'' 
by section 3(g) of S. 1024. The lands included in this potential 
wilderness contain a communications right-of-way, and it is our 
understanding that it is the intention of the Chairman to allow the 
continued use of this site by the current lessees. However, in the 
event that the communications right-of-way is relinquished, these lands 
would be reclaimed and become part of the wilderness area. We support 
this provision.
    Finally, the Potrillo Mountains complex in the southwest corner of 
Doa Ana County includes: Aden Lava Flow Wilderness (27,675 acres); 
Cinder Cone Wilderness (16,950 acres); Potrillo Mountains Wilderness 
(125,850 acres); and Whitethorn Wilderness (9,600 acres). Both the 
Potrillo Mountains Wilderness and Whitethorn Wilderness extend into 
adjacent Luna County.
    Two National Conservation Areas are established by section 4 of the 
legislation--the Organ Mountains NCA and the Desert Peaks NCA. As noted 
above, both of these NCAs include proposed designated wilderness within 
their boundaries. Each of the NCAs designated by Congress and managed 
by the BLM is unique. However, all NCA designations have certain 
critical elements in common, including withdrawal from the public land, 
mining, and mineral leasing laws; off-highway vehicle use limitations; 
and language that charges the Secretary of the Interior with allowing 
only those uses that further the purposes for which the NCA is 
established. Furthermore, NCA designations should not diminish the 
protections that currently apply to the lands. Section 4 of the bill 
honors these principles, and the BLM supports the designation of both 
of these NCAs.
    Much of the lands proposed for both wilderness and NCA designations 
have been historically grazed by domestic livestock, and grazing 
continues today. Many of BLM's existing wilderness areas and NCAs 
throughout the West are host to livestock grazing, which is compatible 
with these designations. This use will continue within the NCAs and 
wilderness areas designated by S. 1024.
    Section 4(f) of the bill transfers administrative jurisdiction of 
2,050 acres from DOD to the BLM. These lands, currently part of the 
Army's Fort Bliss, would be incorporated into the Organ Mountains NCA. 
The lands to be transferred include the dramatic and scenic Fillmore 
Canyon as well as the western slopes of Organ Peak and Ice Canyon. We 
would welcome these lands into BLM's National System of Public Lands.
    Section 6 of S. 1024 concerns the recently established Prehistoric 
Trackways National Monument, just southeast of the proposed Desert 
Peaks NCA. The Monument was established in Title II, Subtitle B of the 
Omnibus Public Land Act (Public Law 111-11) signed by the President on 
March 30 2009. Section 6 of S. 1024 addresses recent additional 
discoveries of 280 million-year old reptile, insect, and plant fossils 
on adjacent BLM-managed lands by adding 670 acres to the Monument. The 
BLM supports this expansion of the Monument.
    Section 5(d) of the legislation provides for the withdrawal of two 
parcels of BLM-managed lands from the land, mining, and mineral leasing 
laws. The parcel designated as ``Parcel A'' is approximately 1,300 
acres of BLM-managed lands on the eastern outskirts of Las Cruces. This 
parcel is a popular hiking and mountain biking site, and provides easy 
access to the peak of the Tortugas Mountains. From here, visitors can 
take in spectacular views of Las Cruces and the Rio Grande Valley. We 
understand that Chairman Bingaman's goal is to ensure that these lands 
are preserved for continued recreational use by Las Cruces residents. 
The legislation provides for a possible lease of these lands to a 
governmental or nonprofit agency under the Recreation and Public 
Purposes Act. The larger, 6,500 acre parcel, designated as ``Parcel 
B,'' lies on the southern end of the proposed Organ Mountains NCA. It 
is our understanding that Chairman Bingaman considered adding this 
parcel to the NCA because of important resource values. However, a 
multitude of current uses make inclusion of this parcel in the NCA 
inconsistent with the purposes established for the NCA. Therefore, the 
limited withdrawal of the parcel will better serve to protect the 
resources within this area without negatively affecting the current 
uses of the area. The BLM supports the withdrawal of both of these 
parcels.
    In order to provide the greatest flexibility to the Department of 
Homeland Security and other law enforcement agencies, the bill includes 
a number of provisions to facilitate and improve border security. 
First, the legislation releases over 28,000 acres from WSA status along 
the southern boundary of the proposed Potrillo Mountains Wilderness. 
Additionally, it places 16,525 acres along that southern boundary in a 
``restricted use area.'' The Secretary is charged with protecting the 
wilderness character of these lands to the extent practicable, while at 
the same time allowing for the installation of communications and 
surveillance facilities that may be necessary for law enforcement and 
border security purposes. Finally, in order to provide additional 
flexibility to law enforcement personnel, the bill keeps open for 
administrative and law enforcement uses only, an east-west route 
bisecting the Potrillo Mountains Wilderness.
    Finally, the BLM, along with many partners, has undertaken 
restoration efforts on nearly two million acres in New Mexico, with the 
goal of restoring grasslands, woodlands, and riparian areas to their 
original healthy conditions. The BLM will continue to implement 
appropriate land restoration activities that will benefit watershed and 
wildlife health.
Conclusion
    Thank you for the opportunity to testify in support of S. 1024. 
Both the BLM and the Department welcome opportunities to engage in 
important discussions such as this that advance the protection of some 
of America's most compelling landscapes. Passage of this legislation 
will ensure that generations of New Mexicans and all Americans will be 
able to witness a golden eagle soar over the Sierra de las Uvas, hike 
the landmark Organ Mountains, or hunt in the volcanic outcroppings of 
the Potrillo Mountains.
                                s. 1144
    Good morning and thank you for inviting the Department of the 
Interior to testify today on S. 1144, the Soda Ash Competition Act, 
which extends for 5 years the royalty rate reduction provisions of the 
Soda Ash Reduction Act of 2006 (2006 Act).
    At this time, the legislation is premature, pending the completion 
of a report that will analyze the effects of the royalty reduction 
under the 2006 Act, and contain a recommendation from the Secretary 
about continuing the royalty reduction.
    Soda ash is one of several products derived from sodium minerals 
mined on public lands and is used in many common products, including 
glass, pulp, detergents, and baking soda. The mineral trona is a 
naturally occurring mixture of sodium carbonate, sodium bicarbonate, 
and water. Soda ash, or ``sodium carbonate,'' is refined from trona 
mined at depths of between 800 and 1,600 feet below the surface.
    Soda ash may be either natural or synthetic. It can be extracted 
from mined natural trona deposits, or it can be manufactured 
synthetically. Synthetic soda ash production began in this country in 
the 1880s and increased as the demand for soda ash increased.
    In the early 1950s, the modern natural soda ash industry began in 
the Green River Basin of Wyoming, home of the world's largest known 
natural deposit of trona. In 2010, the U.S. soda ash industry consisted 
of five companies that mine and mill soda ash, four of which operate 
five plants in Wyoming. One company in California produces soda ash 
from sodium-carbonate rich brines. At the end of FY 2010, there were 86 
Federal sodium leases covering 113,886 acres in Wyoming, California, 
Colorado, Arizona, and New Mexico. Sixty-one of these Federal sodium 
leases were located in Wyoming.
    Although in 2010 soda ash represented only 2 percent of the 
nation's $39 billion nonfuel mineral industry, its use in many 
diversified products, including flat glass for the automobile and 
construction industries, makes it a substantial contributor to the 
gross domestic product of the United States.
Soda Ash Report
    A provision of the 2006 Act requires the Secretary of the Interior 
to report on the effects of the royalty rate reduction at the end of 
the 4-year period after enactment and before the end of the fifth year. 
According to the Act, the report must discuss:

  <bullet> The amount of sodium compounds and related products shipped 
        to market from Federal lands;
  <bullet> The number of jobs that have been created or maintained;
  <bullet> The royalty paid to the United States on the sodium 
        compounds and related products and the portion paid to states; 
        and
  <bullet> A recommendation of whether the reduced royalty rate should 
        continue.

    The report is to include an analysis of data on production, 
exports, sales values, employment, and royalties. The benchmarks 
against which the effects of the royalty reduction are evaluated are 
the conditions that would have been anticipated to prevail absent the 
royalty reduction. The Bureau of Land Management (BLM) has been working 
with the Department to finalize the report so that it may be 
transmitted it to Congress in order to meet the October 11, 2011, 
timeframe.
    The BLM can offer some insight at this time into its factual 
findings. Specific to the three questions identified in the Act:

  <bullet> Total domestic sodium minerals sales from FY 2002 through FY 
        2010 ranged from 12.2 million tons to 13.8 million tons 
        annually based on information reported by the Department's 
        Office of Natural Resources Revenue (ONRR). In FY 2006, the 
        year before the royalty reduction took effect, total domestic 
        sales of sodium compounds and related products were 
        approximately 12.9 million tons. The following year, domestic 
        sodium sales increased 7 percent, reaching 13.8 million tons. 
        By FY 2010, domestic sales were approximately 13 million tons, 
        or about 1 percent higher than the total in FY 2006.
  <bullet> Based on available data\1\, overall employment has not 
        increased since passage of the Act. An analysis of the number 
        of jobs maintained depends on a number of factors such as the 
        overall soda ash market conditions and employee productivity.
---------------------------------------------------------------------------
    \1\ Based on data from the United States Geological Survey Mineral 
Commodity Summaries, the Industrial Minerals Association--North 
America, and the Wyoming State Inspector of Mines.
---------------------------------------------------------------------------
  <bullet> Royalty payments on sales of sodium from Federal leases 
        ranged from a low of $10.3 million in FY 2004 and peaked in FY 
        2006 at $29.1 million. From FY 2006 to FY 2007, there was a 
        steep drop in royalty payments as a result of the royalty rate 
        reduction authorized under the Act. Since passage of the Act, 
        Federal royalty payments have illion per year.

    The BLM is also able to identify that:

  <bullet> For the four years following passage of the Act, total sales 
        revenues from sodium production was more than 60 percent higher 
        than the total sales revenues from the four years before 
        passage of the Act based largely on increases in the commodity 
        prices. For example, the weighted average annual sodium price 
        rose from about $89 per ton in FY 2006, the year before the Act 
        took effect, to approximately $126 per ton in FY 2009.
  <bullet> Since passage of the Act, a significant amount of production 
        has shifted from state leases and private (fee) lands onto 
        Federal leases, according to data from ONRR.
  <bullet> United States exports of soda ash gradually increased from 
        FY 2002 through FY 2008, dropping in FY 2009 during the global 
        economic downturn. United States exports recovered in FY 2010, 
        and were 11.7 percent higher than the export totals for FY 
        2006.

    The 2006 Act requires the Secretary to make a recommendation as to 
whether the royalty rate reduction should be continued. If enacted, S. 
1144 would make the Secretary's recommendation moot.
S. 1144
    S. 1144 updates the original Soda Ash Royalty Reduction Act by 
extending the royalty rate of 2 percent for 5 years, until October 
2016. The Act waives the requirements of section 102 (a)(9) of the 
Federal Land Policy Management Act of 1976 (FLPMA), section 24 of the 
Mineral Leasing Act, and the terms of any lease under the Act. The 
FLPMA citation states that it is the policy of the United States to 
receive fair market value for the use of public lands and their 
resources unless otherwise provided by statute. The Mineral Leasing Act 
sets the royalty rate at not less than 2 percent.
    Before the royalty reduction Act went into effect in 2006, the BLM 
was charging royalty rates of 6 and 8 percent. The BLM established 
these rates based on a study to examine the fair market value in the 
sodium industry in Wyoming. The study reviewed many comparable state 
and private leases and found that fair market value in Wyoming appeared 
to be somewhat higher than the 5 percent being charged by the BLM at 
that time. As a result of the study, the BLM determined that the 
royalty for all then-existing leases would be increased from 5 to 6 
percent at the lease renewal date. The BLM, based on the study, also 
determined that the royalty rate on all new leases would be 8 percent. 
In the Green River Basin at that time, the royalty rate on most private 
land was 8 percent and 5 percent on State lands.
Conclusion
    Thank you again for the opportunity to testify on S. 1144. I would 
be glad to answer your questions.
                                s. 1149
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the views of the Department of the Interior on 
S. 1149, the Geothermal Production Expansion Act. S. 1149 would amend 
the Geothermal Steam Act of 1970 to allow non-competitive leasing of 
Federal geothermal energy resources when a valid geothermal discovery 
is made on adjoining lands. The Bureau of Land Management (BLM) 
supports the goal of enhancing geothermal exploration and development 
by ensuring that valid discoveries can be responsibly developed. 
Accordingly, the BLM generally supports S. 1149, and believes that the 
bill's provision that the Secretary of the Interior establish 
regulatory procedures for determining fair market values of adjoining 
lands is the most effective way to ensure a fair return to American 
taxpayers. The BLM has concerns with a few provisions in the 
legislation and would like to work with the Committee to address them.
Background
    Geothermal energy resources on Federal lands are leased and managed 
in accordance with the Geothermal Steam Act of 1970 (GSA), which was 
amended by the Energy Policy Act of 2005 (EPAct). The EPAct made 
extensive changes to the law governing geothermal leasing and royalty 
policies. The changes were designed to encourage geothermal energy 
development and simplify the royalty structure, while ensuring a fair 
return for the use of Federal lands and geothermal resources. The GSA, 
as amended, provides the BLM with the authority for leasing and 
managing geothermal resources on the public lands, and the delegated 
authority for leasing geothermal resources on lands managed by the U.S. 
Forest Service (FS). In 2008, the BLM and FS jointly prepared and 
issued a Programmatic Environmental Impact Statement (PEIS) that 
analyzed the potential for geothermal leasing on their respective 
lands. Based on this analysis, the BLM and FS have opened 192 million 
acres to potential geothermal leasing.
    Federal geothermal resources have the potential to make an 
important contribution toward the President's goal of increasing energy 
production from clean, renewable sources. To date, the BLM has issued 
818 geothermal leases that cover 1.2 million acres of Federal lands. 
Approximately 59 leases have reached producing status with a generating 
capacity of nearly 1,300 megawatts (MW). These producing leases account 
for more than 40 percent of current U.S. geothermal capacity. Despite 
this progress, the development of geothermal energy is just beginning, 
and its future role and importance is expected to increase 
significantly, from the current level to 12,200 MW by 2025, according 
to estimates in the 2008 PEIS. Notably, this is often baseload power 
that does not have the variable qualities of some other renewable 
sources and may pair well with them.
    The BLM's geothermal leasing program is administered under 
regulations (43 CFR 3200 and 3280) issued in 2007 to reflect the 2005 
EPAct's amendments to the GSA. Under these regulations, most leases for 
geothermal development on Federal lands are offered initially through 
competitive oral auctions, which are held about twice per year. 
Typically, the parcels offered at auction are nominated for lease by 
industry, but may also be nominated by the public, or by Federal, 
state, and local governments. Since competitive auctions began in 2007, 
a total of 366 geothermal leases have been sold, generating more than 
$74 million in revenue. In addition to the price paid at auction, 
geothermal lease holders pay annual per-acre rental fees until 
production begins. Thereafter, lease holders pay royalties or fees on 
production.
    Lease parcels that do not receive a bid at auction are made 
available for noncompetitive lease for a period of 2 years, at a price 
of $1.00 per acre. In addition, noncompetitive geothermal leases may be 
offered under certain conditions for direct, on-site energy uses, which 
include the use of geothermal steam and hot water in greenhouses and 
aquaculture. Noncompetitive leases are also offered to qualified mining 
claim holders.
S. 1149
    S. 1149 seeks to focus Federal geothermal energy leasing activities 
toward entities that intend to develop geothermal resources rather than 
toward those who may intend to obtain leases for parcels with 
geothermal resources for speculative purposes. More specifically, the 
bill aims to address a practice whereby speculators purchase at auction 
Federal geothermal leases for parcels that are located adjacent to 
parcels of Federal or private land with existing geothermal leases or 
developments. This practice is viewed by some as an effort to 
capitalize upon another company's geothermal exploration efforts, and 
is a disincentive for future geothermal investment and development. 
Because the geothermal competitive leasing program is open to all 
qualified bidders, the potential exists for such speculative activity.
    To address this concern, the legislation authorizes non-competitive 
leasing of adjoining Federal geothermal resources when a valid 
discovery of geothermal resources is made, and the geothermal resources 
are shown to extend into unleased Federal land. Under the bill, a 
Federal non-competitive lease would be available only for areas not 
exceeding 640 acres that have not already been leased or nominated to 
be leased competitively. Only one noncompetitive lease could be issued 
for each valid geothermal discovery.
    To qualify for a noncompetitive lease under this legislation, an 
applicant would have to demonstrate, consistent with industry 
standards, a valid discovery of a geothermal resource. An applicant 
also would have to present sufficient geological and technical data 
showing that the geothermal resource extends into adjoining Federal 
lands.
    Section 3 of S. 1149 would amend Section 4(b) of the GSA to define 
fair market value per acre for the non-competitive lease. Under the 
provisions of Section 3, the lessee would pay fair market value for the 
non-competitive lease in accordance with regulations issued by the 
Secretary of the Interior. The bill would set a minimum price on how 
much the Secretary may determine the fair market value to be at not 
less than the greater of $50 per acre, or four times the median amount 
paid per acre for all land leased during the preceding year.
    This legislation would make proposed fair market value 
determinations open for public comment for a period of 30 days and 
would allow a qualified lessee and any affected party to appeal a fair 
market value determination. Further, the lease awarded non-
competitively would be assessed the annual rental rate of leases 
awarded competitively.
    The BLM supports the objective of S. 1149 to enhance geothermal 
development by increasing investor confidence that geothermal 
discoveries could be fully developed. Additionally, BLM supports a 
requirement that regulations be promulgated to establish procedures for 
determining the fair market value of leases on adjoining lands.
    The BLM is concerned, however, about the provision of S. 1149 that 
sets a minimum price on how much the Secretary may determine the fair 
market value to be. Though the minimum price set forth in the bill may 
provide some assurance of a return to American taxpayers, the price may 
not reflect a fair market value. The BLM believes that the provision is 
unnecessary, because under the bill, the Secretary would be required to 
establish procedures for determining fair market values of these 
leases. With these procedures, the BLM would consider a number of 
factors, including available information on the known resources and the 
value of other leases within the local market, in determining a price 
that is fair for that lease. Thus, the BLM recommends that the 
provision that sets a minimum price be removed from the bill.
    The BLM also has concerns with the timeframes included in the 
legislation. Specifically, the promulgation of regulations issued by 
the Secretary typically requires more than 180 days. The 90 days 
provided in the bill for determining the fair market value of a lease 
may not be adequate to conduct such an evaluation.
Conclusion
    The BLM supports efforts to enhance geothermal exploration and 
development in the United States in a manner that is fair to geothermal 
developers and other participants in the competitive leasing process. 
We must ensure those efforts result in a fair return to the American 
taxpayers. Thank you for the opportunity to testify and I would be 
happy to answer any questions.

    Senator Wyden. Very good.
    Mr. Tidwell.

STATEMENT OF TOM TIDWELL, CHIEF, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Tidwell. Mr. Chairman, thank you for the opportunity to 
appear before you today to provide the Department's views on S. 
1344, the Arizona Wallow Fire and Recovery Monitoring Act, and 
S. 1090, the Tennessee Wilderness Act of 2011.
    With the Tennessee Wilderness Act, we strongly support this 
legislation. It would add about 19,586 acres of the Cherokee 
National Forest in east Tennessee to the Wilderness System. 
This bill would create one new Wilderness Area, and expand the 
boundaries of five existing Wilderness Areas.
    All of these areas were identified in the 2004 Cherokee 
National Forest plan, to be recommended to Congress for your 
consideration to add these areas to the Wilderness System. 
Currently, these areas are used for dispersed recreation, 
hunting, and hiking. By adding these parcels, you would be 
expanding the current areas to better provide the wilderness 
characteristics of solitude, undeveloped landscapes, and 
preserving historic and cultural significant areas.
    As you well know, forest plans are a product of extensive 
public involvement, including countless public meetings with 
local government, local communities, and just all the 
interested public. Based on the public input, these areas are 
recommended to Congress for your consideration as Wilderness. 
Congressional designation of these areas as Wilderness would be 
the culmination of this planning process.
    Now, with S. 1344, the Arizona Wallow Fire and Recovery 
Monitoring Act, the Department supports the objectives and 
purpose of this legislation and agrees with the urgency for us 
to respond to the consequences of this fire. The Wallow fire 
burned over 535,000 acres of National forest, as well as 
tribal, State and private lands--the largest fire in Arizona 
history. I want to assure you that we understand and we 
appreciate the magnitude and the scope of the task ahead of us 
to restore these landscapes and recover the economic value of 
some of the timber while we can, and we've already started 
work.
    We started that with our Burned Area Emergency Response. 
We've already seeded about 36,000 acres of about 80,000 that 
are planned; we've spread straw mulch on over 18,000 acres of 
the 25,000 acres that we feel that we need to put this 
treatment on; and we're currently removing hazard trees along 
245 miles of road. There's an additional about 40 miles of 
powerline corridors that we also feel we need to remove the 
hazard trees. This is all part of the Burned Area Emergency 
Response, the BAER, work.
    In addition, there's another 300 miles of road--excuse me--
350 miles of road, about 10,000 acres, that we need to harvest 
the hazard trees off, to just deal with the threat to public 
safety.
    Now, we're using categorical exclusions to address a lot of 
this work, and we'll be, soon be advertising, you know, the 
sales from this work.
    All of this roadside and corridor treatment were, will be 
concluded by the end of 2012.
    In addition, like Senator Kyl referenced, we have a rapid 
assessment team that's actually going to have their report 
completely, hopefully by the end of the week, that will 
actually identify the rest of the restoration work that needs 
to be done, and also the opportunity for salvage work, in 
addition to what the BAER work has already completed.
    So, in addition to using the CEEs to quickly accomplish the 
roadside hazard tree harvest, we're also going to use the 
opportunity we have to issue additional task orders under the 
existing White Mountain Stewardship Contract. That will help us 
also to quickly recover some of the economic value of this 
material and be able to get the restoration work started,
    The Forest right now is planning on completing an 
environmental analysis for the rest of the work, and hopefully 
we'll have that done by early spring. We're working with an 
approach that we refer to as more of a streamlined NEPA 
approach that, we feel that this restoration work fits in very 
well with using this streamlined approach so that we can get 
the NEPA completed by early next year, so we can complete, get 
started on the rest of the work.
    We recognize to be able to recover any of the economic 
value of the trees, that we have about 2 years to be able to 
get this material harvested so it's usable as saw timber. For 
biomass purposes, it'll last, you know, much longer than that.
    So, with the bill itself--and I've had this discussion with 
Senator Kyl--that we want to make sure that we are allowed to 
continue our current flexibilities of using CEEs along with, 
you know, using an EEA.
    The other thing that this bill does, it provides for the 
use of a pre-decisional objection process that--it's been our 
finding that by using this, versus our current appeals process, 
it actually gives the public another opportunity to raise their 
concerns before a final decision is issued, and it makes this 
process much more collaborative. It makes our NEPA process much 
more collaborative. Also, it's been our experience that it 
allows us to have a, to move a little bit sooner to be able to 
implement our project. So, we appreciate having that authority 
to use the objection process.
    You know, under our salvage sale authority and stewardship 
authority, we can retain the receipts, but if we were using a 
timber sale to remove any of this material, those receipts 
would go to the Treasury. This bill would allow us to retain 
those receipts.
    As devastating as the Wallow fire was, I tell you, it would 
have been so much worse without the thousands of acres, the 
50,000 acres of treatment that was done through the White 
Mountain Stewardship Project.
    I've brought just one photo with me today--and I think you 
have a copy up there--and it's out of the report that Senator 
Kyl referenced. But this is one picture that shows, once again, 
how this fire, this racing fire that was coming over the top of 
the mountain; and as it moved toward the community of Alpine, 
it was a running crown fire. When it hit the treated areas, 
which were mid-slope--and you can see it identified in that 
photo--that's when the fire got out of the top of the trees, 
came down onto the ground, and allowed our firefighters to be 
successful with their suppression efforts.
    From, based on the first ten reports from our firefighters 
out there, and when I was out there on the ground and looked at 
it, without this treatment that we did throughout this part of 
the forest, we would have lost, you know, significantly more 
homes than the few that we did.
    I cannot stress enough about the importance of the work 
that we're doing through collaboration and stewardship 
contracting on a landscape scale. Without that question, that 
work modifies the fire behavior; allows our suppression efforts 
to be successful; it protects our communities; and it creates 
jobs.
    In summary, the Department supports the objectives of this 
legislation, and we want to work with the subcommittee on some 
of the specific provisions, while we still want to continue our 
ongoing work, you know, to address the objections of this 
legislation.
    In closing, I want to thank you for the opportunity to 
testify today, and I'll be happy to answer any questions you 
have.
    [The prepared statement of Mr. Tidwell follows:]
Prepared Statement of Tom Tidwell, Chief, Forest Service, Department of 
                  Agriculture, on S. 1344 and S. 1090
    Chairman Wyden, Ranking Member Barrasso, and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to provide the Department of Agriculture's views on S. 1344, the 
``Arizona Wallow Fire Recovery and Monitoring Act'' and S. 1090, the 
``Tennessee Wilderness Act of 2011.''
      s. 1344, the arizona wallow fire recovery and monitoring act
    The Department supports the objectives and comprehensive response 
that underlie the legislation and agrees that the response to this fire 
should be addressed with a sense of urgency. With or without this 
legislation, the U.S Forest Service is committed to accomplish the 
restoration objectives in a timely manner. The Wallow Fire burned over 
a half million acres of National Forest System land, as well as tribal, 
state and private lands (including lands in New Mexico). In terms of 
acres of forest burned, the Wallow Fire was the largest fire in 
Arizona's history. The effects of this wildfire are significant for the 
communities of eastern Arizona. I want to assure you that the U.S. 
Forest Service understands and appreciates the magnitude and scope of 
the task ahead to restore the landscapes damaged by this fire and we 
have already started this work.
Background
    Igniting on May 29, 2011 in the Apache-Sitgreaves National Forest 
southwest of Alpine, Arizona, the Wallow Fire was contained on July 
8th. Its cause is under investigation. The fire's burned area includes 
840 square miles (535,000 acres) and includes 24 square miles (15,000 
acres) of western New Mexico. Nearly half of the Wallow Fire's burned 
area (48%) is classified as low burn severity, 14% moderate severity 
and 16% high severity. Burned Area Emergency Response (BAER) 
assessments have been completed with approved funding and prescriptions 
being implemented. USDA agencies and Arizona State agencies are 
assisting the Forest Service at public workshops to provided 
information on programs and assistance to home owners and small 
businesses affected by fires and/or floods. At the zenith of the Wallow 
Fire's run more than 4,700 firefighters from the Forest Service and 
cooperating agencies responded. Moreover, fuels treatments developed 
with private citizens and state and local governments as part of the 
White Mountain Stewardship Project and implemented between 2004 and 
2011 successfully reduced fire behavior near the Arizona communities of 
Greer, Eagar, Nutrioso, and Alpine.
Current Planning
    The Forest Service is in the process of conducting an evaluation 
which includes an assessment of restoration needs and salvage as 
required by the bill. In order to assess the magnitude of the 
restoration needs resulting from the Wallow Fire, a Rapid Assessment 
Team was assembled. The Team is currently developing a comprehensive 
restoration plan for the Wallow Fire area. The plan will identify and 
organize all restoration needs for the Wallow Fire area, including on-
going Burned Area Emergency Response (BAER) projects, and projects to 
reduce risks to health and safety in the short term and restore the 
area over the longer term. The Forest Service will adjust work 
priorities in order to focus the resources necessary to ensure the 
recovery of the Wallow Fire area.
Ongoing and Proposed Work
    The Forest Service's BAER work is ongoing. We have just completed 
seeding some 36,000 acres of 80,000 acres projected for seeding, 
spreading straw on 18,000 acres of 25,000 projected, and are currently 
removing hazard trees along 245 miles of road from a projected 300 
miles of road needing treatment. The roadside hazard tree removal could 
result in approximately 162,000 tons of material. Approximately 39 
miles of power line corridors have been identified for emergency hazard 
tree removal (BAER work) in conjunction with various power companies. 
In addition, our post-emergency assessment shows that there is a 
substantial risk of falling hazard trees along an additional 350 miles 
of roads and power line corridors. These roads and power line corridors 
are critically important to the communities of Greer, Alpine, Nutrioso, 
and Eagar, among others. We estimate that treatments within these 
corridors could result in the removal of approximately 150,000 tons of 
material on approximately 10,400 acres. In order to minimize the safety 
risk and provide employment opportunities, we plan to proceed 
expeditiously so that some of the wood can be used for higher valued 
products.
Collaborative Efforts
    The White Mountain Stewardship collaborative, a diverse group of 
local, state, tribal, environmental and other partners, is assisting us 
in developing our rehabilitation plans. Our plan is to complete the 
environmental analyses and administrative review for the projects to 
carry out the plan, and prepare the contracts over the next several 
months. Roadside corridor work would conclude by the end of 2012. Other 
projects would conclude as expeditiously as possible. Our plan is to 
use our current authorities to utilize receipts for future salvage 
sales that carry out post-fire rehabilitation. We are planning to work 
with many of the same individuals and groups in monitoring our 
rehabilitation work.
Provisions of the Bill
    Section 4 of S. 1344 would direct the Secretary to prepare a hazard 
tree and commercial timber evaluation. The evaluation would describe 
the forest conditions in the Wallow Fire Area and the short-and long-
term risks posed by the conditions. The evaluation also would include a 
map of the areas for potential hazard tree removal, a map of areas for 
potential fire-damaged commercial tree removal, and a map of areas 
where harvest should not be considered. In the evaluation, the 
Secretary would be required to describe one or more proposals for 
timber removal projects and a description of the desired outcomes of 
rehabilitation and tree removal. The Secretary would involve the public 
in preparing the evaluation and would be required to complete the 
evaluation within 45 days after initiating it.
    Section 5 of S. 1344 also would provide that a timber removal 
project carried out under the bill would limited to the removal of 
hazard trees and the removal of trees that are already down, dead, or 
severely root-sprung such that there is a high probability of 
mortality. The bill would require the Secretary to prepare an 
environmental assessment for a timber removal project carried out under 
the bill for portions of the Wallow Fire Area that are in a Community 
Protection Management Area. The Secretary would not be required to 
consider any alternative to the proposed agency action in the 
environmental assessment. Any timber removal project carried out in the 
Wallow Fire Area would be subject to the pre-decisional objection 
process under section 105 of the Healthy Forests Restoration Act 
(HFRA). S.1344 also specifies that receipts from timber removal 
projects be available, without further appropriation for restoration 
purposes on the Apache-Sitgreaves National Forest in the State of 
Arizona.
Departmental Perspective on Specific Bill Provisions
    While we support the objectives of S. 1344, we note that the Forest 
Service already has appropriated funds, stewardship contracting 
authority, and the salvage sale fund to address various forest 
management scenarios proposed in the bill. In complying with NEPA under 
current authorities, the Forest Service is utilizing categorical 
exclusions for tree removal projects in certain high risk areas. We 
would prefer that any legislation maintain this flexibility. Under 
current authorities, the Forest Service is required to use a post-
decisional appeals process and does not have the option of using the 
pre-decisional objection process in HFRA except for hazardous fuel 
reduction projects covered by HFRA. The HFRA pre-decisional review 
procedures provide the public with an opportunity to raise concerns 
before a final decision is issued, making the process more 
collaborative and helpful.
Demonstrated Benefits of White Mountain Stewardship and Anticipated 
        Benefits from the Four Forests Restoration Initiative
    As devastating as the Wallow fire was, it could have been 
significantly worse if it had not been for the thousands of acres that 
had been treated as part of the White Mountain Stewardship project. The 
accomplishments of the White Mountain Stewardship project have been 
significant--50,851 acres treated as of July 23, 2011. The Community 
Wildfire Protection Plans for the communities of Nutrioso, Eagar, 
Alpine and Greer provided much of the guidance for the accomplishment 
of that work. There is no doubt that a significant number of 
neighborhoods and portions of the forest were spared thanks to this 
work. The forest fuels thinning and removals in the path of this fire 
clearly demonstrate what can be accomplished through collaboration and 
stewardship contracting at the landscape scale. Fire behavior can be 
modified, communities can be protected, local jobs can be created, and 
relationships between organizations and individuals can be built. The 
Four Forests Restoration Project (4FRI) is the next step in expanding 
this collaborative model. Through the 4FRI is a Collaborative Forest 
Landscape Restoration (CFLRP) project, the Forest Service aspires to 
restore approximately 2.4 million acres of ponderosa pine forests on 
portions of the Apache-Sitgreaves, Coconino, Kaibab, and Tonto National 
Forests in Northern Arizona over the next 20 years. In the past two 
years, more than eleven million dollars has been committed to this 
initiative.
    In summary, the Department supports the objectives of this 
legislation. However, we are already engaged in focusing our workforce 
and resources to accomplish these objectives in an expeditious manner 
and we have the appropriate authorities to meet the intent of this 
legislation.
             s. 1090, the tennessee wilderness act of 2011
    S. 1090, the ``Tennessee Wilderness Act of 2011,'' would designate 
seven parcels totaling 19,586 acres as wilderness in the Cherokee 
National Forest in east Tennessee. The Department strongly supports 
this legislation.
    S. 1090 would create one new wilderness area and expand the 
boundaries of five existing wilderness areas:

          1) The Upper Bald River Wilderness includes 9,038 acres and 
        contains headwaters of streams that drain into the Tellico 
        River.
          2) The Big Frog Addition to the Big Frog Wilderness includes 
        348 acres and is a mountain ridge containing the headwaters of 
        Payne Branch, a tributary of Tumbling Creek which is in turn a 
        tributary of the Ocoee River.
          3) The Little Frog Mountain Additions, NW and NE, to the 
        Little Frog Mountain Wilderness include 996 acres including the 
        headwaters of Deweese Creek and portions of Dry Pond Lead 
        Trail.
          4) The Sampson Mountain Addition to the Sampson Mountain 
        Wilderness includes 2,922 acres includes a mountain ridge and 
        the Hell Hollow Trail.
          5) The Big Laurel Branch Addition to the Big Laurel 
        Wilderness includes 4,446 acres and portions of the Appalachian 
        National Scenic Trail.
          6) Joyce Kilmer--Slickrock Addition to the Joyce Kilmer--
        Slickrock Wilderness includes 1,836 acres along a mountain 
        ridge and a portion of the Stiffknee trail.

    Wilderness management is an important part of the Forest Service 
mission. There are currently 11 designated wildernesses covering 66,600 
acres in the Cherokee National Forest. The areas proposed for 
wilderness designation in S. 1090 were recommended for wilderness 
status by the Forest Service in the development of its comprehensive 
2004 Land and Resource Management Plan (Forest Plan) for the Cherokee 
National Forest and have been managed as recommended wilderness since 
that time.
    Public involvement was an integral part of the Forest Plan revision 
process. Individuals, groups, other agencies and various organizations 
took advantage of the opportunities to provide input into the overall 
management of the Forest, including areas proposed for wilderness 
designation. The final Forest Plan reflects years of collaboration and 
public participation. Congressional designation of these areas as 
wilderness would be the culmination of this process.
    Thank you for the opportunity to appear before you today and I look 
forward to answering any questions you may have.

    Senator Wyden. All right. Thank you, both.
    Let me begin on this question of the ONC payments, you 
know, Mr. Abbey. I mean, these are extraordinarily important to 
rural Oregon. They got to counties that are very hard-hit; you 
know, where unemployment is just in the stratosphere; they just 
feel that, in this economy, they feel like they've been hit by 
a wrecking ball.
    I want to go through with you some of the errors that the 
agency has made with respect to calculating these payments, and 
try to figure out how this happened, and then what we're going 
to do to turn it around.
    Now, I learned recently that the Bureau of Land Management 
revised its estimates of county payment to be made to Oregon's 
ONC counties for Fiscal Year 2011. The revised estimate 
revealed the significant error that the Bureau of Land 
Management committed, with the result that these counties are 
going to receive approximately $11.6 million less than they 
originally planned and budgeted for. The amount of the reduced 
payment varies by counties, but for some of the counties it 
results in millions of dollars.
    Now, my understanding, from a call which Bureau of Land 
Management and Forest Service employees did with my staff and 
others in our congressional delegation, is that the Bureau of 
Land Management learned of the errors in March, when the Forest 
Service was revising its estimates for the 2011 payments. The 
Forest Service then put their revised estimates for the Forest 
Service lands on their website.
    The Bureau of Land Management did not publically post those 
numbers. Instead, the Bureau of Land Management waited until 
June to let the counties know of this error. That was after the 
counties had completed their budgets for the coming fiscal 
year. So, the changed information means that they've now got to 
go through a lengthy process to publically amend the budgets, 
and the counties, in these tough times, are going to have to 
scour their budgets again trying to figure out how to make 
deeper cuts.
    Now, I wrote to you on July 20th asking for these revised 
estimates and an explanation about the calculations, and I 
haven't gotten those revised estimates from the agency, 
although the counties have shared with me the information that 
they have with respect to what BLM provided to them. I also 
didn't get a response to my letter.
    Mr. Abbey, this is just completely unacceptable. This is so 
important to my State. As you know, I wrote the county payments 
legislation with Senator Craig, wrote the reauthorization. This 
is a matter of great importance to Oregon.
    Why don't we start by having you explain to me how the 
error occurred, one; why the counties weren't notified until 
months after the error was discovered; and why they didn't get 
this information in a timely way, to factor it into their 
budgets?
    Mr. Abbey. Let me do my best--Senator Wyden, I'm fortunate 
to work with 10,000 of the most dedicated public servants that 
you'd find anywhere in all of government. Unfortunately, 
mistakes sometimes are made.
    In December 2010, when we were putting together the final 
information for the President's--or, 2011, when we were putting 
together the information for the President's 2012 budget 
request, there was a mistake in the calculation for the ONC 
county payments. That mistake was discovered in January, or, 
February 2011, in time for us to correct that mistake and 
incorporate the correct estimates as part of the President's 
2012 budget request, which was published and disseminated to 
members of the public in March 2011.
    The mistake was compounded, unfortunately, by us not 
communicating the corrected draft estimates to the counties. 
Therefore, rather than reviewing the President's budget 
request, they were, depended upon the information that had been 
shared, you know, from the Bureau of Land Management from our 
earlier calculations as they worked to pass a budget for their 
counties for this coming fiscal year.
    What I have done is to look into the situation to see how 
the calculations were corrected; when they were corrected; why 
the communications had not been, or, why the information had 
not been communicated more timely to the ONC counties. I've got 
the information. I will include all that information as part of 
my response to your letter.
    Senator Wyden. So, when will I get that?
    Mr. Abbey. I just reviewed a draft of it yesterday 
afternoon, so you should get it within the next couple of days.
    Senator Wyden. OK. What is going to be done to try to help 
the counties get through this? I mean, this is going to be 
very, very hard on them right now in this kind of budget cycle. 
What can you tell them about how they ought to get through 
dealing with their budgets, given the fact that a mistake was 
made by the Federal, you know, Government.
    As you know this program exists because, you know, the 
Federal Government owns most of our lands. I mean, this is not 
like much of the United States, where you can sell a piece of 
private property, and taxes are paid as a result of the sale, 
and you can go about your business in providing, you know, 
services. We are in this situation because the Federal 
Government owns most of our land. So, we don't have many 
options. What can you tell our counties they ought to do to try 
to get through this budget season?
    Mr. Abbey. I wish I had those answers as well. I do know 
that the calculations are based upon law. The amount of money 
that will be distributed to the ONC counties through the Bureau 
of Land Management will be approximately 40 million, a little 
over $40 million. As part of our letter, an attachment to our 
response to your letter, would include what we estimate to be 
the breakdown by county. Again, that information will be shared 
with the county officials. To the degree that we can work with 
them to alleviate or mitigate the effects of the lost revenue, 
or, the last distribution, we will do so. But, I'm not sure we 
have a lot of options.
    Senator Wyden. I'm sure they're going to have some ideas 
for how to mitigate some of the consequences here, because they 
feel very strongly about this. To me, your point about the 
dedication of the employees of the Bureau of Land Management is 
well-taken. There's no question about that. We deal with them 
constantly, and they do a very good job.
    What I think has angered people in my part of the world is, 
you all knew about it months ago; it wasn't communicated; we're 
still trying to excavate the facts here at this subcommittee, 
and, had it been communicated in a timely way, that would have 
been the best way to kind of mitigate some of the consequences. 
So, I'm looking forward to getting your letter. I'm sure that 
the ONC counties will have some suggestions about how to 
mitigate this, because this has really made for some very 
difficult times--as if they didn't have already----
    Mr. Abbey. Yes.
    Senator Wyden [continuing]. Enough to deal with in 
communities that have unemployment, in our view, of well 
upwards of 15 percent.
    I'm going to have some other questions, but I'm over my 
time. I want to let Senator Risch ask what he desires.
    Senator Risch. Thank you very much.
    Tom, a technical question--what time did that, what time of 
day did that crown fire come of the top and take a run at 
Alpine--do you, if you know?
    Mr. Tidwell. I think it was early in the morning--Senator 
Risch, I think it was early in the morning when it, the fire 
came over the top toward Alpine.
    Senator Risch. After sunrise, or----
    Mr. Tidwell. It was, I think, right around--I could be 
wrong on that. I probably need to get back to you. But it was 
toward either, I think it was either late in the day, or 
earlier. I, just the amount of smoke, it was so dark that it 
didn't matter what time of day it was. But, I think it was--
I'll get back to you on that.
    Senator Risch. Was it making its own weather by that time, 
to----
    Mr. Tidwell. It was. By now, this fire had been burning for 
a few days. It was making big runs of thousands--tens of 
thousands of acres each day. So, well, it's, the point on this 
is that this was a fire that was burning as intense as probably 
any fire that we've seen through timber. It wasn't a grass 
fire. When it was, still had a full head of steam on it, these 
treatments made the difference. It's one of the things that 
we've learned, you know, for the treatments that we did around 
these communities, that it helps us to understand the size of 
the treatments that we do; the placement on the slope where we 
need to put these treatments will really make a difference. 
But, I'll tell you, this is an example that, if we do this 
work, and we get out and do it before we have the fires, it 
does make a difference. There's just--without any question.
    Senator Risch. That brings me to my second point. I didn't 
want to miss the opportunity to thank the Service for their 
help, when I was Governor, writing our 9.2 million acre 
roadless rule. As you know, this was a large concern of ours, 
for those small communities that we had in roadless areas, and 
the ability to be able to treat them. You and I are both well 
aware of, as you just stated, the difference that it makes when 
there has been a treatment.
    We have two sections--Idaho, the State of Idaho, has two 
sections of every township of every 36 square miles. I think 
you and I have discussed at length what a difference the 
management of our sections make, because we cut them regularly, 
and, in a very managed fashion. But, I know, having been out on 
the first, that the manager, fire managers are always happy 
when they've got some of our State sections around, or a prior 
fire, because the fire acts so much differently.
    So, I want, again, I want to publicly express my 
appreciation to the Service, to the Bush administration, and to 
the Obama administration for their enthusiastic support and 
help in our roadless rule. With that support we are, hopefully, 
going to wind up with these kind of results when the inevitable 
fire comes through, as it always does. So, thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Risch.
    Let's go to S. 1144, the Soda Ash Royalty Reduction 
legislation.
    Mr. Abbey, your testimony said that the bill will make the 
statutory requirement that the Secretary provide Congress with 
a recommendation on continuing royalty relief a moot issue. 
That is not the intent of the sponsors. Over a year ago, 
Senator Barrasso and three of my colleagues, Senator Enzi, 
Senator Merkley, and Senator Feinstein and I wrote to the 
Secretary asking that the Department expedite the soda ash 
royalty study required by the Soda Ash Royalty Reduction Act 
from 2006 so that Congress would have the information in a 
timely way to gauge whether or not royalty relief ought to be 
extended. I spoke to you earlier this year about the importance 
of the report and the importance of getting an understanding of 
the impact of foreign producers, particularly China, on the 
market.
    So, now we are just a few months from the October deadline, 
and there is still not a report. My understanding is that if 
Congress takes no further action, soda ash royalties would 
automatically increase to the higher levels. So, here we're 
dealing with a situation where the clock is ticking; there is 
no report. Let's start with when the report is going to get 
finished.
    Mr. Abbey. Again, Mr. Chairman, we anticipate delivering a 
report to Members of the Congress in September.
    Senator Wyden. OK. Now, foreign, you know, competitors, 
particularly, again, China, appear to be subsidizing their own 
production of soda ash. In April 2009, China began to offer 
soda ash exporters a 9 percent rebate on their value added 
taxes subsidy, which has continued. At that time, a bipartisan 
group of Senators and Representatives, including Senator 
Barrasso, wrote to Ron Kirk, our U.S. Trade Representative, 
asking him to take action on what we believe is a blatant 
effort to subsidize Chinese soda ash exports.
    What is the Department's estimate of the impact of foreign 
subsidies on the ability of the soda ash industry--our soda ash 
industry--to compete in the world market?
    Mr. Abbey. Again, we'll provide some of that information in 
the report. But in the meantime, I will say this--that the 
domestic industry in the United States does have some 
advantages over the synthetic soda ash that's being developed 
in some of the foreign countries.
    It is cheaper to use natural soda ash that comes mainly 
from the public lands here in the United States and so, 
therefore, it does make U.S. exports more competitive in the 
world market. If you look at the current reductions in royalty, 
no doubt that any reduction in costs, including the royalty 
payments, does enhance our domestic industry's position in the 
world market.
    Senator Wyden. One last question on the soda ash issue. I 
think it's certainly obvious to Americans now that moving 
legislation through the Congress is not exactly a quick 
process. We wanted to hold this hearing today on legislation 
because the clock is running, and it was my judgment we just 
couldn't wait any longer for the Department to come forward on 
a recommendation on extending the royalty relief for soda 
industry. I just felt we had to get going. We'd been trying for 
some time to move the process along; we haven't been able to 
get this report. It's my desire to keep working with you and 
the Secretary, but I'm beginning to have questions about 
whether this crucial work is going to get done before October.
    So, it is also my understanding that the Mineral Leasing 
Act provides the Secretary discretion to set the royalty rate 
for soda ash at 2 percent, and that it gives the Secretary the 
discretion to provide case-by-case reductions for the 
royalties. My question, then, is, to wrap up, you know, this 
matter--if the Department continues to take its time to get us 
this report, and the Congress, you know, comes back, and it's 
just not possible to get this legislation passed before 
October, what administrative action could the Department take 
to provide interim relief, given the importance of soda ash 
production to our economy and jobs? This is a jobs issue.
    Mr. Abbey. Yes.
    Senator Wyden. We try on this subcommittee to constantly 
look at energy as one of the key issues with respect to 
employment. The energy sector feeds the jobs sector of this 
county, and I outlined some of the provisions that we believe 
gives the Secretary some discretion here. Tell us what 
administration action the Department could take to provide, as 
if suggested, at least tome interim, you know, relief in an 
area that relates directly to employment of our constituents.
    Mr. Abbey. Mr. Chairman, there are provisions in our 
regulations that allow for leaseholders to apply for royalty 
rate relief, that they must meet certain criteria. There's 
three criteria that we use in reviewing such requests: First, 
the criteria is in the interest of conservation. If there's a 
reason why the industry decides to do something, or a 
particular company decides to do something, to protect the 
natural resources, and they come in to either shut down 
operations during, for some wildlife reason, or some other 
reasons, then certainly we will take that into consideration in 
looking at a royalty relief.
    A second criteria that we use is, we'll encourage the 
greatest ultimate recovery of the mineral resource itself. 
Then, the third criteria that we use to review these proposals 
is, is it necessary to either promote the development of the 
mineral resource or because the company cannot successfully 
operate the lease under the existing terms.
    So, those are the three criteria that we use to review the 
requests that may come in from the industry when they're 
seeking a royalty rate relief. We have granted such relief in 
the past in some cases for coal and some of the other leases 
that we have on public lands. We would certainly look at 
requests from the soda ash industry.
    Senator Wyden. So, I want to make sure, again, because this 
has such impact on our economy. It is pivotal right now that we 
move quickly. What else do they need to do to be able to get 
this interim relief?
    I think, the way I'd characterize it, there are jobs on the 
line; you know, soda ash for my constituents is a pivotal 
aspect of the economy, and we just do not want to lose more 
employment. What else needs to be done?
    Mr. Abbey. Again, as you indicated in your own comments, 
the royalty relief is already set for 2 percent up until the 
time that the 2006 Act expires, and that's in October. At that 
point in time, prior to October, if this bill has not been 
passed by Congress, then, certainly, the companies can apply 
following the regulations that we have in place for royalty 
relief. We would take their applications; we would take their 
requests; we'll review it; and we'll make a decisions.
    Senator Wyden. On the basis of what you know now, are they 
positioned to be able to get administrative relief?
    Mr. Abbey. Some companies may provide appropriate 
justification that we would grant such a relief; others might 
not. We would have to look at it on a case-by-case basis.
    Senator Wyden. I'm going to have some other questions on 
this. But, Senator Risch, I know, is very concerned about this 
as well, and I want to let him ask his questions.
    Senator Risch. Mr. Abbey, I hear what you're saying about 
this list of standards that you have. Who put together that 
list of standards?
    Mr. Abbey. The Bureau of Land Management put it together 
several years back. It's part of our regulations.
    Senator Risch. Don't you think maybe you ought, it's time 
to review that? It seems to me that's a pretty narrow list of 
things, particularly in light of what Senator Wyden has said 
here about how important it is in the economy and other things 
like that. I mean, this issue is broader than just the narrow 
scope, it seems to me, that those standards are, not the least 
of which is the economy, and the position we're in in the 
economy. You know, these resources belong to the people of the 
United States; and the people of the United States need relief 
right now. Since it belongs to them, we ought to see if we 
can't use it to create jobs, as suggested by Senator Wyden.
    So, I would urge--and I don't expect you to resolve this 
right here, sitting here. But I'd urge you to think about this, 
and see if there isn't some way you can review those standards, 
and not simply accept the fact that these were written in stone 
some many years ago, and that they're still there.
    Mr. Abbey. OK.
    Senator Wyden. We'll wrap this up with just one last point. 
I mean, soda ash is an industrial mineral, and it's important 
to folks in my State; it's important to folks in Wyoming; it's 
important throughout the West. Because of its relationship with 
our economy, we have got to work together on this, get it 
right, and make sure we don't lose those jobs.
    Can I leave this subject knowing that you're committed to 
working with us and the Senators from Wyoming so we get this 
done?
    Mr. Abbey. You bet.
    Senator Wyden. OK. One last question, if I might, on 
Federal geothermal leasing issues.
    Geothermal resources play an enormously important role in 
providing energy for our country. Thermal--geothermal leases 
generated more than 4,600 gigawatts of electrical power in 
2010. The bill that I've introduced is intended to help expand 
the development of proven geothermal resources by making small 
tracts adjoining proven resources available on a non-
competitive basis.
    Do you agree that this approach can help to accelerate the 
development of these resources?
    Mr. Abbey. I do. We think it's a good approach.
    Senator Wyden. All right. One last question on this, with 
respect to fair market value. I believe it's very important the 
public receive fair market value for public resources. The bill 
specifically requires the Department to obtain fair market 
value for adjacent parcels, even if they're not competitively 
leased. The bill also requires lessees to pay the higher annual 
rental payments for the adjacent parcels as if they were 
obtained competitively, though they're not.
    Any suggestions or modifications on this, Mr. Abbey, that 
could make sure that the Government, and, the fair compensation 
issue are addressed?
    Mr. Abbey. We do have a recommendation. Again, one of our 
concerns with the bill as currently written, it sets a minimal 
price on how much the Secretary may determine a fair market 
value to be. We believe that this provision is not necessary, 
because the Secretary of the Interior is also authorized under 
the provisions of this bill to use the regulatory process to 
actually establish fair market values for these leases. So, we 
believe that certain provision, or, that specific provision is 
not necessary.
    Senator Wyden. All right.
    Mr. Tidwell, you are, I think, liberated this afternoon, in 
that I don't have any questions specifically of you. Is there 
anything else that you'd like the subcommittee to know?
    Mr. Tidwell. I appreciate the time to be here, and also, 
not only to stress the importance on the recovery work, but 
also, once again, to stress the importance on the restoration 
work that we need to do before these fires occur. I just 
appreciate the opportunity to, you know, share another photo. 
We will submit the report that Senator Kyl referenced as part 
of the record today. Thank you for your time.
    Senator Wyden. Thank you.
    Senator Risch, anything else?
    Senator Risch. No. Thank you very much, but----
    Senator Wyden. All right.
    We thank you both, and you're excused.
    Let's bring forward Mr. Edward Flynn, Division Manager of 
FMC Corporation, Philadelphia, Pennsylvania, and MR. Scott 
Nichols, Manager of Lands and Permitting, U.S. Geothermal, 
Inc., Boise, Idaho.
    All right. We welcome both of you, Mr. Edward Flynn, 
Division Manager, FMC, Philadelphia, Pennsylvania, and Mr. 
Scott Nichols. Good to see you again. We welcome your remarks, 
gentlemen, and we'll make your prepared remarks part of the 
hearing record in their entirety. If you could take 5 minutes 
or so and summarize your principal concerns, that would be 
helpful.
    Mr. Flynn.

    STATEMENT OF EDWARD FLYNN, PRESIDENT, FMC WYOMING, AND 
  CHAIRMAN, BOARD OF THE AMERICAN NATURAL SODA ASH CORPORATION

    Mr. Flynn. Chairman Wyden and Senator Risch, thank you for 
the opportunity to testify on S. 1144, the Soda Ash Competition 
Act. We appreciate Mr. Abbey's willingness to work on this 
issue based on the fact that time is running out.
    Soda ash production represents U.S. manufacturing at its 
best--the United States' mineral resources mined and produced 
by American workers to be sold throughout the United States and 
across the globe.
    During the period in which the soda ash royalty has been in 
effect, we have experienced the greatest recession in most 
individuals' lifetimes. Yet, Mr. Chairman, in spite of this 
dramatic hit to the global economy, U.S. soda ash exports have 
risen by more than 1 million tons. This was the intent of the 
2006, why it was a success, and why we believe it should be 
extended, as your legislation proposes.
    We believe maintaining a current royalty of 2 percent will 
increase exports of soda ash out of the United States, because 
it will keep us competitive with Chinese synthetic soda ash 
producers, our main rivals in the world market.
    Your legislation can therefore help achieve three important 
policy goals: First, it will help grow jobs; second, it will 
help grow exports; and, third, we believe it will help grow 
Treasury revenues. Mr. Chairman, let me elaborate on these.
    Let me start first with jobs. The House first voted on a 
royalty rate reduction for the soda ash industry H.R. 4625 on 
July 19, 2004. As you know, the act didn't get passed until 
2006, but we believed in the wisdom of Congress and reacted, 
starting in 2004, which should be the comparison point. My 
company began hiring and restarting a mothballed plant which 
took almost 1 year to get back in shape, and we added about 100 
direct jobs. I should point out that these are high-paying jobs 
with an average salary of 85,000 per year with benefits, in 
very rural communities. We estimate an additional 12,000 jobs 
nationwide are directly dependent on our industry.
    This is good industrial policy, and sound energy and 
environmental policy. Synthetic soda ash produces greater 
greenhouse gas emissions and uses more energy per ton that U.S. 
soda ash.
    Second, your legislation will help grow exports. Mr. 
Chairman, our jobs growth in a natural soda ash industry is 
fueled by exports. One of every two jobs in the U.S. soda ash 
industry is dependent on exports. The U.S. soda ash industry is 
supporting achievement of the President's National Export 
Initiative. During this same period, we have seen a dramatic 
contraction in the U.S. domestic soda ash demand due to the 
housing bubble, a decline in auto demand, and a poor commercial 
construction market which has not returned to previous levels.
    So, domestic soda ash sales are down from when the act was 
passed, and exports are up. It is clear to me that, without the 
royalty increasing U.S. competitiveness, the industry and the 
jobs dependent on our industry would have been decimated during 
this recession.
    Third, we believe you're legislation will lead to increased 
Treasury revenues. The Department of the Interior 
understandably argues that it will miss out on revenue by 
maintaining the royalty rate at 2 percent. I believe that 
statement is mathematically true. However, I think that is 
looking at the tree instead of the forest, and let me tell you 
why.
    The industry has about 4 million tons of nameplate capacity 
versus what we produced in 2010. The industry and economists we 
talk to tell us that to produce those additional 4 million tons 
will require over 850 direct new jobs and 3,900 indirect or 
induced jobs. The Federal Treasury will take an additional 
income tax revenue, FICA and Medicare tax revenue from the jobs 
added. I did state before, these are high-paying jobs.
    Additional diesel taxes for the fuel to get our one-mile-
long unit trains to ports like Portland, as well as the 
increased royalty, even at 2 percent, from the additional 4 
million tons shipped. I believe the Federal Treasury will 
gain--let me repeat, gain--more than 17 million from additional 
revenue above the 14 million CBO score for not raising the 
royalty from 2 percent.
    Looking at the forest and not the trees, and as a 
businessman and a taxpayer, I believe this is a good deal--
adding jobs, and growing exports. The U.S. soda ash industry, 
which is cleaner and greener than foreign competitors, has 
proven, since the 2 percent royalty has been in place, a steady 
increase in export growth will occur due to the increased 
competitiveness of the U.S. natural soda ash industry.
    The wisdom of Congress to make the U.S. soda ash industry 
more competitive to spur export growth has been a success. I 
ask you to let it continue.
    Thank you for this opportunity. I would welcome any 
questions you may have.
    [The prepared statement of Mr. Flynn follows:]
    Prepared Statement of Edward Flynn, President, FMC Wyoming, and 
  Chairman, Board of the American Natural Soda Ash Corporation, on S. 
                                  1144
                              introduction
    Chairman Wyden, Ranking Member Barrasso, and Members of the 
Committee, we thank you for the opportunity to testify on S 1144, the 
Soda Ash Competition Act. The U.S. soda ash industry is an American 
success story. American natural soda ash is produced largely in 
Wyoming, and also in California. Soda ash exports are positively 
contributing nearly one billion dollars annually to our balance of 
trade and some 3,000 direct jobs. Your legislation, by maintaining the 
current royalty rate for soda ash produced on federal lands at two 
percent, will allow this important domestic industry to continue to 
steadily grow both exports and therefore U.S. jobs. It is precisely the 
sort of growth that is required if we are to realize the goals 
contained in President Obama's National Export Initiative.
    As recently as June of this year FMC, which is the largest of the 
four Wyoming producers, announced the addition of significantly 
expanded capacity and 100 new jobs to meet growing export demands. This 
was our way of expressing confidence that Congress will see fit to 
continue its current royalty rate that encourages this jobs and export 
growth into the foreseeable future. The predictability offered by 
passage of your legislation that extends the current royalty two 
percent rate will enable the American natural soda ash industry to 
invest in further expansion that create more manufacturing jobs and 
more shipments from Portland Oregon and Port Arthur Texas to important 
new Asian and Latin American markets. Mr. Chairman, though there is no 
expiration date in the Soda Ash Royalty Reduction Act of 2006, some 
will interpret it to expire on October 12 of this year. For this reason 
we urge prompt enactment of your legislation, S. 1144.
        rationale for the soda ash royalty reduction act of 2006
    We believe it is important for members of the Committee to know 
that our domestic American natural soda ash industry continues to face 
substantially the same international pressure from off shore producers 
that led to enactment of the original Soda Ash Royalty Reduction Act of 
2006. Let me briefly review, therefore, what prompted Congress to take 
this important action in the first place.
    In the fifteen years between 1982 and 1997, our domestic soda ash 
industry enjoyed a steady and significant growth in exports. But after 
1997 export growth slowed dramatically. By 2003 our U.S. exports were 
only 4% above their 1997 levels. This rapid decline in export growth 
resulted from a sudden and dramatic change in global competition. More 
significantly, in the brief span of the decade of the 1990's, China 
went from importing over one million tons of soda ash per year of soda 
ash a year to becoming a two million ton net exporter. By 2000 China 
had become the world's largest producer of soda ash, though hardly it's 
most efficient. A growing number of state owned Chinese producers 
making soda ash from a more energy intensive and more greenhouse gas 
generating synthetic process flooded international markets with low 
cost material aided by an export VAT rebate incentive. While these 
exports had a larger carbon footprint they were hurting our cleaner, 
more efficient American natural soda ash producers in growing markets 
particularly those in Asia and South America.
    Faced with this state owned competition, we identified innovative 
ways to reduce spiraling structural costs, and the increasing prices we 
paid for energy and transportation. However, as our export growth 
slowed in the early part of the last decade we also had to reduce 
employment. This was not a preferred option. In this context of slowing 
exports and recurring restructuring initiatives early, in 2004 we asked 
the Congress to consider that the royalty we pay on each ton of soda 
ash be assessed at two percent as called for in the Minerals Leasing 
Act. We testified then that our low cost natural soda ash production 
process when allowed to compete fairly on a level playing field can 
beat any other producer in the world. In sum, then as now, if 
conditions are equal, we know we can compete with any other global 
producer. We can mine the vast underground trona ore reserves in 
Wyoming, bring this raw material above ground to be processed into soda 
ash, ship it by rail to Portland and Port Arthur, and deliver to any 
Asian port and effectively compete for our fair share of global 
business against the Chinese.
                      results of the current rate
    Mr. Chairman we are pleased to report that as a result of the 
action Congress took in 2006, our industry has experienced sustained 
growth driven by our ability to again grow exports. Despite a global 
recession and a continuing slow recovery, the American Natural Soda Ash 
industry added almost 100 new jobs in 2010 and expects to add 100 more 
in the next two years. To put this in perspective, one out of every two 
jobs in our U.S. soda ash industry is now the direct result of exports. 
During the period from 2006 to 2010, while our domestic volume declined 
from 6.1 million to 5.8 million tons, our export volume grew from 4.8 
million to almost 6 million tons.
    Our global competitiveness is a direct result of our ability to 
reinvest in our business made possible by the reduced royalty rate. 
Since passage of the act in 2006 we have reinvested in our business at 
rates well above those before its passage. In 2005, the year before the 
royalty was enacted the US soda ash industry spent some $88 million 
dollars in capital improvements. In 2006, the year after passage, and 
with the predictability of a stable two percent royalty, the US soda 
ash industry nearly doubled that rate of investment in our future 
spending $158 million dollars in expanded capacity and improvements.
    Importantly, we believe there can be additional growth on the 
horizon with predictability in government policies that encourage 
investment for exports . The U.S. nameplate annual capacity for soda 
ash is estimated by USGS to be 15.6 million tons. The actual 2010 
production was 11.7 million tons. We believe that with the current 
combination of federal lands and trade policies in place, we can 
continue this steady growth toward realizing nameplate capacity adding 
almost 4 million new tons of production over the next decade if not 
sooner. We estimate this growth in capacity could mean some 850 new 
jobs in Wyoming alone. My company's recent announcement means we are 
already contributing 500,000 more tons of annual capacity and 100 more 
jobs toward these goals.
    This steady industry expansion over the next decade we estimate 
could ultimately result in some $27 million dollars annually in 
additional new income tax revenues (at current rates) from both direct 
and indirect jobs attributable to added employment. There are other 
benefits to the Treasury as well from this steady expansion realized 
from the increase in other revenue streams from increasing property, 
sales, and fuel taxes. Thus while some may argue the current royalty 
has resulted in a $5 million loss to the Treasury between the rates we 
paid in 2005 (the year before the current royalty took effect) and 
2010, we would argue that the growth of jobs and exports and therefore 
additional tax revenues more than compensates for any reduced royalty 
revenue. We therefore ask is it worth it to take a $5 million risk by 
raising the royalty we pay, when the impact on jobs creation and export 
growth could return us to pre 2006 levels?
                               conclusion
    For these reasons, Mr. Chairman, we strongly believe that enactment 
of your bipartisan legislation is critical to realizing the steady 
growth toward the full capacity of this important U.S. industry. We 
possess vast reserves of a raw material that allow the U.S. to produce 
soda ash naturally, not synthetically, and therefore offer us 
significant cost and environmental advantages when allowed to compete 
on a level global playing field. We have a committed work force 
including steelworkers and longshoreman that strive to maintain this 
low cost advantage by continually improving already safe and efficient 
operations. Finally, we have in place supportive trade and lands 
policies that seek to reduce the barriers to our international 
competitiveness and the impacts of state sponsored production. In 
short, Mr. Chairman, we have a formula for success that is working. The 
current royalty is an important component of that success. Why risk 
changing a formula that works? Your legislation recognizes the 
importance of continuing policies that work to grow jobs and exports. 
We should not risk reducing our competitiveness in a global business we 
should continue to lead. Thank you, Mr. Chairman for the opportunity to 
provide our views in support of S 1144.

    Senator Wyden. We'll have some in a moment.
    We thank you, Mr. Flynn, and know that you all have been 
working closely with us. We appreciate it.
    Mr. Nichols, welcome.

       STATEMENT OF SCOTT NICHOLS, U.S. GEOTHERMAL, INC.

    Mr. Nichols. Chairman Wyden, Senator Risch, I want to thank 
you for being here today--Chairman Wyden, Senator Risch. I 
apologize.
    My name is Scott Nichols. I'm here representing U.S. 
Geothermal. I've been the Lands and Permitting Manager with the 
company now for the last three and a half years.
    U.S. Geothermal is a publicly traded company out of Boise, 
Idaho. We have projects in Nevada, Oregon, and in southeast 
Idaho. We explore, develop and operate utility-scale geothermal 
power plants. We're also a member of the Geothermal Energy 
Association on the, and on the Board of Directors.
    I'm glad to hear that the Geothermal Energy Association has 
provided under separate cover written testimony supporting S. 
1149.
    U.S. Geothermal strongly supports this bill. We, this bill 
was, actually, the brainchild of our company a number of years 
ago. S. 1149 simply allows a developer like us who's taken--or 
anybody else--who's taken the high risk of exploration and 
development, and invested significant capital in that 
discovery, that commercial geothermal resource, the ability to 
add up to 640 acres of critical adjoining lands--just up to 640 
acres of critical adjoining lands.
    The bill addresses a problem that was not anticipated under 
the Energy Policy Act of 2005--specifically, numerous 
geothermal resources throughout the West are located on lands 
that are mixed ownership--State, private and Federal. This bill 
allows us to secure those lands without going out for lease.
    The geothermal provisions of the Energy Policy Act were 
intended to support an increased production of geothermal 
energy in the United States. Originally, those lands were 
available over the counter, and the auction system was mandated 
under the Energy Policy Act. The first geothermal auctions 
occurred in 2007.
    Under the current leasing provisions, BLM is also allowed 
to issue non-competitive leases. There are three circumstances 
currently where the Energy Policy Act allows the BLM to issue 
these leases. They are, first, under a mining claimant who has 
a valid operation; second would be for the direct use of that 
heat in the production of, for example, a, well, direct use 
heat, for greenhouses, for example; last would be for parcels 
that have gone unleased.
    Similar to mining, S. 1149 would create a fourth category 
of non-competitive lease whereby the BLM would have authority 
to issue non-competitive geothermal leases, again, for up to 
640 acres where we have discovered adjoining--discover 
resources on adjoining State, private or Federal lands.
    I think it's also important to note that, as we talk here 
today, the State of Idaho is considering geothermal legislation 
that also has this very similar language. The State of Idaho is 
intending and will, we anticipate, allow the adjoining of 
State, adjacent State lands if there's an existing Federal 
lease in play.
    The change provides the following benefits: First, it 
allows us, the developers that have invested substantial 
capital and made high-risk investments to secure a documented 
geothermal discovery; second, it allows the development of 
geothermal resources for the creation of new jobs in rural 
areas, it allows us to finance projects, it increases short-
term bonuses to the Bureau of Land Management and our Treasury, 
and it ensures long-term production of geothermal royalties; 
finally, S. 1149 would provide a more efficient and optimal 
development of geothermal resources. It allows a developer to 
bring the resources to a single land package.
    I want to reiterate--there are many fragmented land parcels 
in the West, and there simply isn't the incentive to bring 
those parcels to market when we can't assure ourselves that we 
can secure those additional resources that may be critical to 
the development of that project.
    We believe that it's appropriate for all leases issued 
under the non-competitive categories to pay a filing and bonus 
fees that are fair market value. We agree with the Secretary's 
ability under this legislation to establish that fair market 
value. We believe that that should be an administrative 
decision and an administrative process, and that we ought to 
move forward in that role as quickly as possible with the BLM.
    In summary, I'd like to say that S. 1149 has been carefully 
crafted over the last 3 years. It is narrowly focused so that 
when a commercial geothermal resource is identified, it can be 
brought to market in a timely, effective manner. It can assure 
us--it allows us a better assurance of financing.
    The United States leads the world in geothermal energy 
production. This is clean, renewable baseload power. We would 
like to see us in the West retain that position.
    I want to thank you for considering these comments, and I'd 
like to stand for any questions.
    [The prepared statement of Mr. Nichols follows:]
 Prepared Statement of Scott Nichols, U.S. Geothermal, Inc., on S. 1149
    Mr. Chairman and members of the Subcommittee, my name is Scott 
Nichols and I am here today representing U.S. Geothermal Inc. U.S. 
Geothermal is a publicly traded company that explores for, develops, 
builds and operates utility scale geothermal power plants. We are a 
member of the board of directors of the Geothermal Energy Association, 
which is a trade association composed of U.S. companies who support the 
expanded use of geothermal energy and are developing geothermal 
resources worldwide for electrical power generation and direct-heat 
uses. The membership of the Geothermal Energy Association includes 
large utilities and Independent Power Producers, equipment suppliers, 
drilling companies, technical and financial service providers, in 
addition to developers like U.S. Geothermal. These companies are 
primarily focused on the exploration, development and generation of 
clean, base load electricity from our country's great geothermal 
resource base.
    U.S. Geothermal and the Geothermal Energy Association strongly 
support Senate Bill 1149, the Geothermal Production Expansion Act of 
2011. Very simply, Senate Bill 1149 allows a developer that has taken 
the high risk of exploration and invested significant capital in the 
discovery of a commercial geothermal resource, the ability to add up to 
640 acres of critical adjoining federal resource so a power plant can 
be financed and built without exposing the project to the high cost of 
delay and speculation. We believe S. 1149 is an important, small policy 
adjustment to the geothermal leasing process that will promote the 
development of mixed ownership properties, help accelerate the 
development of our geothermal resources, create new jobs, and provide 
additional revenue for the United States treasury.
    S. 1149 addresses a vexing problem as the private sector ramps up 
to develop this proven, renewable resource. A large portion of the 
potential geothermal resources in the United States are located on 
federally administered lands in the West. Oftentimes these federal 
resources are mixed with private and state land, which reduces a 
developer's interest in leasing and working to develop a geothermal 
resource.
    The geothermal provisions in the Energy Policy Act of 2005 were 
intended to support and increase the production of geothermal energy in 
the United States. A provision of EPACT 2005 mandated a change in how 
geothermal leases are issued--from an open leasing system to an auction 
based system. These changes were implemented with the first auction of 
geothermal leases in 2007.
    The changes to the geothermal steam act made by the Energy Policy 
ACT 2005 have been beneficial for both the federal government and the 
geothermal industry. While the leasing provisions of EPACT 2005 have 
allowed a significant acreage of federal lands to be leased, a 
challenge was created by the new leasing rules when there are 
intermixed lands (public, private and state). This issue was first 
brought to light during the public forums held to discuss the proposed 
rules issued by the BLM in July 2006, but there is no specific 
provision in the statue that allowed for an exception to address the 
circumstances of intermixed land. Senate Bill 1149 will correct that 
oversight.
    Under the current leasing provisions, the BLM is allowed to issue 
non-competitive leases under three specific circumstances; leases to 
mining claim holders that have a valid operating plan, direct use 
leases, and leases on parcels that do not sell at a competitive 
auction. The mining claim category is very similar to the situation 
addressed by the proposed language in S. 1149 as it allows a mining 
developer that already has a mineral discovery and has invested a 
significant amount of capital to secure the property.
    S. 1149 would create a fourth category of non-competitive lease 
whereby the BLM would have the authority to issue a non-competitive 
geothermal lease for 640 acres or less of federal lands that adjoin a 
commercial geothermal discovery, but only if those federal lands are 
not already leased or nominated for lease under the auction system. The 
applicant must also demonstrate conclusively that the commercial 
geothermal discovery extends on to the adjoining federal lands. This 
bill provides a very specific, laser focused requirement for a 
geothermal developer to qualify for this proposed non-competitive 
lease.
    This change would provide the following benefits:

  <bullet> Developers that have invested substantial capital and made 
        high risk investments would be allowed to secure a documented 
        discovery.
  <bullet> Development of the geothermal resource would accelerate the 
        creation of jobs.
  <bullet> The financing capabilities of geothermal projects would 
        increase.
  <bullet> All non-competitive leaseholders would be required to pay a 
        market average ``bonus'' fee and thereby increase the short 
        term fees paid to the federal government.
  <bullet> Increased development will provide higher revenue to the 
        federal government with the payment of production royalties 
        over decades.

    In addition, Senate Bill 1149 would provide for a more efficient 
and optimal development of a geothermal resource since it allows a 
developer to bring the resource in to a single land package. Fragmented 
ownership adds significant additional time and cost to the development 
of a geothermal project, can reduce overall power generation from a 
geothermal resource, and in some instances may stop development 
altogether.
    We believe that it is appropriate for all leases issued under all 
of the non-competitive categories to pay a filing or bonus fee set at 
the fair market value per acre as determined by the Secretary of 
Interior. If a fair market value isn't determined by the Secretary, 
then a fee equal to four times the median price paid at auction during 
the preceding year or $50 per acre is due. This fee is fair and 
provides increased funding for the BLM leasing program. Recipients of 
non-competitive leases should be required to pay for the privilege of 
being granted a non-competitive lease.
    While the early years of geothermal leasing caused much excitement 
and some speculators paid extremely high bonus bid amounts for tracts 
of land, experienced developers know that there is an economic limit to 
the amount of capital that can be recovered when you are selling 
electricity into a regulated market.
    S. 1149 has been carefully vetted over the past 3 years, and is 
narrowly focused to provide a specific remedy for intermixed lands, so 
that when a commercial geothermal resource has been identified, it can 
be developed in a timely, cost effective manner. The United States 
leads the world in clean, base load power generation from geothermal 
resources, and we would like to see us retain that preeminent position. 
Thank you for considering our comments on this important issue to the 
geothermal industry. I am happy to respond to any questions.

    Senator Wyden. Thank you, Mr. Nichols. I appreciated your 
coming to my town hall meeting as well in Ontario and----
    Mr. Nichols. Thank you
    Senator Wyden [continuing]. I just appreciate it. I always 
like it when folks from Idaho come over and spend a lot of 
money in Oregon. We think that's generally a good, good policy.
    Mr. Nichols. We're happy to be there. We intend to be there 
for many years.
    Senator Risch. That door swings both ways.
    Senator Wyden. It does, indeed. Mr. Flynn, a question for 
your first with respect to competitiveness. I think you know I 
also chair the Senate Finance Subcommittee on International 
Trade. I go into all of these debates saying expanded trade is 
good for us in this country, we want to promote it in every way 
possible; but we also want to stand up for our folks and make 
sure that they're treated fairly. Certainly, there are number 
of markets where we have seen unfair interference by foreign 
governments to gain a competitive edge.
    In the case of your industry, I think it's fair to say the 
Chinese have flip-flopped. You know, they have flip-flopped, 
for, example, on whether or not they're going to provide a 
rebate on the VAT tax to synthetic soda ash exporters.
    Tell me a little bit about the impact on foreign 
competition in your industry, and how important this question 
of competitiveness is for your company.
    Mr. Flynn. As I said in my verbal testimony, one of every 
two jobs in the U.S. soda ash industry, and the jobs that are 
supported by the soda ash industry--those that, railroad 
workers or port workers--depends on exports. We compete 
against, in many cases--in particular, let's talk about China, 
where over 60 percent of the soda ash competitors are State-
owned. So, what that means is they don't have to make a profit.
    When the global economic crisis happened, we saw them 
selling below their cash cost--in fact, in some cases, below 
their variable cash cost, which meant they weren't making any 
money, just to grab market share away from the United States. 
They grabbed significant market share away from the United 
States during that period of time. One hundred percent of the 
soda ash that is exported from China does get the VAT rebate 
which was reinstated in 2009, which lowers their costs.
    Senator Wyden. What would be the impact on your industry 
and these jobs that I've been referring to this afternoon if 
you have an abrupt, you know, change of policy? As you know, 
there is this understanding that the current 2 percent cap on 
soda ash royalties expires in the middle of October, October 
12th of this year. I think it would be helpful to know what the 
consequences to you all would be about an approach that 
involved, just, an abrupt change right now.
    Mr. Flynn. I think the, my own belief, and I could speak 
for my company and then project what I think would happen in 
the industry. I think we're looking at, we believe that we can 
remain competitive against these foreign competitors, and that 
we can continue to grow exports.
    In the case of FMC, we have begun work--our Board of 
Directors has authorized spending $5 million on pre-engineering 
for an expansion. There's a set of assumptions that go into 
finally going to the Board of Directors about the large amount 
of money to do the full expansion. I think--and that assumption 
is that the 2 percent royalty would stay in place.
    I think that would cause, in many cases, both FMC and other 
companies, to say, I'm not sure we want to do that expansion. 
We might put that investment in some other business line, or 
some other country.
    Senator Wyden. So, if it expires, it has direct effects on 
possible investments that would translate to more jobs in this 
area?
    Mr. Flynn. That is correct.
    Senator Wyden. OK.
    Mr. Flynn. I would just relate it to when the economic 
crisis happened, and the total output of soda ash of the United 
States dropped dramatically, there were jobs lost directly in 
the industry, and also that rippled through the economy, 
whether it was on a railroad or in the ports of Portland, Port 
Arthur, Texas. It ripples its way all the way through the 
economy.
    Senator Wyden. I appreciate your laying that out for us. 
Because one aspect of our duties on the Finance subcommittee, 
the Trade subcommittee, is to promote policies that ensure 
American competitiveness. It's in the title of the 
subcommittee. My sense is, between this subcommittee and that 
one, we have some ideal ways to do it. I appreciate your laying 
out the consequences of what happens if the current 2 percent, 
you know, cap expires, because people need to know this will 
affect real investments--investments, as you characterize your 
Board of Directors is looking at that would translate into more 
jobs. I appreciate that.
    Mr. Nichols, a question for you. We also think geothermal 
power is something that has a lot of economic potential. I 
think I mentioned to you Klamath Falls and some of the exciting 
work that's being done there. There, college, you know, for 
example, the only college in the world that is heated 
exclusively with geothermal. So, Oregon feels very strongly 
about the prospects of geothermal, and we're very encouraged by 
your project.
    It's my understanding that, as a project developer, that 
allowing you all to get adjacent land would offer several 
benefits that assist the Bureau of Land Management and the 
Government. First, your project output is going to increase, 
and you're going to be paying larger royalties over the long 
term. Second, the adjacent land, which is now, as I understand 
it, not going to be developed, would be developed, so there 
would be an additional lease payment at fair market value, and 
additional rental payments.
    So, all of these revenues would go to the Treasury. They're 
not going there now. That would be direct benefits, certainly, 
that would kick in as the project got off the ground. Is that 
correct?
    Mr. Nichols. Chairman Wyden, Senator Risch, that's correct.
    This bill really addresses, like we said, not only allows, 
or, promotes--promotes new development. The bottom line is that 
there, like I said, there are mixed ownership properties, maybe 
even some existing Federal lease properties, where a developer 
is unwilling to expend large, large sums of money necessary for 
the geothermal evaluation of an individual site. AIt just is 
very difficult, as Mr. Flynn commented about his investment 
decisions in terms of royalty, it's very difficult for a 
geothermal power company, a producer, to make a decision to 
expend those millions of dollars when we can't be assured that, 
if that resource extends off the property we currently control, 
that we can't acquire that resource.
    We are not asking for a handout, and we believe we should 
pay fair market value and be treated just the same as any other 
over-the-counter direct lessee. But, the ability that we have 
to know that that land is available is a key component of our 
decision process to invest those dollars.
    Senator Wyden. I'm over my time. I want to ask you one last 
question, and then let my friend Senator Risch ask you 
questions for an hour or two, or whatever he desire.
    Here's my question for you with respect to the issue of the 
adjacent, you know, parcels, Mr. Nichols. One of the reasons 
for the legislation is, we've come to feel that it will help 
avoid the gridlock that can come from speculation on adjacent 
parcels of land once a developer has staked a geothermal claim.
    Could you explain to us why a company such as yours should 
not leave the process for leasing as it is and let BLM allow 
competitors to have access to the land?
    Mr. Nichols. Chairman Wyden, the, you know, it's a very 
interesting scenario. There are some prospects out there that 
will be competitively bid. Other prospects that are, I would 
say, yet undiscovered, those are the ones that we're trying to 
bring to market; or, adjacent lands, like you say, that are key 
critical aspects.
    What happens is, although speculation is a normal part of 
our business life--we do it every day in the markets, the 
geothermal industry--I, on the plane trip here--I liken the 
original BLM offerings in geothermal leasing to an IPO. The 
excitement was boundless. Everybody was over the top. That, 
however, led to a realization that the industry, with these 
very small long-term revenues--nobody wants to pay more than a 
few cents per kilowatt for their power. Even we here today 
don't want to pay any more than we have to for power. That 
speculation in this market can drive those costs beyond the 
realm of our ability to develop them.
    Senator Wyden. OK.
    Mr. Nichols. That's why this is important.
    Senator Wyden. Thank you very much.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    I'm going to brag a little bit about Idaho's geothermal.
    Senator Wyden. Good.
    Senator Risch. Our State Capitol is heated with geothermal 
water, as are a lot of the homes in downtown Boise. We have a 
lot of geothermal.
    Mr. Nichols' company runs what I would call as close to a 
perpetual motion machine as I've ever seen, where they take hot 
water out of the ground, and use, turn a turbine, and put it 
back in the ground and heat it up, and it comes back up again. 
So, it's kind of an amazing thing.
    Having said that, I think virtually everyone understands 
what a high-risk business it is. The entrepreneurs and the free 
market people that go out there are to be commended, that look 
for this.
    We, I think, virtually everyone here wants to help every 
way we can with this particular method of generating 
electricity, heat, and what have you.
    One thing you can be thankful for, Mr. Nichols, is, it 
doesn't seem that your industry is as politically correct as 
wind and solar, and for that matter, the ethanol thing that 
turned this institution on its head some years back. Because 
the minute the Congress discovers that, they want to get their 
hands on it, and they want to help you so much that they will 
cause all kinds of turmoil for you, that we're seeing now in 
those other more politically correct forms of generating 
energy. So, you can be thankful for that.
    But, thank you for what you do. You're a great addition to 
Idaho, and we're glad to have you. I think most of us 
understand, I think, particularly those that have visited 
geothermal sites understand how necessary it is that, if you're 
going to spend the money and do this high-risk exploration, you 
need to have the benefits of it, not only on the particular 
section that you're on, but on the adjacent sections, too. So, 
I think all of us are committed to seeing if we can't find a 
way to help you.
    Mr. Nichols. Thank you.
    Senator Risch. Mr. Flynn, likewise, we're certainly glad to 
have your company in Idaho. It's a good corporate citizen, and 
we appreciate you being there.
    Your comments about what's going to happen on October the 
12th are well taken. We hear this, Senator Wyden and I hear 
this every day, about certainty. Business can thrive if you 
have certainty. There is almost nothing that is more 
destructive to the stock market, to the investors, to the free 
market system, than uncertainty. So, I think we're all 
committed to try to do something about this October 12th date. 
The Congress, as you know, isn't geared sometimes to do these 
kinds of things. But I think Senator Wyden and I can commit 
that we'll do everything we can to help you out and keep this 
going, because jobs right now is where it's at. American people 
are hurting. We need these jobs. So, thank you for what you're 
doing.
    Thank both of you for being----
    Mr. Flynn. Thank you, Senator.
    Senator Risch [continuing]. Good corporate citizens of 
Idaho.
    Thank you, Mr. Chairman.
    Senator Wyden. I thank you, Senator Risch. I think you 
really summed it up, you know, well. If you just look at the 
events of the last, you know, week or so, we've had a 
bipartisan effort on the soda ash question, and important 
industry, you know, mineral; on geothermal, another bipartisan 
effort with our colleagues; we've already moved the Hydropower 
Improvement Act in committee. So, I think you sum it up very 
well.
    This is about jobs. There can be plenty other issues.
    Mr. Flynn, as you know, Senator Coats and I have introduced 
the first bipartisan tax reform bill in a quarter century. 
We're hoping to get moving as part of the super-committee 
process that will begin in the fall.
    But, we'll leave today with our thanks to both of you for 
being here. Both of you represent sectors, as I mentioned, that 
are extremely important to the Oregon economy, extremely 
important to Westerners, like Senator Risch, and we'll be 
following up with you. We're going to get these issues 
addressed and, particularly, ensure the jobs that are so 
important to the West and our country.
    With that, we'll excuse you. I think you're the last 
witnesses in the Senate before the August break. At least----
    Mr. Flynn. Appreciate that.
    Senator Wyden [continuing]. I'm advised that. So, you're 
liberated, and we thank you.
    The subcommittee is adjourned.
    [Whereupon, at 3:54 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Robert Abbey to Questions From Senator Murkowski
                                s. 1024
    Question 1. Given the border situation in Arizona, Texas, New 
Mexico and California and the refuge that additional Wilderness 
designations might afford those that seek out remote places to traffic 
in illegal drugs and illegal immigration activities; do you think it 
would be better to pull the boundaries of the proposed wilderness back 
even further from the Mexico border than has been proposed by S. 1024?
    Answer. No, the Administration supports the boundaries proposed in 
S. 1024. As we noted in our testimony, a number of improvements have 
been made to the bill in order to accommodate law enforcement needs 
including releasing additional lands near the border with Mexico, and 
special provisions to allow law enforcement to install communications 
and surveillance facilities on a wide area of land as may be needed.
                                s. 1149
Lease payments
    I have two questions on the geothermal bill. Currently in Nevada, 
the state that has had the most leasing of federal lands for geothermal 
activities, the average payment per acre is roughly $12 and that 
average apparently is lower for surrounding states in the Lower 48.
    Question 1. To my knowledge there has been no leases sought on 
federal lands in my home State of Alaska, so there is no data for what 
a relevant lease amount may be in Alaska. My question is, is the 
requirement that a potential leasee pay four times the amount of the 
existing lease, or a minimum of $50 per acre for a neighboring site the 
correct amount?
    Answer. The BLM is also concerned about the provision of S. 1149 
that set a minimum price on how the Secretary may determine the fair 
market value for a non-competitive geothermal lease on adjoining lands, 
in part because lease values vary from site to site and across states 
and regions. The establishment of a minimum price as defined by S. 1149 
would not account for these local valuation factors. The BLM instead 
supports the requirement that regulations be promulgated to establish 
procedures for determining the fair market value of leases on adjoining 
lands.
    Question 2. While we don't want to give anyone too good of a lease 
deal for a non-competitive lease extension, still if this bill is going 
to increase geothermal energy production, the lease can't be too high 
as to be non-competitive on an economic basis. Any view on the lease 
terms built into the bill and whether they walk that fine line 
appropriately?
    Answer. The BLM supports the requirement that regulations be 
prepared to determine the appropriate fair market value for non-
competitive leases on adjoining lands. Through the regulatory process, 
DOI can appropriately consider the economic value and site specific 
factors that may influence the fair market value of a lease.
                                s. 1144
    Question 1. If this bill is not passed before October, what are the 
Administrative options that the Secretary of Interior will have to 
provide this important industry an extension of the royalty relief?
    Answer. The current regulations enable royalty reduction on a case-
by-case basis, subject to the leaseholder's presentation of information 
demonstrating that he meets the criteria of the currently applicable 
regulations as contained at 43 C.F.R. Subpart 3513. Under that Subpart, 
leaseholders may apply for a royalty rate relief if they meet certain 
criteria. Under 43 C.F.R. Sec.  3513.12, the BLM ``will consider if 
approval:

          (a) is in the interest of conservation;
          (b) will encourage the greatest ultimate recovery of the 
        resource; and
          (c) is necessary either to promote development of the mineral 
        resources or because you cannot successfully operate the lease 
        under existing terms.''

    The BLM has processed royalty rate reduction applications from many 
solid mineral lessees. We analyze operational and financial information 
submitted by the operator and determine if a royalty rate reduction is 
justified, based on the above-described criteria.
    The BLM has established Royalty Rate Reduction Guidelines under 
which applications may be processed under five categories; (1) Expanded 
Recovery, (2) Extension of Mine Life, (3) Financial Test--Unsuccessful 
Operations, (4) Financial Test--Expanded Recovery / Extension of Mine 
Life, and (5) Regional. These guidelines are subject to, and must be 
implemented consistent with, the provisions of the applicable 
regulations. Administratively complete applications containing the 
information and documentation required by 43 C.F.R. Sec.  3513.15 to 
justify the rate reduction request must be received from the lessee and 
evaluated by BLM on a lease-by lease basis. Following such submission, 
if BLM determines that the criteria of the applicable regulation, 43 
C.F.R. Sec.  3513.12, have been met, royalty rate reductions may be 
granted on a lease-by-lease basis. Each such decision would be 
dependent upon the particular facts presented in each case and thus, 
there is no guarantee that every applicant will receive the requested 
reduction.
    As noted in the letter accompanying the report to Congress, the BLM 
is willing to entertain ``bundled'' requests for royalty relief when 
similarly situated leaseholders jointly submit information that meets 
the regulatory tests for which royalty reduction is sought.
    The minimum royalty rate for federal sodium leases is 2%, as set by 
the 1920 Mineral Leasing Act. Most federal sodium leases in Wyoming 
were initially issued with a royalty rate of 5%. In the early 1990s, 
BLM began a process of raising the federal rate to match the 8% local 
private lease royalty rate. In 1996, the decision was reached to issue 
any new federal leases at 8%, and renew existing leases at 6%. There 
are currently eight sodium leases in Wyoming at 8%, 49 leases at 6%, 
and four leases at 5%.
    Question 2. At this point, lacking an extension, what will the 
Bureau of Land Management recommend to the Secretary of dropping the 
Soda Ash Royalty back down to the 2 percent range?
    Answer. As previously noted, the current regulations enable royalty 
reduction on a case-by-case basis, subject to the leaseholder's 
presentation of information demonstrating that he meets the criteria of 
the currently applicable regulations as contained at 43 C.F.R. Subpart 
3513. DOI delivered a report to Congress on September 30, 2011, on the 
Soda Ash Royalty Reduction Act of 2006. The report found that ``the Act 
resulted in substantial unrealized royalty revenues to the Federal 
Government and the states which exceeded Congressional estimates. The 
royalty rate reduction does not appear to have contributed in a 
significant way to the creation of new jobs within the industry, to 
increased exports, or to a notable increase in capital expenditures to 
enhance production. In addition, the royalty rate reduction appears to 
have influenced a shift of production away from state leases and 
private lands and onto Federal leases.'' As noted in the letter 
accompanying the report to Congress, the BLM is willing to entertain 
``bundled'' requests for royalty relief when similarly situated 
leaseholders jointly submit information that meets the regulatory tests 
for which royalty reduction is sought.
       Responses of Robert Abbey to Questions From Senator Heller
                                s. 1024
    Question 1. Under BLM's regulations for managing Wilderness areas, 
are Border Patrol and law enforcement officials allowed to patrol, in 
routine circumstances, Wilderness areas with mechanized vehicles? On 
bicycle?
    Answer. BLM regulations for managing Wilderness areas (43CFR 6303) 
specify that BLM may authorize officers, employees, agencies, or agents 
of Federal, State, and local governments to occupy and use wilderness 
areas to carry out the purposes of the Wilderness Act or other Federal 
statutes. Unless another Federal statute required use of motorized and 
mechanized vehicles, including bicycles, routine patrols using such 
methods would not be permitted by these agencies. Routine patrols could 
be conducted by foot or horseback, or by air. However, under emergency 
conditions, such as law enforcement emergencies, motorized and 
mechanized vehicles may be used.
    Question 2. In September of 2010 there were reports by news outlets 
in New Mexico that BLM was blocking sites favored by Border Patrol for 
placing Forward Operating Bases (FOB) in areas highly trafficked by 
drug traffickers and human smugglers. Border Patrol reportedly had to 
settle for a location 20 miles from the border and from the area they 
originally wanted the FOB placed. Has BLM in New Mexico denied requests 
for FOB to be placed in areas because of environmental or preservation 
laws? Has BLM allowed FOBs to be placed in Wilderness areas in New 
Mexico or elsewhere?
    Answer. While I am unfamiliar with the news story, BLM in New 
Mexico works closely with law enforcement on requests for placement of 
FOBs on public lands. No requests have been denied.
    Question 3. In a CRS report released in October of 2010, Border 
Patrol officials in New Mexico stated it may take up to 6 months or 
more to obtain permission from federal land managers to simply maintain 
roads within federal lands. Another account in the report said it took 
8 months for federal land managers to do the environmental and 
historical preservation work that they claimed had to be done before a 
permit could be issued to improve a road so Border Patrol could move an 
underground sensor. During this eight month delay Border Patrol could 
not patrol this area known to be highly trafficked by ``illegal 
aliens''. Given the documented evidence that exists of the obstructions 
that Border Patrol faces from federal land management agencies and 
environmental and historical preservation laws in areas in southern New 
Mexico, wouldn't the highly restrictive land use designations in S. 
1024 only exacerbate the problem?
    Answer. The BLM Las Cruces District and the El Paso Sector Border 
Patrol signed a Memorandum of Understanding (MOU) in January 2007 that 
identified all of the dirt roads within the El Paso Sector that the 
Border Patrol needed to maintain. This MOU gives them the authority to 
maintain and improve these roads as needed and has expedited our 
ability to respond to Border Patrol requests. The Border Patrol has 
acquired maintenance responsibilities for a number of access roads that 
were previously two-track dirt roads and have now been improved by the 
Border Patrol to be fully passable. The BLM continues to work closely 
with the Border Patrol to identify roads in need of improvement and 
maintenance and to authorize this action as feasible.
    Question 4. Dona Ana County Sheriff Todd Garrison wrote a letter to 
the Subcommittee on Public Lands and Forests opposing S. 1024. Has BLM 
talked to Sheriff Garrison about his concerns with S. 1024? Doesn't BLM 
rely heavily on local law enforcement officials like Sheriff Garrison 
to help police their lands?
    Answer. We are aware of Sheriff Garrison's concerns regarding S. 
1024. The BLM meets regularly with many of the law enforcement agencies 
along the border, including the Dona Ana County Sheriff's Department, 
to discuss border security. This includes the Border Management Task 
Force meetings facilitated by the BLM and the Border Security Task 
Force meetings facilitated by Senator Bingaman's staff. Coordination 
and cooperation between law enforcement agencies is excellent and 
provides for our improved ability to combat crime along the border.
      Responses of Robert Abbey to Questions From Senator Barrasso
                                s. 1144
    In your testimony, you called the Soda Ash Competition Act (S.1144) 
``premature'' because the Department had not completed its Soda Ash 
report. In May 2010, I sent a letter with Senators Wyden, Enzi, Merkley 
and Feinstein requesting the Department expedite the report so that 
Congress would have time to review it and consider legislative options. 
The report has yet to be submitted, leaving Congress with little time 
to respond.
    Question 1. During the hearing, you mentioned the potential for 
administrative royalty relief on a case-by-case basis. Please provide 
information on the nature of this process. Is relief granted on a 
lease-by-lease basis?
    Answer. Yes, royalty relief is considered on a lease-by-lease basis 
for leaseholders who apply for such relief in accordance with the 
provisions of 43 C.F.R. Subpart 3513. Each leaseholder may apply for a 
royalty rate relief if they meet the criteria contained in 43 C.F.R. 
Sec.  3513.12. Under 43 C.F.R. Sec.  3513.12, the BLM ``will consider 
if approval:

          (a) is in the interest of conservation;
          (b) will encourage the greatest ultimate recovery of the 
        resource; and
          (c) is necessary either to promote development of the mineral 
        resources or because you cannot successfully operate the lease 
        under existing terms.''

    The provisions of 43 C.F.R. Sec.  3513.15 set out the requirements 
for the information and documentation that a leaseholder seeking a 
reduction must present to the BLM for the agency's consideration of a 
rate reduction. The BLM has processed royalty rate reduction 
applications from many solid mineral lessees. The BLM analyzes 
operational and financial information submitted by the operator and 
determines if a royalty rate reduction is justified, based on the 
above-described criteria.
    The BLM has established Royalty Rate Reduction Guidelines that 
allow applications to be processed under five categories; (1) Expanded 
Recovery, (2) Extension of Mine Life, (3) Financial Test--Unsuccessful 
Operations, (4) Financial Test--Expanded Recovery / Extension of Mine 
Life, and (5) Regional. These guidelines are subject to, and must be 
implemented consistent with, the provisions of the applicable 
regulations. Administratively complete applications containing the 
information and documentation required by 43 C.F.R. Sec.  3513.15 to 
justify the rate reduction request must be submitted by the lessee and 
evaluated by BLM on a lease-by lease basis. Following such submission, 
if BLM determines that the criteria of the applicable regulation, 43 
C.F.R. Sec.  3513.12, have been met, royalty rate reductions may be 
granted on a lease-by-lease basis. Each such decision would be 
dependent upon the particular facts presented in each case and thus, 
there is no guarantee that every applicant will receive the requested 
reduction.
    The BLM is willing to entertain ``bundled'' requests for royalty 
relief when similarly situated leaseholders jointly submit information 
that meets the regulatory tests for which royalty reduction is sought.
    Question 2. How long would it take the Department to process a 
waiver request?
    Answer. Review of royalty rate reduction applications involves 
extensive coordination with the applicant, the Office of Natural 
Resources Revenue, and the Governor of the affected state. Time frames 
are heavily dependent on whether the application is complete and all 
the associated information from the operator is provided. Our 
experience has shown that in most cases, the review by the affected 
state governor will necessitate additional information collection, 
analysis and follow-up coordination with both the applicant and the 
respective state's governor.
    Question 3. Would BLM consider these requests on an expedited basis 
given the significant economic and job impacts on the line?
    Answer. Yes.
    Question 4. What other options, if any, are available to 
administratively extend the royalty rate on an interim basis?
    Answer. Under current laws and regulations, the Secretary has no 
authority to unilaterally extend a general rate reduction of the type 
currently imposed by the Soda Ash Royalty Reduction Act. Any generally 
applicable rate reduction extension for all leases without individual 
adjudications would require a formal rulemaking under Administrative 
Procedure Act requirements of 5 U.S.C. Sec.  553. Those requirements 
include publishing a proposed rule in the Federal Register and 
providing the public with opportunity to comment. The agency then would 
need to address any public comments and publish a final rule. The 
administrative record supporting such rulemaking would need to 
demonstrate the basis and reasons supporting the rule.
    Question 5. Would the Department consider granting a temporary one-
year extension to leaseholders to provide Congress adequate time to 
review the Department's study?
    Answer. There is no current authority for the Department to 
immediately grant a general one-year extension of rate reduction to 
leaseholders.
    Question 6. The BLM has the authority to maintain the current 
royalty level. Can you describe to us the procedure the Department 
would undertake if the decision is made to maintain the current royalty 
rate until Congress has the time to consider your recommendation?
    Answer. The BLM does not currently have the authority to continue 
the general royalty rate reduction that was granted by the Soda Ash 
Royalty Reduction Act of 2006, once the authorities in that Act expire. 
The BLM's regulations at 43 C.F.R. Subpart 3513 provide a formal 
process for only case-by-case applications by lessees for the reduction 
of rental and royalties.
    43 C.F.R. Sec.  3513.12 states that BLM will consider an 
applicant's request for a reduction in the royalty rate if approval:

          (a) is in the interest of conservation;
          (b) will encourage the greatest ultimate recovery of the 
        resource; and
          (c) is necessary either to promote development of the mineral 
        resources or because the applicant cannot successfully operate 
        the lease under the existing terms.

    43 C.F.R. Sec.  3513.15 provides the required information that a 
royalty reduction applicant must present to BLM. 43 C.F.R. Sec.  
3513.16 provides that BLM will charge a processing fee ``on a case-by-
case basis'' for applications for royalty reduction. Thus, the 
applicable regulatory provisions require case-by-case applications and 
decisions supported by an administrative record demonstrating that the 
criteria of 43 C.F.R. Sec.  3513.12 have been met to justify approval 
of a rate reduction.
    As stated above, the BLM is willing to entertain ``bundled'' 
requests for royalty relief when similarly situated leaseholders 
jointly submit information that meets the regulatory tests for which 
royalty reduction is sought.
                                 ______
                                 
    Responses of Thomas Tidwell to Questions From Senator Murkowski
                                s. 1090
    Question 1. Am I correct that the Cherokee National Forest is not a 
Forest Reserve Forest?
    Answer. The Cherokee National Forest is not a Forest Reserve. All 
lands were acquired under authorities granted by Congress, primarily 
the Weeks Act of 1911
    Question 2. If that is the case, shouldn't these proposed 
Wildernesses be authorized on the Eastern Wilderness Act of 1975, not 
the Wilderness Act of 1964?
    Answer. Designation in accordance with the 1964 Wilderness Act is 
appropriate. The Eastern Wilderness Act of 1975 (P.L. 93-622) 
designated certain national forest lands east of the 100th Meridian 
``in furtherance of purposes of the Wilderness Act of 1964'' and 
provided for the study of certain additional lands for inclusion in the 
National Wilderness Preservation System. The 1975 Act limits the law to 
areas ``east of the 100th meridian,'' the 1975 Act does not separately 
or independently establish authority or criteria to designate 
wilderness, but rather is reliant on the authority of the 1964 Act.
                                s. 1344
    Question 1. Chief Tidwell; in your opinion does this bill place a 
higher priority on accomplishment of the Wallow fire rehabilitation 
over other Forest Service other programs and projects if the bill is 
signed into law?
    Answer. Yes, the bill language emphasizes the agency's need to take 
action on rehabilitating and restoring the Wallow fire area. I have 
already addressed this priority within the context of my responsibility 
to manage all National Forest System lands. The response to the need 
for rehabilitation following the Wallow fire has been to shift the 
program of work on the Apache-Sitgreaves National Forest and the 
Southwest Region. In addition, the agency takes a strategic approach in 
prioritizing funding to provide the maximum opportunity for fire 
rehabilitation and recovery in critical emergency landscapes in need of 
restoration across the country.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                People for Preserving Our Western Heritage,
                                                    August 2, 2011.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forest, 304 Dirksen Senate 
        Building, Washington DC.
    Dear Senator Wyden:

    I am writing to you and the committee as President of People for 
Preserving Our Western Heritage, a coalition of more than 800 
businesses, organizations and professionals in Dona Ana County, New 
Mexico. The mission of People for Preserving Our Western Heritage is 
``To preserve, promote and protect the farming, ranching and rural 
heritage of our western lands.'' We support permanently preserving and 
protecting the Organ Mountains and the other special areas in our 
county. We believe there are viable alternatives to federal Wilderness 
designations that can be used to protect our land, our natural 
resources, our open space and our western heritage.
    We are opposed to the passage of S.1024 as it is currently written 
because of the highly limited access it creates that affects our 
community for the following reasons:

          Border security as we know it today would be severely 
        compromised. Border Patrol and other law enforcement bodies 
        currently have access in Wilderness Study Areas. The 
        designation of Wilderness will severely limit Border Patrol's 
        ability to carry out its National Security Mission along the 
        International Border and surrounding areas. Border Patrol will 
        not have access into the proposed Wilderness areas for routine 
        patrol.

          Control of flood waters is of high importance for those of us 
        who live in a desert environment. The rainfall events are 
        characterized many times by intense thunder storms, followed by 
        flash floods along the arroyos, which cause severe damage. 
        Current knowledge of control and management of flood waters 
        require building of structures further up the watershed instead 
        of at the mouth of the arroyo. Access for construction and 
        maintenance of protective dams must be confirmed in S.1024.

          Guaranteed access to livestock and ranch improvements is not 
        spelled out clearly in S.1024, Reference to the grazing 
        guidelines is presented as adequate concession for access to 
        improvements. The BLM District Manager would not commit to how 
        ``occasional'' access was defined. However, he was certain that 
        the permittees would not have daily or even weekly access for 
        maintaining water developments. This is unacceptable in a hot, 
        dry desert environment.

    We are opposed to S.1024 as currently written and request that this 
letter be made part of the permanent hearing record.
            Respectfully,
                                      Jerry G. Schickedanz,
                                                         President,
                                 ______
                                 
                                      Las Cruces Tea Party.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, 304 Dirksen Senate 
        Building, Washington DC.
    Dear Senator Wyden:

    The Las Cruces Tea Party opposes S. 1024, which designates 242,000 
acres as Wilderness near our border with Mexico, for the following 
reasons:

  <bullet> Campers will not be allowed motorized access
  <bullet>  Hunters will not be allowed motorized access
  <bullet>  Tourists, general recreationists and the handicapped 
        community will not be allowed motorized access
  <bullet>  Neither motorized vehicles or mechanical equipment can be 
        used to construct or maintain flood control projects, thereby 
        threatening the health and safety of the citizens
  <bullet>  neither motorized vehicles or mechanical equipment can be 
        used by the Border Patrol or state or local law enforcement, 
        thereby threatening the health and safety of the citizens

    The Las Cruces Tea Party opposes the designation of land as 
wilderness in Dona Ana County and strongly recommends that where 
Federal land is deserving of protection a designation other than 
wilderness be utilized.
    The Las Cruces Tea Party supports the public having more, not less, 
access to Federal land for their use and enjoyment and therefore 
strongly opposes the passage of S. 1024.
    We ask that this letter be included in the official record. In 
addition, we ask that the attached excerpts from the August 3, 2011 
edition of The Westerner be included in the official record as it gives 
voice to the concerns of many Dona Ana County residents.
            Respectfully submitted,
                                               Debra White,
                                                         President.
        Attachment.--THE WESTERNER www.thewesterner.blogspot.com
    Wednesday, August 03, 2011.
             special edition on bingaman's wilderness bill
    Today Senator Bingaman will present his Wilderness bill, S. 1024, 
to the Subcommittee on Public Lands and Forests. This legislation would 
designate as Wilderness over 240,000 acres on or near our border with 
Mexico.
    Since most folks don't have the opportunity to testify or to meet 
with the Senator, we put out a few emails and asked folks for their 
comments. The response was overwhelming.
    There's no way I could post them all, so I've tried to eliminate 
duplicates (although Border Security is mentioned by almost everyone) 
and emphasize comments from Dona Ana County or its environs, or from 
those who have experience with border issues. Plus I've just run out of 
time.
    What follows are sometimes edited comments, plus excerpts from 
letters opposing S. 1024 sent to the Subcommittee by the National 
Association of Former Border Patrol Officers, the Dona Ana County 
Sheriff, the Greater Las Cruces Chamber of Commerce and the Dona Ana 
Soil & Water Conservation District.

          My family has been called the ``First family of Wilderness'' 
        because they were the first family in the nation evicted from 
        federal wilderness. I am told that their mistreatment is the 
        reason that grazing language was inserted into the Wilderness 
        Act. What am I supposed to believe? Is it Mr. Bingaman's word 
        that grazing will continue in his border bill, or is it what 
        the government did to my family?...Mayci McKindree Lee, 14 year 
        old, seventh generation New Mexican ranching descendent and 
        great-great-great-great granddaughter of pioneer Gila 
        wilderness rancher, Peter McKindree Shelley .

          My Dear Senator; Please listen to the voices of reason and 
        common sense! Securing the NM Border is a top priority. The 
        designation of additional Federal protected land will only make 
        it harder for law enforcement to monitor the increased criminal 
        activity on the NM Border. Concentrate on job creation not a 
        legacy of creating vast stretches of land designated for 
        Wilderness. . .William Mattiace, Former Mayor, City of Las 
        Cruces, NM.

          I am opposed to S1024 because it ignores the BLM wilderness 
        studies conducted pursuant to FLPMA. The Las Uvas WSA and the 
        Robledos WSA were found not suitable for Wilderness 
        designation. The Broad Canyon area between those two WSAs was 
        found to have insufficient wilderness characteristics to 
        warrant WSA designation and further study. These three areas 
        included in S1024 for permanent Wilderness designation are 
        major Rio Grande watersheds that contribute to frequent 
        downstream flooding. They have been identified as probable non-
        point sources of e coli bacterial contamination of the river 
        during storm event runoff. Experts associated with the Paso del 
        Norte Watershed Council are studying the feasibility of 
        designing and constructing series of small drainage retention 
        devices throughout the watershed in lieu of traditional large 
        earthen dams to mitigate both flooding and bacterial 
        contamination. These innovative practices would not be allowed 
        under Wilderness designation. . .Tom Mobley, Rancher.

          The National Association of Former Border Patrol Officers is 
        opposed to S. 1024. This legislation seeks to create 242,000 
        acres of wilderness designations on or near our border with 
        Mexico and deny all but the most minimal use of motorized 
        vehicles, even for routine patrol. Prohibition against the use 
        of mechanical equipment will consequently prevent the 
        deployment of mobile surveillance systems, remote cameras, 
        electronic detection devices and other tools critical to 
        maintaining operational control of the area in question. 
        Approval will restrict unfettered access to Border Patrol 
        Agents and their equipment to a strip of land only five miles 
        wide from the border. By Federal statute the Border Patrol has 
        the right to enter private property within twenty-five miles of 
        the border and we find it astonishing that Congress would 
        choose to limit this to five miles on Federal property. . 
        .Letter to Subcommittee Chairman Wyden from Kent Lundgren, 
        Chairman, National Association of Former Border Patrol 
        Officers.

          I am against S.1024. If the Potrillos are made wilderness, 
        the Lazy E will become the doormat from Mexico. My home will be 
        signpost on the trail north. Reckon these senators will request 
        armed guards when they want to have supper with me?''. . 
        .Leonard Goad, Ranch Foreman, Butterfield Trail Ranch.

          While I agree we should ensure the lands defined in Senator 
        Bingaman's Wilderness Bill should never be developed, I 
        strongly feel the Wilderness designation is too restrictive 
        jeopardizing Border Security, public safety and flood control 
        of surrounding population centers, and meaningful public 
        access. These lands can be protected in more reasonable and 
        less restrictive ways....Tom Hutchinson, Restaurant Owner, 
        former Chair, Greater Las Cruces Chamber of Commerce.

          I am opposed to Senate Bill 1024 because of my personal 
        knowledge of and field experience with the rangeland of 
        southern Dona Ana county, New Mexico. This area needs ecosystem 
        inputs to mitigate woody plant encroachment occurring on these 
        rangelands. Active management inputs are functionally not 
        allowed under wilderness designation. S. 1024 relegates these 
        lands to a future of continual grassland degradation, soil 
        exposure and erosion, resulting in a deteriorated watershed and 
        a downward spiral in rangeland health. . .Chris Allison, Dept. 
        Head, Ext. Animal Sci. & Nat. Res., NMSU.

          The federal government has been derelict in its 
        constitutional mandate to protect the borders of the United 
        States. S1024 is reckless and irresponsible legislation which 
        will further jeopardize our national security. There is already 
        evidence of human and drug smuggling in the prescribed area 
        (which does not meet the criteria of the Wilderness Act of 
        1964), and a wilderness designation will guarantee an increase 
        in illegal activity which endangers public safety. This 
        administration and Congress cannot be trusted to honor any MOUs 
        or promises to law enforcement; therefore, I urge you to defeat 
        S1024. . .Carol P. Richardson,Retired School Teacher.

          As the duly elected Sheriff of Dona Ana County, New Mexico, I 
        write in opposition to S. 1024 which would designate over 
        240,000 acres as Wilderness in southern New Mexico. The 
        Wilderness Act of 1964 prohibits the use of motorized vehicles, 
        mechanical devices and structures in all Wilderness areas. Such 
        prohibitions would stymie my department's efforts to protect 
        the public safety. Furthermore, given the recent problems of 
        drug and human trafficking from Mexico, it would seem the 
        height of folly to place such restrictions on law enforcement 
        in this border area. . .Letter to Subcommittee Chairman Wyden 
        from Todd Garrison, Dona Ana County Sheriff.

          I am opposed to S. 1024 because it will cause the loss of 
        access to wilderness areas by all segments of the population, 
        greatly hamper efforts by the Border Patrol and law enforcement 
        to carry out their missions, impose severe limits on ranching 
        and grazing operations, severely limit recreational 
        opportunities, endanger sensible flood control projects, cause 
        severe restrictions on firefighting and search and rescue 
        operations, and greatly limit potential future growth 
        opportunities on federal land. The areas that are proposed to 
        be wilderness do not qualify as wilderness due to the 
        historical use of, and access to, these allotments. The major 
        proponents of this bill are those that oppose free enterprise, 
        and seek to greatly reduce, if not nearly eliminate any private 
        or public use of federal lands. That is clearly not a sensible, 
        prudent approach to land management, in this time of severe 
        economic crisis worldwide, and less and less U.S. access to 
        resources in an increasingly hostile world. If we are to 
        survive as a nation, we must protect our borders from foreign, 
        illegal encroachment, and develop the natural resources we 
        possess in this country. . .Phil Harvey, Jr., Mesilla Business 
        Owner.

          I am strongly opposed to S.1024 for many reasons, including 
        the fact that it would create Wilderness in two Wilderness 
        Study Areas totaling about 30,000 acres which Interior Dept. 
        determined are lacking in Wilderness characteristics and 
        recommended they be returned to multiple use status (the Las 
        Uvas and Robledo Mountains areas). In addition, S.1024 would 
        create Wilderness in two areas which Interior Dept. studied and 
        left in multiple use status, also totaling about 30,000 acres, 
        again due to lack of Wilderness characteristics (the E. 
        Potrillo Mountains and Broad Canyon areas). S.1024 would 
        override these realistic conclusions of the Interior Dept. 
        drawn after studying the areas for 15 years, from 1976 to 1991, 
        and would ignore the strong opposition of the real 
        stakeholders. With more than 100 million acres of Wilderness 
        already created, why is Senator Bingaman so determined to 
        ignore his Dona Ana County constituents and force S.1024 on us 
        with staged committee hearings falsely claiming broad community 
        support? We deserve better! Please stop S.1024 from moving 
        forward. . .Tom Cooper, Rancher.

          Taking the word ``wilderness'' out of the title of S 1024, 
        does not change the fact that this bill is a wilderness bill 
        that is attempting to create and restore lands to wilderness 
        characteristics. This bill is an insult to Wilderness Act of 
        1964. Wilderness areas are supposed to be already pristine and 
        untouched by man. This bill completely ignores the very basic 
        fact that most of the 242,000 acres in your bill were carefully 
        and professionally studied by unbiased professionals and 
        declared as unfit for the designation as wilderness. But, you 
        know that and do not care. This bill and your one sided 
        ``hearing'' is just catering to the green gangsters that do not 
        care one bit about the security of our borders, our economy, 
        and want to close all of our precious public lands to most 
        Americans. Hopefully, this perversion of the Wilderness Act 
        will be stopped in the House of Representatives. Please retire 
        early. . .Fred Huff, Outdoor Recreation.

          The Greater Las Cruces, NM Chamber of Commerce, representing 
        approximately 1,000 businesses, has strongly opposed Senator 
        Bingaman's efforts to designate our community's lands as 
        ``Wilderness'' in the former S. 1689 and now its current 
        reincarnation of S. 1024. . .Until Senator Bingaman can answer 
        our concerns regarding these important issues, we stand in 
        strong in opposition to S. 1024. . .Letter to Subcommittee 
        Chairman Wyden from John Hummer, Government Affairs, Greater 
        Las Cruces Chamber of Commerce.

          I am opposed to the wilderness bill S.1024 because the bill 
        as written does not allow for routine access by law enforcement 
        personnel. The proposed wilderness areas on the border will 
        become safe sanctuaries for human and drug smugglers. Law 
        Enforcement Officers in Dona Ana County face many problems in 
        carrying out their duties and to have another unnecessary law 
        forced on them will be devastating. . .LeeAnn Evans, Spouse of 
        former law enforcement employee.

          I am opposed to S.1024 because of the severe restrictions it 
        places on law enforcement efforts and the negative impact it 
        will have on border security for our community. I am also 
        opposed to this legislation because of the severe restrictions 
        on access to the areas involved, and because of the harmful 
        restrictions placed on the ranchers that operate in these 
        areas. . .Jodi Denning Horse Owner/Breeder Senator Jeff 
        Bingaman's bill S-1024 is a further government intrusion into 
        the rights of all citizens by depriving them access to areas 
        covered by this unacceptable bill. It is a ``land grab'' and 
        would be very detrimental to our state and nation. . .Mary C. 
        Fuller, businesswoman.

          I am opposed to S. 1029 because it's unnecessary as the land 
        is already protected and further restricting it and depriving 
        it's routine use to law enforcement is contrary to border 
        security. Also, as one who uses some of this area for 
        recreation and exploring, I'm concerned that if I should fall 
        or encounter some other catastrophe no one can come to my aid 
        except on foot or horseback. It is a bad and short sighted bill 
        with no ``up side.'' W.J Haynes, Sportsmen.

          The addition of more Wilderness land designations on or near 
        the border between the United States and Mexico is one of the 
        most ill conceived ideas that Congress will ever be asked to 
        consider. What could possibly be the rational to effectively 
        legislate away the lawful presence of the Border Patrol and all 
        other law enforcement agencies to the extent that they are 
        denied all but the most insignificant access to areas so 
        critical to the defense of our national security and the health 
        and safety of our citizens. Passage into law of this proposed 
        legislation is not in the best interests of our national 
        security and must be opposed by all legitimate means. . .Gene 
        Wood, Border Patrol Chief Patrol Agent (Ret.), Trustee of the 
        National Border Patrol Museum, Dona Ana County Resident.

          Senator, close to 85% of Dona Ana County and this District is 
        federal land under the management of the Bureau of Land 
        Management. The Lower Rio Grande Watershed includes all lands 
        that drain into the Rio Grande from Caballo Dam to the Texas 
        state line near El Paso, TX, the majority of which are federal 
        lands. Our concern is about access. Your Senate Bill 1024 will 
        eliminate the District's access to key areas of this watershed 
        to perform any watershed restoration projects aimed at 
        improving watershed health and/or providing for effective 
        stormwater management to preserve our natural resources and 
        provide for the safety and welfare of our public and property. 
        . .Letter to Subcommittee Chairman Wyden from Joe Delk, 
        Chairman, Dona Ana County Soil & Water Conservation District.

          I am opposed to S.1024 because it will become a super highway 
        for illegal entry into the USA and deny access to the Border 
        Patrol and other law enforcement. This area will become another 
        Organ Pipes Cactus National Monument as in Arizona. Secondly, I 
        am a sportsman and hunter. My access to prime quail area would 
        be denied. . .Patrick Dunnahoo.

          The membership and Board of the Las Cruces T.E.A. Party (Doa 
        Ana County) stand firmly in opposition to passage of S.1024. We 
        believe the members of organizations, businesses, and 
        individuals opposed to the legislation greatly outnumber those 
        in favor of the legislation, many of whom are not even 
        residents of Doa Ana County. Our members are greatly concerned 
        about the impacts of S.1024 including loss of access, on border 
        security, on our ranching community, on health of the land, and 
        on recreational opportunities, flood control, and beneficial 
        use of flood waters. S.1024 is seen by our members and by our 
        citizens as potentially extremely detrimental to our community 
        and our agricultural heritage. We ask that the legislation be 
        withdrawn from any further consideration. . .Debra White, 
        President, Las Cruces T.E.A. Party.

          I am opposed to S1024 because it is not widely supported by 
        the citizens. The government controls too much land in Dona Ana 
        county already. The bill will put too much pressure on our 
        farmland for future growth and the land in question needs to be 
        accessible for multiple uses. Martin Porter, business owner.

          I am vehemently opposed to S1024. This bill has been pushed 
        by our two Senators in an attempt to confiscate public land and 
        take it out of our reach. There are a number of reasons to not 
        make this a Wilderness area: 1) The southern border needs to be 
        protected from those who want to enter our country illegally. 
        2) The area needs to be made available to companies and private 
        enterprise that can make use of the resources and bring revenue 
        into the state treasury . 3) The federal government already has 
        confiscated too much of our state. 4) The way of life of those 
        living in the area needs to be protected over the animals and 
        plants that live there. 5) The politicians need to listen to 
        the citizens of this area who have repeatedly said they don't 
        want this to be a wilderness and are happy with the present 
        disposition of the land as a managed area. These are only a few 
        of the reasons that this bill should be tabled. I, as a long 
        time New Mexico resident, am greatly offended by Senator 
        Bingaman 's `` my way or the highway'' attitude.''. . .Scott 
        LaFon, TorC.

          I am opposed to S.1024, as it will be putting our nations 
        security at risk, If wilderness designation is implemented in 
        southern Dona Ana County along the US New Mexico border, we 
        then may be facing the same devastation as southern Arizona. 
        More jeopardy & expense for our citizens. . .Brenda Allen, 
        Rancher, Realtor.

          S.1024 is the same bill as the original Wilderness Bill with 
        only minor changes. New Mexicans in the majority rejected 
        S.1689 despite Bingaman and Udall's claims otherwise. It's a 
        travesty that we in NM must fight again against a bill that 
        will shut us out of land that for the most part doesn't even 
        meet the criteria for Wilderness. The new bill does not address 
        border security and therefore will create a brand new Drug 
        Corridor for the Southwest. . .Betty Russell, Business Owner.

          I'm opposed to S.1024 simply because it ranks border and 
        national security below the desire to preserve public lands too 
        near the border. Areas where the Border Patrol cannot have free 
        access do NOT belong ANYWHERE near our borders. . .Claude E. 
        Guyant, retired US Border Patrol Agent, former Immigration 
        Attache, Central & South America, Dona Ana County Resident.

          I write in opposition to S.1024 which would limit law 
        enforcement of the New Mexico/Mexico border, lock up natural 
        resources, and shut down access to public land. . .Crystal 
        Diamond, Sierra Soil & Water Conservation District Supervisor.

          As the wife of a Potrillo corridor rancher, border wilderness 
        scares me to death. Think of the implications of that . . . why 
        does any American have to fear the actions of his or her 
        government? I am against S.1024.''...Kathy Wilmeth, wife of 
        Potrillo Mountain corridor rancher, Steve Wilmeth.

          S.1024 is very much a concern to all of us who make a living 
        on or near the border. The more we learn about Arizona, the 
        more alarmed we become regarding prospects of violence on ALL 
        expanses of federal lands that limit full and unencumbered 
        access by Border Patrol. At this time, ALL plans for federal 
        lands status changes in Hidalgo, Luna, and Dona Ana Counties, 
        New Mexico must be put on hold. This is a matter of national 
        security and we ask that you consider the dangerous situation 
        in which we find ourselves.''...Walt Anderson, Rancher, Hidalgo 
        Soil & Water Conservation District.

    And our friends in Arizona issue a warning.

          My beloved southeast Arizona homeland has been devastated by 
        federal government policy starting with the designation of 
        federal Wilderness. Senator Bingaman's S.1024 will only hasten 
        the expansion of the same smuggling corridors that we now have 
        in Arizona. Wake up Congress!...Joe Dreyfuss, Tucson area 
        businessman and talk show host.

          A wilderness area on the US--Mexico border is a cruel joke. 
        There is no way the United States government can protect the 
        supposed wilderness values of land along the border when the 
        countryside is overrun with illegal aliens and drug smugglers. 
        We have the Pajarita Wilderness Area just west of Nogales. The 
        area is covered with illegal immigrant trails, empty water 
        bottles, discarded backpacks, and littered with spent automatic 
        weapon bullet shells. At the end of last May illegal aliens 
        started what they claimed was a ``distress fire'' which burned 
        most of the wilderness area to ashes. Wilderness Areas impede 
        securing our border. No new roads can be constructed, the fence 
        cannot be completed, and Border Patrol access is limited to 
        horseback and foot travel. Wilderness areas are open doors into 
        the US for illegal aliens and drug smugglers. Large areas of 
        federal-managed lands are damaged as a result of putting 
        protecting alleged wilderness areas ahead of protecting 
        national security. Those who advocate wilderness areas at the 
        border are really opposing protecting national security from 
        the Mexican drug cartels. . .Hugh Holub, an attorney who blogs 
        at the Tucson Citizen newspaper.

    Posted by Frank DuBois at 4:49 AM.
                                 ______
                                 
     Dona Ana Soil and Water Conservation District,
                                      Board of Supervisors,
                                    Las Cruces, NM, August 2, 2011.
Hon. Jeff Bingaman,
U.S. Senate, 703 Hart Senate Office Building, Washington, DC.
RE: S.1024

    Dear Senator Bingaman,

    I am appealing to you today as Chairman of the Dona Ana Soil and 
Water Conservation District (District) with grave concerns about 
S.1024.
    As an elected Supervisor and Chair, I have an obligation to my 
Board of Supervisors and my constituents to address issues that relate 
to the preservation and protection of the natural resources of this 
District in general and the Lower Rio Grande Watershed in particular.
    Senator, close to 85% of Dona Ana County and this District is 
federal land under the management of the Bureau of Land Management. The 
Lower Rio Grande Watershed includes all lands that drain into the Rio 
Grande from Caballo Dam to the Texas state line near El Paso, TX, the 
majority of which are federal lands.
    My concern is about access.
    Your Senate Bill 1024 will eliminate the District's access to key 
areas of this watershed to perform any watershed restoration projects 
aimed at improving watershed health and/or providing for effective 
stormwater management to preserve our natural resources and provide for 
the safety and welfare of our public and property.
    Please, how can you believe this to be good for Dona Ana County?
    Senator Bingaman, please consider the long term ramifications of 
eliminating the ability of this community to effectively manage these 
key watersheds by restricting access to them and pull S.1024.
            Respectfully,
                                                  Joe Delk,
                                                             Chair.
                                 ______
                                 
            Greater Las Cruces Chamber of Commerce,
                                        Government Affairs,
                                                    August 1, 2011.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, 304 Dirksen Senate 
        Building, Washington, DC.
RE: OPPOSITION TO S. 1024

    Dear Chairman Wyden:

    The Greater Las Cruces, NM Chamber of Commerce, representing 
approximately 1,000 businesses, has strongly opposed Senator Bingaman's 
efforts to designate our community's lands as ``Wilderness'' in the 
former S. 1689 and now its current reincarnation of S. 1024. Please 
note the following when considering S. 1024:

  <bullet> There is ``not'' a consensus of support within our community 
        for this legislation.
  <bullet> Our current Governor has expressed concerns regarding 
        Wilderness designations in Dona Ana County.
  <bullet> Our Congressman, Steve Pearce, who represents the very 
        district affected by this legislation, has expressed strong 
        opposition to Senator Bingaman's legislation.
  <bullet> There is a deep concern within our community on S. 1024's 
        negative impact to our local, state and national security due 
        to its wilderness designation of lands near the U.S. / Mexican 
        border.
  <bullet> There is deep concern regarding S. 1024's negative impact on 
        flood control within our valley.

    Until Senator Bingaman can answer our concerns regarding these 
important issues, we stand in strong in opposition to S. 1024. Please 
ensure that this letter be made part of the official record when 
evaluating and debating S. 1024.
    Thank you.
                                            John L. Hummer,
                                                    Division Chair.
                                 ______
                                 
                       New Mexico State University,
College of Agricultural, Consumer and Environmental 
                                          Sciences,
          Southwest Boarder Food Safety and Defense Center,
                                     Office of Biosecurity,
                                   Las Cruces, NM, August 17, 2011.
Hon. Ron Wyden.

    I respectfully request that congress not designate the proposed 
areas of Dona Ana County as Wilderness Area. Drug trafficking and 
illegal activity always increases in areas along the border where 
civilian or law enforcement activity decreases.
    This area is largely badlands with no tourist value and there will 
not be any benefits derived from its designation and the risks to the 
county, New Mexico and the US will increase significantly.
    No one argues the value of preserving the peaks of the mountains; 
however hundreds of thousands of acres is flat barren land with no 
extra value to be derived and much to be lost as a drug trafficking 
corridor and illegal access corridor.
    We are concerned about the spread of diseases, both animal and 
human, by illegal traffickers coming across the border without any 
inspection or permits. We have concerns that law enforcement cannot 
have unfettered access in wilderness areas. Law enforcement officers 
are not able to use motorized vehicles in the wilderness areas without 
obtaining a permit. Routine patrol by law enforcement, federal, state 
and county officers cannot be accomplished under prohibited uses in the 
Wilderness Act. Our water supplies and food production can be 
contaminated by flood waters from arroyos carrying human waste of 
illegals hiding.
            Sincerely,
                                             Billy Dictson,
                                                          Director.
                                 ______
                                 
                       Hidalgo County Sheriff's Department,
                                    Lordsburg, NM, August 11, 2011.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, 304 Dirksen Senate 
        Building, Washington, DC.
    Dear Senator Wyden:

    I am writing to oppose S. 1024, which would designate 242,000 acres 
near our border with Mexico as Wilderness.
    The ``Prohibition of Certain Uses'' section of the Wilderness Act 
prevents the use of motor vehicles, mechanized equipment and other 
tools which are vital to local law enforcement. Of additional concern 
are the five Wilderness study Areas in Hidalgo County, totaling 98,960 
acres, which are being promoted as candidates for future legislation.
    Given the current situation on our border I find it highly 
inadvisable to create Federal land use designations which prevent, 
limit or restrict law enforcement activity.
    Thank you for your consideration and please include this as part of 
the official record.
            Respectfully,
                                          Saturnino Madero,
                                                           Sheriff.
                                 ______
                                 
      National Association of Former Border Patrol Officers
                                     Brunswick, GA, August 1, 2011.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forest, 223 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senator Wyden:

    The National Association of Former Border Patrol Officers is 
opposed to S. 1024. This legislation seeks to create 242,000 acres of 
wilderness designations on or near our border with Mexico and deny all 
but the most minimal use of motorized vehicles, even for routine 
patrol. Prohibition against the use of mechanical equipment will 
consequently prevent the deployment of mobile surveillance systems, 
remote cameras, electronic detection devices and other tools critical 
to maintaining operational control of the area in question. Approval 
will restrict unfettered access to Border Patrol Agents and their 
equipment to a strip of land only five miles wide from the border. By 
Federal statute the Border Patrol has the right to enter private 
property within twenty-five miles of the border and we find it 
astonishing that Congress would choose to limit this to five miles on 
Federal property.
    Our organization is currently completing a review and analysis of 
570 documents which we recently received from Customs and Border 
Protection (CBP) pursuant to a request authorized by the Freedom of 
Information Act (FOIA).
    We believe that a knowledgeable examination of these highly 
redacted documents will help determine, among other things, what 
criteria was used by the sponsor of S.1024 (formerly S.1689), when 
negotiating exceptions to the strict ``no human presence'' provisions 
mandated by Section 4(a)(3)(c) of the Wilderness Act of 1964.
    Specifically, we hope to determine on what basis it was found 
acceptable to confine all Border Patrol assets and activities into a 
narrow five-mile wide strip along 25.24 miles of the US/Mexico border. 
This crucial section of the border is located in southern New Mexico 
between the Border Patrol Stations located at Santa Teresa and Deming, 
New Mexico. It is adjacent to the city of Cd. Juarez, Chihuahua, Mexico 
which is recognized as one of the most dangerous cities in the world.
    While we do not speak for the active Border Patrol, it is clear 
from our several millennia of collective experience that even the 
smallest impediment to unencumbered access of enforcement assets is 
unacceptable. Agent safety and national security issues are of 
paramount concern to us.
    Additionally, we are hopeful that our review will determine to what 
degree Border Patrol Field Supervisors were denied permission to 
provide candid assessments of the likely consequences of withdrawing 
enforcement assets as proposed by S.1024, and how the implementation of 
this restriction will adversely affect their ability to accomplish 
priorities mandated by the National Border Strategy.
    Until answers to these important questions have been answered and 
for the other reasons stated herein, we respectively request that this 
legislation not be advanced and that this letter be made a part of the 
official record.
            Sincerely,
                                             Kent Lundgren,
                                                          Chairman.
                                 ______
                                 
                                               Sierra Club,
                                                    August 3, 2011.
Public Lands and Forests Subcommittee, Energy and Natural Resources 
        Committee, U.S. Senate, Washington, DC.
    Dear Senator:

    On behalf of the Sierra Club's 1.4 million members and supporters 
across the country, I'd like to state our strong support for two bills 
scheduled for a hearing on August 3, 2011: S. 1024 the Organ 
Mountains--Doa Ana County Conservation and Protection Act, and S. 1090 
the Tennessee Wilderness Act of 2011. Taken together these bills would 
designate more than 260,000 acres as wilderness, protecting vital 
habitat and corridors for wildlife and popular recreational spots that 
support local economies. We urge your committee to expeditiously pass 
these important pieces of legislation.
    The Organ Mountains--Doa Ana County Conservation and Protection Act 
would designate 241,000 acres of wilderness and protect another 100,000 
acres as a national conservation area around the Organ and Robledo 
mountains as well as parts of Broad Canyon. These are biologically and 
culturally rich landscapes that enjoy across the board support from 
local communities. This support includes: hundreds of local businesses, 
thousands of local citizens, the Hispano Chamber of Commerce de Las 
Cruces, the Las Cruces Green Chamber of Commerce, the Southwest 
Environmental Center, the Doa Ana County Associated Sportsmen, the 
Southwest Consolidated Sportsmen, the Back Country Horsemen of New 
Mexico, local government, former Deputy Secretary of the Interior Lynn 
Scarlett, and Paul Deason, member of the U.S. Department of Justice 
Anti-terrorism Advisory Council. The bill passed through committee in 
the 111th Congress and we hope to see similar action this year.
    The Tennessee Wilderness Act enjoys similar bipartisan support from 
business owners, hunters, hikers, the faith community, and local law 
makers. The bill would designate nearly 20,000 acres as wilderness in 
the Cherokee National Forest. This would expand five existing 
wilderness areas as well as create the Upper Bald River Wilderness 
Area. If passed, this measure would create Tennessee's first new 
wilderness in 25 years. It would also protect key wild places in the 
Cherokee that provide clean drinking water to nearby communities as 
well as some of Tennessee's premier hunting and hiking destinations. 
With your support, the communities that depend on these lands and 
support these bills can ensure that their needs are met and that these 
places get the protection they deserve.
    Please support and move the Organ Mountains--Doa Ana County 
Conservation and Protection Act and the Tennessee Wilderness Act as 
quickly as possible. Thank you for your consideration.
            Sincerely,
                                             Michael Brune,
                                                Executive Director.
                                 ______
                                 
                            Rio Grande Soaring Association,
                                                       El Paso, TX.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forest, 304 Dirksen Senate 
        Building, Washington, DC.
    Dear Senator Wyden,

    The Rio Grande Soaring Association is a group of soaring pilots 
with a membership of approximately 100 who reside in west Texas and New 
Mexico.
    We have been flying the mountains of southern New Mexico for over 
30 years. Among our sites are the East and West Potrillo Mountains 
including Mt. Riley and Mt. Cox.
    S. 1024 would drastically affect access to our flying sites. That 
is, we would effectively lose access to the above sites. For this 
reason, we are opposed to the bill (S. 1024).
    Other than the ranchers who live in Potrillo Mountain ranges, we 
are probably the next greatest public user of these lands. Have the 
groups who are promoting this bill ever traveled to the Potrillo 
Mountains? If so, how often? Once or twice a year?
    Furthermore, how is it that this area is being considered as 
Wilderness in the first place? It hardly meets the criteria of the 1964 
Act--it is crisscrossed with roads, mines, fences, quarries, water 
tanks, and ranches.
    If it becomes a wilderness, no one will be able to get in there 
except on horseback. Does anyone have any idea how barren and dry this 
area is? I've been going in and out of there for over 30 years and I 
have never seen ONE person on foot except at the Maars or on Mt. Riley 
and they got there by car/truck.
    In any case, the Rio Grande Soaring Association is opposed to S. 
1024 and we wish this letter to be made a permanent part of the hearing 
record.
            Sincerely yours,
                                           Hadley Robinson,
                                                         Secretary.
                                 ______
                                 
 Statement of Tom Hutchinson, Former Chair, Greater Las Cruces Chamber 
                        of Commerce, on S. 1024
    I want to take a moment a share some thoughts I have on S 1024.
    One point, and a very significant one for that matter, is that both 
sides of the argument, those citizens who embrace all elements of S 
1024, and those citizens who would like to see modifications; all agree 
that the Organ Mountains be withdrawn from future development of any 
kind and retained as public lands. This can best be accomplished with a 
National Conservation Area (NCA) designation.
    The two issues that seemed to generate the most controversy center 
around, 1)National Security and the Wilderness designations on or in 
close proximity to our national border and, 2) the public safety issues 
associated with access to lands for flood control and water capture 
projects.
    When making decision that have elements of risk, whether national 
security or public safety associated with them, in nearly all cases, 
one can not totally eliminate risk, but one can manage risk.
    In the case of the Potrillo Mountain Complex, although there 
appears to be some concession in S 1024 for a buffer between the border 
and the Potrillo Mountain Complex Wilderness area, the wilderness area 
is still dangerously close for sheltering/accommodating illegal 
activity and preventing law enforcement from aggressively taking 
action.
    If we know, and Border Patrol, both active and retired tell me so, 
that their access and apprehension activity would be less hampered in 
areas other than wilderness designation, i.e. NCA or Rangeland 
Preservation Area (RPA), and we can manage the risk better, it would 
seem the prudent and responsible decision to make is to designate the 
Potrillo Mountain Complex as something other than Wilderness. As an NCA 
or RPA, we still preserve it, we write the rules for access and law 
enforcement has greater and more flexibility.
    With regard to the Broad Canyon area and the current Organ Mountain 
NCA, Gary Esslinger with Elephant Butte Irrigation District ( EBID), 
has made a compelling argument regarding the public safety risk 
associated with limiting access and activity in those areas associated 
with flood control and water capture. Again, if we can manage public 
safety by giving the Broad Canyon area and Organ Mountain NCA, a 
designation, perhaps RPA, that can allow appropriate access to manage 
flood control and water drainage challenges, with the proper 
designation, we can preserve it and give meaningful access to necessary 
agencies to manage water issues.
    This is precisely why Wilderness designated areas in already remote 
areas typically have very little border security or public safety 
concerns. On the other hand, wilderness designations in close proximity 
to an international border or population centers raise credible 
national security and public safety concerns.
    As a final note, I believe both sides of the argument can benefit 
from understanding the town of Hatch's perspective on this issue. Hatch 
not only experienced a catastrophic flood in 2006, but the town 
leadership chose to reverse their support for a Wilderness Bill. They 
understood the restrictive nature of a Wilderness designation and it's 
impact on future flood control activity. With regard to Border Patrol 
and law enforcement, the illegal activity associated with border 
wilderness areas in Arizona is frightening. It seems there are those 
that want to ignore and dismiss that this same activity could occur in 
New Mexico. Even if there is only a remote chance it could, would it 
not be wise and prudent to establish a designation that would further 
minimize national security and illegal activity risk.
    Accordingly, I respectfully request S 1024 be withdrawn from 
further consideration as it is currently written.
                                 ______
                                 
                      Dona Ana County Sheriff's Department,
                                    Las Cruces, NM, August 2, 2011.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, 304 Dirksen Senate 
        Building, Washington DC.
    Dear Senator Wyden:

    As the duly elected Sheriff of Dona Ana County, New Mexico, I write 
in opposition to S. 1024 which would designate over 240,000 acres as 
Wilderness in southern New Mexico.
    The Wilderness Act of 1964 prohibits the use of motorized vehicles, 
mechanical devices and structures in all Wilderness areas. Such 
prohibitions would stymie my department's efforts to protect the public 
safety. Furthermore, given the recent problems of drug and human 
trafficking from Mexico, it would seem the height of folly to place 
such restrictions on law enforcement in this border area.
    Congress has at its disposal other land designations which would 
protect the areas from development without placing such encumbrances on 
law enforcement. I strongly urge you to utilize one or more of these 
other designations and to reject the provisions of S. 1024.
            Sincerely,
                                             Todd Garrison,
                                                           Sheriff.
                                 ______
                                 
                       Mesilla Valley Sportsmen's Alliance,
                                   Las Cruces, NM, August 15, 2011.
Hon. Jeff Bingaman,
U.S. Senate, 703 Hart Senate Office Building, Washington, DC.
RE: S.1024

    Dear Senator Bingaman,

    The Mesilla Valley Sportsmen's Alliance represents a majority of 
families in this valley who could be described as your common, everyday 
folks who work in the agriculture industry, real estate development and 
construction, local, state and federal government, New Mexico State 
University, NASA, and White Sands Missile Range or are retired. These 
families are the hard-working people of Dona Ana County who make this 
community tick.
    These families also play hard. On any given weekend, you will find 
many of these folks have loaded up their assorted recreational 
necessities whether its horses, campers, RV's, ATV's, Jeeps or pickups 
with the appropriate gear and they're off to their favorite public 
lands area to spend quality time with their families and friends. The 
key, Mr. Bingaman, is ACCESS.
    These families I am referring to do not support your idea of 
``protecting these lands for future generations'' by restricting access 
to only a few who are able to either walk or go horseback into a 
``wilderness area''. The local Western Heritage group has clearly 
demonstrated that if the intent is to protect these areas from 
development, congress has the ability to merely withdraw these lands 
from disposal without restricting appropriate access for resource 
management and recreational activities. Why is that not a viable 
option?
    Another point, Mr. Bingaman, is the fact that it is the ranchers 
and sportsmen who are on these public lands everyday and provide the 
stewardship and management of these public lands to keep them healthy 
and clean. If ranchers don't develop and manage water distribution on 
our public lands for the benefit of their livestock, where do we think 
wildlife will access water? Ranchers and sportsmen work in concert to 
establish and maintain a healthy balance in the ecosystem.
    Also, Mr. Bingaman, I'm sure that the activities of sportsmen on 
our public lands, especially those closer to the Mexican border, 
contribute to border security. Sportsmen play a significant role in the 
vigilance we must all engage in to keep our country safer. How can you 
think ``wilderness on the border'', which locks the public and the 
Border Patrol out of those areas, to be acceptable?
    Finally, Mr. Bingaman, I want to address the importance of family. 
In every family, there are family members who are either, too old, too 
young or otherwise incapable of walking or riding horseback, that 
deserve to have access to recreate on our !public lands. Yet you have 
selected some of the best recreational areas in Dona Ana County to 
``protect for future generations''. What are you protecting these lands 
from? Do you think non-use is the answer? Why do you think it's alright 
to limit access to these wonderful areas of our public lands to only 
those physically capable of walking or riding horseback?
    The families represented by Mesilla Valley Sportsmen's Alliance 
take great pride in the involvement of their families, especially the 
youth, in their recreational activities. Please don't take that away 
from us in Dona Ana County.
    We call on you to withdraw your S.1024 and as such, allow continued 
recreational access to all of the public lands in Dona Ana County.
            Sincerely,
                                               Ralph Ramos,
                                                          Co-chair.
                                 ______
                                 
      Building Industry Association of Southern New Mexico,
                                   Las Cruces, NM, August 15, 2011.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, 304 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senator Wyden:
    The Building Industry of Southern New Mexico (BIA) is a non-profit 
trade association of over 400 members and represents the residential 
and commercial home building industry in our region. Its designated 
membership area includes all of Dona Ana County as well as the Truth or 
Consequences and Deming areas.
    Our association is very concerned about provisions in S. 1024 which 
would limit or prevent the Border Patrol from accomplishing their 
mission. Furthermore, those same provisions would disallow or delay the 
maintenance of existing flood control structures and prohibit the 
construction of new structures.
    Primarily for those reasons the BIA is opposed to the passage of S. 
1024 in its current form.
    Please include this letter in the official record.
            Respectfully,
                                          Farrell Thurston,
                                                         President.
                                 ______
                                 
                        U.S. Customs and Border Protection,
                                      Washington, DC, June 1, 2010.
Hon. Jeff Bingaman,
U.S. Senate, Washington, DC.
    Dear Senator Bingaman:

    I write to thank you for your efforts to address border enforcement 
concerns in S. 1689, the Organ Mountains-Desert Peaks Wilderness Act. 
The provisions of this bill, including your recent changes to address 
the operational needs of the Border Patrol, would significantly enhance 
the flexibility of U.S. Customs and Border Protection (CBP) to operate 
in this border area.
    As you know, the existing wilderness study area along the southern 
boundary of the West Potrillo Mountains provides CBP with 1/3 of a mile 
in which to perform its activities. The most recent changes that you 
have made to the bill would provide five miles between the U.S.-Mexico 
border and the area with full wilderness protections. Three miles of 
this zone would allow normal public access, and an additional two miles 
would allow restricted use by the public. Throughout the entire buffer 
zone, CBP could operate motor vehicles, build infrastructure, and carry 
out other activities as it would on any non-wilderness Bureau of Land 
Management land.
    I also appreciate other security-focused modifications that you 
have made to the bill, including:

  <bullet> Explicit provision to allow the East-West way, which will be 
        closed to the public, to be accessible to CBP and other law 
        enforcement personnel;
  <bullet> Clarification that no provision of the bill would restrict 
        CBP from pursuit of suspects within the wilderness area, 
        including the use of motorized vehicles in hot pursuit; and
  <bullet> Clarification that nothing prevents CBP from conducting low-
        level overflights above the wilderness area.

    The security-related enhancements to this bill are the result of 
careful consultations between your office and CBP in New Mexico and 
Washington, DC. While the solutions identified in this bill are 
specific to this particular area of the border, the collaborative 
process should be a model for future consideration of wilderness 
designation along the border.
            Sincerely,
                                               Alan Bersin,
                                                      Commissioner.
                                 ______
                                 
 Statement of Jenn Dice, Director of Government Affairs, International 
               Mountain Bicycling Association, on S. 1090
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to express our concern regarding certain provisions 
included in S. 1090, the Tennessee Wilderness Act of 2011. This Act is 
the culmination of years of local collaboration and effort to protect 
treasured wild places where Tennesseans and visitors from around the 
country seek solitude and adventure. However, we respectfully express 
concern regarding the impact to local trail systems from a new proposed 
highway corridor included in the legislation. Assurance that the new 
highway would not negatively impact the trails or that any impacted 
trails or related facilities such as trailhead parking and restrooms 
would be replaced would allow IMBA to wholeheartedly support this 
legislation.
    Founded in 1988, the International Mountain Bicycling Association 
(IMBA) leads the national and worldwide mountain bicycling communities 
through a network of 80,000 individual supporters, 750 affiliate clubs, 
and 600 dealer members. IMBA teaches sustainable trail building 
techniques and has become a leader in trail design, construction, and 
maintenance; encourages responsible riding, volunteer trail work, and 
cooperation among trail user groups and land managers. Each year, IMBA 
members and affiliated clubs conduct more than one million hours of 
volunteer trail stewardship on America's public lands and are some of 
the best assistants to federal, state, and local land managers.
    Wilderness designations are a difficult issue for IMBA and mountain 
bicyclists. On one hand we want to preserve the beauty and experience 
of wild landscapes. On the other hand, federal land management agencies 
interpret the Wilderness Act of 1964 to prohibit the use of mountain 
bicycles. Our decision to support a Wilderness proposal or bill is not 
one we take lightly. Only when we have worked with the Wilderness 
proponents to develop win-win solutions can we fully support the 
designation.
    IMBA is concerned with portions of the Tennessee Wilderness Act of 
2011, as we understand a new highway, Corridor K, will be built in the 
Ocoee River Gorge, and this project could negatively impact a popular 
and economically significant mountain bike trail system. We are asking 
that no action be taken on the Wilderness Act until the Corridor K 
route is determined or if assurance can be provided that the trails 
would not be negatively impacted. We believe the area should receive 
permanent land protection, but first new trails must be designed and 
built to replace those trails destroyed by the new highway. This 
careful attention to detail in drawing the boundaries and considering 
the diverse recreational opportunities the public enjoys can continue, 
while at the same time preserving the extensive wilderness compatible 
is essential for creating a broad base of local support for this Act.
    We applaud the bill's sponsors, Senator Lamar Alexander (R-TN) and 
Senator Bob Corker (R-TN) for their outstanding support for Tennessee 
public lands. There are many special places across the beautiful state 
threatened by resource extraction, development, and road building. IMBA 
agrees that Tennessee's most treasured places, like Little Frog and Big 
Fork Mountain must be safeguarded, but in this case we ask you to work 
with us to preserve these trails, a critical recreational asset, before 
acting on the Wilderness Bill.
    As mountain bikers, we cherish the natural landscape and work to 
protect and maintain the trails. The mountain bike trails around the 
Ocoee River Gorge is an important recreational resource for the scenic 
yet economically challenged region. Every year thousands of mountain 
cyclists attend events and support the local economy. Without a doubt 
Tanasi/Chillhowee is a premier national mountain bike destination.
    As demands on public lands continue to increase the areas that have 
been preserved for their recreational assets will continue to support 
local business. Wilderness additions created through the same local 
process and careful boundary definitions help to ensure that towns like 
those near Ocoee River Gorge area will continue to reap the benefits of 
a healthy recreation economy.
    We look forward to continuing to work diligently with the bill 
sponsors' staff to preserve the region's conservation and recreation 
legacy.
                                 ______
                                 
                                                    August 3, 2011.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, 304 Dirksen 
        Office Building, Washington, DC.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, 223 Dirksen Senate 
        Office Building, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Committee on Energy and Natural Resources, 709 
        Hart Office Building, Washington, DC.
Hon. John Barrasso,
Ranking Member, Subcommittee on Public Lands and Forests, 307 Dirksen 
        Senate Office Building, Washington, DC.
    Dear Chairmen and Ranking Members: We are respectfully writing to 
thank you for scheduling a hearing on S.1090, the Tennessee Wilderness 
Act of 2011. As you know, this bill, introduced by Senator Alexander 
and cosponsored by Senator Corker, would protect 19,556 acres of 
Tennessee's national forest lands as wilderness.
    We are part of the broad, locally based support for Senator 
Alexander's proposal. This group includes more than 70 businesses, 
locally-elected officials, conservation and outdoor recreation groups 
and religious leaders. For your information, we have included a partial 
list of the supporters of this legislation.
    The broad support for S.1090 is the result of several factors. The 
legislation expands five beloved existing wilderness areas. This 
includes additions to the Big Frog (348 acres) and Little Frog 
Wilderness Areas (978 acres) in Polk County. Both of these special 
areas are within an hour's drive of Chattanooga. Chattanooga's 
revitalization is inextricably linked to its proximity to outdoor 
amenities such as these wilderness areas. Protecting these areas has 
allowed nearby Hamilton and Bradley Counties to attract major 
corporations such as Volkswagen, Wacker and Amazon.com, as businesses 
are keenly aware that prospective employees need places to recreate to 
maintain their quality of life.
    In addition, this legislation will expand the Joyce Kilmer 
Slickrock Wilderness (1,836 acres) and create the first new wilderness 
area in Tennessee in 25 years; the Upper Bald River Wilderness (9,038 
acres). Both of these areas are located in Monroe County and are within 
90 minutes of Knoxville. The Joyce Kilmer Slickrock Wilderness offers 
outstanding recreational opportunities including hunting, fishing, 
horseback riding, hiking, camping and fall foliage viewing. The Upper 
Bald River Wilderness Study Area protects nearly an entire watershed. 
In addition to the water quality protection that this provides for 
downstream communities (including Chattanooga), the area offers 
outstanding opportunities to fish for native brook trout and hunt for 
both black bear and wild boar. Nearly 12 miles of the Benton MacKaye 
Trail will be permanently protected as a result of this legislation.
    In northeast Tennessee, additions to the Big Laurel Branch 
Wilderness (4,446 acres) in Carter and Johnson Counties and the Sampson 
Mountain Wilderness (2,922 acres) located in Washington and Unicoi 
Counties offer enhanced recreational opportunities within 45 minutes of 
Johnson City. The Big Laurel Branch Wilderness addition will 
permanently protect 4.5 miles of the Appalachian Trail on Iron 
Mountain. The Sampson Mountain addition is adjacent to the newly 
obtained Rocky Fork tract, enhancing the conservation value of both of 
these parcels.
    We hope that you will favorably move S.1090 in the near future. 
Thank you for your consideration.
            Sincerely,*
---------------------------------------------------------------------------
    * Other signatures have been retained in subcommittee files.
---------------------------------------------------------------------------
                                               Victor Ashe,
                                        Former Mayor Knoxville, TN,
                                    Former US Ambassador to Poland.
                                                 Joan Ashe,
                                                     Knoxville, TN.
                                             Leon Humphrey,
                                              Mayor, Carter County.
                                              Larry Potter,
                                              Mayor, Johnson County
                                 ______
                                 
                             Geothermal Energy Association,
                                    Washington, DC, August 1, 2011.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Wyden, On behalf of the Geothermal Energy Association 
(GEA), I am writing to express our strong support for S. 1149. This is 
important legislation to ensure the timely development of new 
geothermal prospects in the Western US.
    We urge the Subcommittee to support this important legislation.
            Sincerely,
                                               Karl Gawell,
                                                Executive Director.
                                 ______
                                 
                                 Glass Packaging Institute,
                                    Alexandria, VA, August 2, 2011.
Hon. Ron Wyden,
Chairman, U.S. Senate Subcommittee on Public Lands and Forests, U.S. 
        Senate Energy and Natural Resources Committee, 304 Dirksen 
        Senate Office Building, Washington, DC.
Re: Support of S. 1144, the Soda Ash Competition Act

    Dear Chairman Wyden: I represent the Glass Packaging Institute 
(GPI), which is the trade association for the glass container 
manufacturers of beverage and food containers, as well as suppliers to 
our collective industry. Our industry employs tens of thousands of 
Americans in 48 operating glass container manufacturing plants 
throughout the country. The U.S. soda ash industry is a critical 
supplier and partner of the glass container industry, as soda ash is 
used as part of our manufacturing processes on a daily basis.
    We would like to offer our support for your legislation, S. 1144, 
the Soda Ash Competition Act, under consideration this week in the 
Subcommittee on Public Lands and Forests.
    S. 1144 is a vital piece of legislation that will help to ensure 
the competitiveness of the U.S. soda ash industry, and to the companies 
they supply by extending the royalty rate at 2% for an additional five 
years, for all outputs of sodium compounds, including soda ash, on 
federal land.
    The U.S. soda ash industry relies on the current 2% rate to stay 
competitive in an export market increasingly distorted by foreign 
industrial policies. As the majority of the world's naturally occurring 
soda ash is found in the U.S., the ability to continue to supply glass 
container domestic markets and more fairly compete in the export market 
is crucial.
    As you are aware, the export of soda ash through this country's 
ports is economically significant, as it is the number two export 
headed through the Port of Portland.
    The American Natural Soda Ash Corporation (ANSAC) estimates that a 
five year extension of the current 2% rate would provide soda ash 
producers certainty and confidence to expand production, while 
supporting thousands of existing jobs and contributing to $1 billion 
annually in exports.
    The domestic soda ash market now contends with unfair manipulation 
in the global markets, specifically China, whose has offered their 
exporters of soda ash a 9% rebate on the 17% value added tax (VAT). 
This legislation is one step forward in an attempt to create a more 
level playing field for the domestic soda ash industry. Additionally, 
the Chinese synthetic soda ash production process is significantly more 
energy intensive than current domestic production from naturally 
occurring deposits of trona (soda ash) found in the U.S.
    Glass container manufacturers and our domestic soda ash partners 
depend on each other to ensure continued success of our industries. We 
hope your Committee will favorably consider this legislation. Please 
contact me should you have any questions or concerns regarding our 
position on this legislation.
            Sincerely,
                                             Lynn M. Bragg,
                                                         President.
                                 ______
                                 
                             Congress of the United States,
                                      Washington, DC, May 31, 2011.
Hon. Gary Locke,
U.S. Secretary of Commerce, 1401 Constitution Ave., NW, Washington, DC.
Hon. Ron Kirk,
U.S. Trade Representative, 600 17th Street, NW, Washington, DC.
    Dear Secretary Locke and Ambassador Kirk: We are writing to express 
our continued concerns about China's use of a Value-Added Tax (VAT) 
rebate to promote its soda ash industry at the expense of U.S. exports. 
For over two years, China has provided its domestic manufacturers with 
an artificial incentive to export through a 9% rebate of the 17% VAT. 
For a number of reasons, we ask that the issue of the soda ash VAT 
rebate be specifically included on the JCCT agenda this fall.
    After suspending its VAT rebate for soda ash in July 2007, China 
reinstated the soda ash rebate in April 2009 to encourage its own 
exports during the global economic crisis. China's state-supported soda 
ash industry is the largest in the world and this policy is harmful to 
its international competitors, particularly U.S. soda ash 
manufacturers. As you may know, U.S. soda ash has a natural advantage 
over Chinese soda ash, based on a manufacturing process that is much 
more sustainable in terms of environmental protection and energy use 
than the synthetic processes used in China. China's manipulation of the 
VAT rebate to support its domestic soda ash industry also has wider 
implications--not only is it economically unjustified, it contravenes 
China's own interests in shifting energy resources from more productive 
and efficient industries.
    We must focus on Chinese policies that are a direct threat to U.S. 
exports and U.S. jobs. The soda ash VAT rebate is one such policy. 
Chinese exports compete directly with U.S. soda ash exports in the 
Asia-Pacific market and beyond. Although the VAT is just one part of 
China's overall industrial policy, the soda ash VAT rebate is a 
distinct threat to U.S. manufacturing in a sector where the United 
States enjoys a natural competitive advantage. If we don't stand up for 
the pillars of our export-based manufacturers like the soda ash 
industry--and the U.S. workers employed throughout the soda ash supply 
chain--we cannot seriously contend we are doing everything we can to 
support U.S. exports.
    We ask that the Department of Commerce and the U.S. Trade 
Representative's Office ensure that the soda ash VAT rebate is raised 
at the highest levels with Chinese officials at the JCCT meetings this 
year, The message should be as clear as it is convincing; namely, China 
should live up to its repeated pledge to discourage the expansion of 
highly-polluting and energy-intensive sectors such as its own soda ash 
industry. Policies aimed at promoting soda ash exports, such as the VAT 
rebate, are inconsistent with China's own stated goals and a direct 
threat to U.S. interests.
    We greatly appreciate your consideration of this request and look 
forward to your response.
                                           Michael B. Enzi,
                                                      U.S. Senator.
                                       John Barrasso, M.D.,
                                                      U.S. Senator.
                                                  David Wu,
                                               U.S. Representative.
                                       Joseph I. Lieberman,
                                                      U.S. Senator.
                                           Robert Menendez,
                                                      U.S. Senator.
                                            Cynthia Lummis,
                                               U.S. Representative.
                                                 Ron Wyden,
                                                      U.S. Senator.
                                              Jeff Merkley,
                                                      U.S. Senator.
                                            James A. Himes,
                                               U.S. Representative.
                                          Frank Lautenberg,
                                                      U.S. Senator.
                                 ______
                                 
                             Congress of the United States,
                                       Washington, DC, May 5, 2009.
Hon. Ron Kirk,
U.S. Trade Representative, 600 17th Street, NW, Washington, DC.
    Dear Ambassador Kirk: We are writing to express our serious concern 
over the decision by the People's Republic of China (PRC) to begin 
offering, effective April 1, 2009, its soda ash exporters a 9% rebate 
on the 17% VAT. We strongly urge you and others in the Administration 
to convey the U.S. government's concern over this development and 
request that the rebate offer be promptly eliminated.
    U.S. soda ash, which is a primary raw material in the manufacturing 
of glass and detergents, is the most competitive and environmentally 
friendly in the world due to a unique natural deposit of the raw 
material, trona, located in Wyoming. Over 40% of U.S. production is 
exported. With U.S. exports in 2008 reaching $1.4 billion, soda ash is 
the second largest export from the Port of Portland, and thousands of 
jobs are dependent on this industry in a number of other U.S. states, 
including Connecticut, New Jersey, Georgia and Texas.
    In 2003, China became the world's largest producer and consumer of 
soda ash. Roughly 45% of China's soda ash production is done through a 
synthetic process, the major byproduct of which is calcium chloride, a 
well-known contributor to environmentally-harmful toxic sludge 
emissions. This process generates five times the amount of waste as 
naturally-sourced U.S. soda ash. Moreover, Chinese synthetic soda ash 
production is highly energy intensive. About 13.6 million BTUs per 
metric ton are required to produce China's synthetic soda ash, compared 
to 6.3 million BTUs per metric ton needed to produce U.S. natural soda 
ash.
    The recent PRC decision to offer the 9% VAT rebate to its exporters 
will further stimulate excessive capacity expansions in China. Chinese 
export prices, helped by the artificial incentive to export, will 
decline at the expense of U.S. exports, particularly in the Asia-
Pacific region. This will happen in the midst of a major decline in 
global demand for soda ash. The new rebate is nothing short of 
irresponsible during this troublesome economic period.
    Moreover, the export rebate represents an unfortunate policy shift 
in China that is harmful to China's own interests. In July 2007, PRC 
eliminated the 13% VAT rebate on soda ash exports. The decision to do 
this was, according to a WTO Report, designed to limit the export of 
products deemed to have an adverse effect on the environment and to 
reduce exports of highly energy intensive products such as soda ash. 
Consequently, the recent decision to reintroduce a VAT rebate on 
Chinese soda ash exports is a setback both for China and U.S. soda ash 
exporters.
    Therefore, we urge you and others in the Administration to 
immediately consult with the appropriate senior Chinese government 
officials in an effort to achieve the elimination of the April 1 9% VAT 
rebate on soda ash.
    We greatly appreciate your consideration of this important matter 
to the U.S. soda ash industry and look forward to your response.
                                                 Mike Enzi,
                                                      U.S. Senator.
                                             John Barrasso,
                                                      U.S. Senator.
                                         Cynthia M. Lummis,
                                               U.S. Representative.
                                                 Ron Wyden,
                                                      U.S. Senator.
                                        Phil Gingrey, M.D.,
                                               U.S. Representative.
                                                  David Wu,
                                               U.S. Representative.
                                       Joseph I. Lieberman,
                                                      U.S. Senator.
                                            James A. Himes,
                                               U.S. Representative.
                                              Jeff Merkley,
                                                      U.S. Senator.
                                           Robert Menendez,
                                                      U.S. Senator.
                                       Frank R. Lautenberg,
                                                      U.S. Senator.
                                 ______
                                 
 Statement of Randi Spivak, Vice President of Government Affairs, Geos 
                         Institute, on S. 1344
    Chairman Wyden, Ranking Member Barrasso, and members of the 
Subcommittee, the Geos Institute greatly appreciates the opportunity to 
submit testimony for the record on S. 1344, the ``Arizona Wallow Fire 
Recovery and Monitoring Act.''
    The Geos Institute is a science-based organization with expertise 
in forest and watershed management, ecological restoration and post-
disturbance ecology. We engage in scientific analysis and forest 
management policy on federal lands.
    The purpose of S.1344 as stated is to ``take immediate action to 
recover ecologically and economically from a catastrophic wildfire in 
the State of Arizona.'' The bill further calls for rehabilitating and 
restoring the Wallow Fire Area. The primary method for accomplishing 
both the ecological and economic goals would be to log areas burned by 
the Wallow fire.
    The Geos Institute agrees that following a wildland fire federal 
land management agencies should act quickly to protect public safety. 
The Forest Service is currently using existing authorities to remove 
hazard trees from roadsides and campgrounds and create defensible space 
in the immediate vicinities of communities at risk. Burned Area 
Emergency Recovery (BAER) practices that have proven to be effect 
should also be implemented.
    Abundant science however, has shown that post-fire or ``salvage'' 
logging is not ecologically restorative, most results in cumulative 
impacts to watersheds after fires, can elevate the risk of fires from 
logging slash left on the ground and can be detrimental to long-term 
forest development and other critical ecosystem services such as soil 
stability and erosion control.\1\ University of Washington Professor 
Dr. Jerry Franklin noted that logging dead trees often has greater 
negative impacts than logging of live trees and concluded, ``timber 
salvage is most appropriately viewed as a `tax' on ecological 
recovery.''\2\ Any post-fire logging beyond what is necessary to 
protect public safety will likely result in greater damage and be more 
costly to the communities within the Wallow Fire area than any short 
term-gain from the sale of fire-damaged logs. Further, only by 
maintaining crucial ecological processes post-fire like nutrient 
cycling in recovering soils and native plant species establishment 
functions can we expect to sustain renewable resources.
---------------------------------------------------------------------------
    \1\ Donato et. al. 2006. Post-Fire Logging Hinders Regeneration and 
Increases Fire Risks, Science., Beschta et al.,2004. Postfire 
Management on Forested Public Lands of the Western United States. 
Conservation Biology. D.B. Lindenmayer et al., 2004 Salvage Harvesting 
After Natural Disturbance. Science, D. B. Lindenmayer, Salvage Logging 
and its Ecological Consequences, Island Press
    \2\ Testimony House Subcommittee on Resources, November 10, 2005.
---------------------------------------------------------------------------
    Specifically, logging immediately after a fire has been show to:

          1. Inhibit the ability of a forest to regenerate.--Numerous 
        scientific studies have shown that logging after fires can 
        actually reduce the ability of a forest to naturally 
        regenerate. Logging, especially the use of ground based 
        equipment:

          a. Hampers natural re-growth.--Research has shown that 
        conifer forests have adequate seed densities to naturally 
        regenerate.\3\ Moving heavy logging equipment across burned 
        soils further disturbs the soil and can bury young seedlings 
        during logging operations, thereby inhibiting the natural 
        regenerative growth of the forest. In another study of post-
        fire logging in the 2002 Biscuit Fire area in southwest Oregon, 
        researchers found that post-fire logging by removing naturally 
        seeded conifers and increasing surface fuel loads, can be 
        counterproductive to goals of forest regeneration and fuels 
        reduction and may conflict with ecosystem recovery goals.\4\ In 
        this study, researchers found that logging subsequently reduced 
        regeneration by 71% (767 seedlings per hectare to 224 seedlings 
        per hectare) due to soil disturbance and physical burial by 
        woody material during logging operations.
---------------------------------------------------------------------------
    \3\ Shatford, et. Al. 2007. Conifer Regeneration after Forest fire 
in the Klamath-Siskiyous: How Much, How Soon? Journal of Forestry, 
Society of American Foresters.
    \4\ Donato et. al. 2006. Post-Fire Logging Hinders Regeneration and 
Increases Fire Ricks, Science.
---------------------------------------------------------------------------
          b. Compacts soils and impairs soil productivity.--One of the 
        most important elements in forest regeneration following fires 
        is soil stability and soil productivity. Ground-based logging 
        equipment compacts soils. Soil compaction adversely impacts 
        post-fire recovery and longterm site productivity by 
        eliminating pore spaces in soil that retain air, water, and 
        facilitate spread of fine roots. The result of decreased water 
        infiltration and retention is increased surface runoff, 
        sheetwash erosion, and subsequent sedimentation in stream. 
        Soils and soil productivity are irreplaceable in human time 
        scales. Management practices that compact soils, reduce soil 
        productivity, or accelerate erosion should not be 
        undertaken.\5\ In particular, sediment delivery to streams is 
        exacerbated by the road system, including failing roads, which 
        represent a chronic and cumulative impacts with consequences to 
        downstream water quality.\6\
---------------------------------------------------------------------------
    \5\ Beschta et al.,2004. Postfire Management on Forested Public 
Lands of the Western United States. Conservation Biology.
    \6\ Karr et al. 2004.The Effects of Postfire Salvage Logging on 
Aquatic Ecosystems in the American West. Bioscience.

          2. Increase fire risk.--Post-fire logging has been shown to 
        increase both fire risk and coarse downed woody fuel loads. 
        Post fire logging typically removes the larger diameter trees 
        that have the most commercial value but least flammability, but 
        leaves behind the smaller diameter trees and logging slash that 
        have little to no commercial value, but are the most flammable 
        fuels. In a study modeling the effects of various fuels 
        treatments in the Sierra Nevada, lop-and-scatter, group 
        selection (small clearcuts), and salvage logging operations 
        that left the slash and adjacent landscape untreated produced 
        the highest fireline intensity, heat per unit area, rate of 
        spread, area burned, and scorch height of all other fuels 
        method treatments because they increased the flammable surface 
        fuel load. The researcher of this study concluded that salvage 
        logging would make the fire situation more severe because 
        removing only large, standing trees will not reduce fire hazard 
        in Sierra Nevada forest ecosystems.\7\
---------------------------------------------------------------------------
    \7\ Stephens, S.Lewis. 1998. Evaluation of the Effects of 
Silvicultural and Fuels Treatments on Potential Fire Behavior in Sierra 
Nevada Mixed-Conifer Forests. Forest Ecology and Management 105:21-35.
---------------------------------------------------------------------------
            Fuel reduction treatments (prescribed burning or mechanical 
        removal) are frequently intended following post-fire logging, 
        but resources are often not allocated to carry out these 
        activities.\8\ The lowest risk strategy may be to leave dead 
        trees standing as long as possible allowing for the slow decay 
        of surface fuel. The study author concluded, ``Therefore, the 
        lowest fire risk strategy may be to leave dead trees standing 
        as long as possible (where they are less available to surface 
        flames), allowing for aerial decay and slow, episodic input to 
        surface fuel loads over decades. Our data show that post fire 
        logging, by removing naturally seeded conifers and increasing 
        surface fuel loads, can be counterproductive to goals of forest 
        regeneration and fuel reduction.''\9\
---------------------------------------------------------------------------
    \8\ R. W. Gorte, 1996. Forest Fires and Forest Health. 
Congressional Research Service (Publication 95-511).
    \9\ Donato et. al. 2006. Post-Fire Logging Hinders Regeneration and 
Increases Fire Ricks, Science.
---------------------------------------------------------------------------
          3. Limit ability to adapt to a changing climate.--Every 
        forest changes through successional stages as forests develop, 
        mature, die and renew. An often overlooked and severely 
        underappreciated phase is the early successional or early seral 
        stage of a forest that follows after stand-replacing or partial 
        disturbances such as fire. This phase, also referred to at the 
        ``stand-initiation stage'' in forestry, can be characterized by 
        high productivity of plant species (including herbs and 
        shrubs), complex food webs, large nutrient fluxes, and high 
        structural and spatial complexity. The ecological importance of 
        early-successional forest ecosystems (ESFEs) has received 
        little attention, except as a transitional phase, before trees 
        begin to grow. Yet, this phase of development plays a crucial 
        role in key ecosystem processes that sustain a forests 
        regrowth.\10\ Organisms that survive (e.g. seeds, spores, 
        rootstocks), and biological legacies (e.g. standing dead and 
        downed trees), are extremely important for repopulating and 
        restoring ecosystem functions following disturbances. Early 
        seral plant and shrub species provide major opportunities for 
        recharge of nutrient pools, such as additions to the nitrogen 
        pool, which is especially important after nitrogen losses from 
        wildfires. The important role of re-sprouting vegetation in 
        curbing massive losses of nitrogen was demonstrated by 
        experimentally clearcutting and applying herbicides in a 
        watershed at Hubbard Brook Experimental Forest (Bormann and 
        Likens 1979).
---------------------------------------------------------------------------
    \10\ Swanson et al., 2010. The Forgotten stage of forest 
succession: early-successional ecosystems on forest sites. Frontiers in 
Ecology and the Environment.
---------------------------------------------------------------------------
            Recent research concludes that early successional forest 
        ecosystems may be more adaptable to future climate change.\11\ 
        Given the importance of this developmental stage, management 
        actions should be avoided that: (1) eliminate biological 
        legacies, (2) shorten the duration of the early seral phase, 
        and (3) interfere with stand-development processes. Such 
        activities include intensive post-disturbance logging, 
        aggressive reforestation, and elimination of native plants with 
        herbicides.
---------------------------------------------------------------------------
    \11\ ibid.

          4. Impact water quality and stream.--By themselves, the 
        effects of fire create few problems for aquatic populations 
        that have access to high-quality stream environments. Fire even 
        provides benefits, such as pulsed additions of spawning gravel 
        and wood. But where a history of environmental degradation and 
        fragmentation of aquatic populations already exists, fire can 
        threaten certain species, and post fire logging adds another 
        layer of stress.
            After fires, soils can exhibit a water-repellent condition 
        that reduces the infiltration of water.\12\ These conditions 
        however will vary based on soils, fire intensity, the amount of 
        organic matter left on site and other factors. Generally, 
        water-repellent conditions are spatially variable and diminish 
        as vegetation and soils recover.\13\ In the short-term, the 
        adverse effects of high-severity fires--decreased infiltration, 
        increased overland flow, and excess sedimentation in streams--
        can be greatly exacerbated by the soil disturbance caused by 
        salvage logging. \14\ Running heavy equipment across an area 
        that may experience high-intensity rains, as can be the case in 
        the monsoon season in the Wallow fire area, cannot be in any 
        manner restorative. Additionally, the steeper ground the more 
        likely there will be adverse effects from logging/heavy 
        rainfall than relatively flat ground.
---------------------------------------------------------------------------
    \12\ DeBano, L.F., D.G. Neary, and P.F. Ffolliott, 1998. Fire's 
Effects on Ecosystems. New York: John Wiley & Sons, Inc. 333 p.
    \13\ Robichaud et al. 2000, Evaluating the Effectiveness of post-
fire rehabilitation treatments. General Technical Report RMRS-GTR 63. 
USDA Forest Service, Rocky Mountain Research Station., J. Letey, 2001, 
Causes and Consequences of Fire Induced soil water repellency. 
Hydrological Processes.
    \14\ McIver, J.; and L. Starr. 2000. Environmental Effects of 
Postfire Logging: Literature Review and Annotated Bibliography. Gen. 
Tech. Rep. PNW-GTR-486. USDA-Forest Service, Pacific Northwest Research 
Station.
---------------------------------------------------------------------------
            Another tremendous stressor are the logging roads and 
        landings that are built for post fire logging operations which 
        cause enduring damage to soils and streams, help spread noxious 
        weeds, and hinder revegetation. Roads are a primary cause of 
        reduced water quality and of contractions in the distribution 
        and number of native salmonids on public lands. In fact, 
        reducing road density on national forests should be a primary 
        post-fire response. Temporary roads not built to construction 
        specifications can result in even greater sedimentation.
            Consequently, logging activities in these areas undermine 
        the conservation and restoration of aquatic ecosystems and 
        increase the risk of extirpation for already imperiled, 
        fragmented, and sensitive populations. Post-fire logging 
        ignores many threats to aquatic resources, virtually 
        guaranteeing trajectories toward unsustainable ecosystems. 
        Halting this deterioration should be a policy priority. We 
        support the recommendations for protecting streams, wetlands, 
        and associated watersheds offered by Dr. Karr and his 
        associates in their paper, The Effects of Postfire Salvage 
        Logging on Aquatic Ecosystems in the American West. \15\
---------------------------------------------------------------------------
    \15\ Karr et al. 2004The Effects of Postfire Salvage Logging on 
Aquatic Ecosystems in the American West. Bioscience.
---------------------------------------------------------------------------
Recommendations and Conclusions
    The Forest Service already has the needed authorities to quickly 
remove hazardous trees and address other public safety issues. Given 
the range of current authorities to address public safety following 
wildland fires, the provisions of S.1344 are unnecessary.
    As Forest Service Chief Tidwell stated in his testimony before this 
committee on August 9, 2011 ``While we support the objectives of S. 
1344, we note that the Forest Service already has appropriated funds, 
stewardship contracting authority, and the salvage sale fund to address 
various forest management scenarios proposed in the bill.'' Chief 
Tidwell further noted that the agency is currently removing hazard 
trees along 245 miles of road from a projected 300 miles of road 
needing treatment. The roadside hazard tree removal could result in 
approximately 162,000 tons of material.
    Rather, we believe that a more effective and efficient expenditure 
of limited resources is to continue to support the White Mountain 
Stewardship Project. Again, as Chief Tidwell noted in his testimony ``. 
. .hazardous fuel reduction and thinning projects implemented between 
2004 and 2011 have successfully reduced fire behavior near the Arizona 
communities of Greer, Eagar, Nutrioso, and Alpine.''
    In conclusions, I urge the committee to reject S. 1344 on grounds 
that it is not ecologically or scientifically sound and is unnecessary 
to accomplish post-fire objectives given the Forest Service already has 
the authorities to deal with the most pressing needs after fire--hazard 
tree removal.
    Thank you for the opportunity to provide testimony, I would be 
happy to provide any follow up information the committee may require.
                                 ______
                                 
                                     Navajo County,
                                      Board of Supervisors,
                                      Holbrook, AZ, August 2, 2011.
Hon. Jon Kyl,
730 Hart Senate Building, Washington, DC.
    Dear Senator Kyl, Navajo County would like to express its strong 
support for the Arizona Wallow Fire Recovery and Monitoring Act (S. 
1344), legislation that would expedite the removal of hazard, dead and 
dying trees in the community protection management areas of the Wallow 
Fire. We believe that S.1344 strikes a responsible balance between 
environmental and economic interests, and that salvaging these fire-
damaged trees will help in the prevention of future fires by reducing 
the hazardous fuels on the ground, improving the overall health and 
recovery of the forest, and providing an economic benefit to the 
communities of northeastern Arizona a by putting the wood to good use.
    As you know, Navajo County has been an adamant supporter and 
participant with the White Mountains Stewardship and Four Forest 
Restoration Initiative. These commercial thinning projects are the key 
to the restoration of the 2.4 million acres of ponderosa pine 
throughout Arizona, and the mechanism by which we can end these 
catastrophic and unnatural wildfires from occurring in the future.
    I understand that S. 1344 will be presented in the Public Lands and 
Forests Subcommittee of the Senate Energy and Natural Resources 
Committee on, August 3, 2011. Please add Navajo County as one of the 
voices that support S.1344, and please let me know if there is anything 
that I may be able to do to support this legislation and speed the 
process along. The removal of these stands of timber must be completed 
within the next 18 months to preserve the economic value of timber for 
commercial harvest. We desperately need a stream of revenues from these 
salvage sales that can offset the costs for the restoration treatments 
in the Apache-Sitgreaves National Forest.
            Regards,
                                              David Tenney,
                                                          Chairman.
                                 ______
                                 
                     Board of Supervisors of Apache County,
                                      St. Johns, AZ, July 28, 2011.
Hon. Jon Kyl,
U.S. Senate, 730 Hart Senate Office Building, Washington, DC.
Re: Clearing Red Tape for Salvage Logging and Recovery of Our Forests

    Dear Senator Kyl: I am writing today to express my support for S, 
1344, the Arizona Wallow Fire Recovery and Monitoring Act. I am 
confident that this legislation will help implement various programs 
which will remove hazardous and dead trees within our Apache County 
communities. Many management and forest health practices were tried in 
the past and ignored over the last couple of decades. This has led to 
many of the conditions in our forests to now be at a critical state of 
disrepair and massive amounts of dead and dying landscape, insect 
infestation and a main contributor to our tremendous fire conditions. 
Cattle grazing and logging need to be restored throughout our areas 
along with competent forest management throughout our great country.
    Legislation needs to be established so that the work of recovering 
fire-damaged materials and removal of tree hazards can immediately 
begin. Large amounts of soil degradation, loss of habitat and flooding 
have begun in our local areas. The flooding has severely exacted a 
heavy toll on Apache County residents and county resources. 
Infrastructure like bridges, drainages and roadways have been damaged 
by massive water overflows to homes and other structures during our 
monsoon season, which has just begun. Business interruptions occur as 
well in our heavily effected flood regions leading to even more 
economic losses which, when all combined, will have catastrophic and 
cumulative effects for years to come.
    We all have an opportunity ahead of us to learn by previous forest 
management mistakes and turn the Wallow Fire disaster into an 
opportunity for the good of all.
    Thank you for your efforts on behalf of the Apache County 
residents, and especially those who have been impacted by the Wallow 
Fire.
            Sincerely,
                                               R. John Lee,
                                          Supervisor, District III.
                                 ______
                                 
                                     Town of Springerville,
                                  Springerville, AZ, July 28, 2011.

    To Whom It My Concern:

    On behalf of the town of Springerville I am writing this letter in 
support of Senate Bill 1344, this act cited as ``Arizona Wallow Fire 
and Recovery Act''. This Bill is a start in a long recovery process for 
the communities of the White Mountains and is an integral part in the 
Town's of Springerville and Eagar s (Round Valley) Resolution No. 2011-
R009, attachment and Resolution 2011-R010* that is being presented in 
support of Salvage Logging at the August 3, 2011 town council meeting.
---------------------------------------------------------------------------
    * Documents have been retained in subcommittee files.
---------------------------------------------------------------------------
    The Town of Springerville hopes you will consider passing Senate 
Bill 1344 and will review our Resolution, as our communities have been 
dramatically impacted by the Wallow Fire.
            Sincerely,
                                                 Eric Baca,
                                                             Mayor.
                                 ______
                                 
                          Arizona House of Representatives,
                                        Phoenix, AZ, July 13, 2011.
Hon. John McCain,
U.S. Senator, 241 Russell Senate Office Building, Washington, DC.
Hon. Jon Kyl,
U.S. Senator, 730 Hart Senate Office Building, Washington, DC.
    Distinguished Senators: The Arizona House of Representatives would 
like to commit its strong support for U.S. Senate bill 1344, the 
Arizona Wallow Fire Recovery and Monitoring Act, introduced by Senator 
Jon Kyl. This new forest health bill will expedite the removal of dead 
and dying trees following Arizona's worst wildfire in state history.
    S. 1344 strikes a responsible balance between environmental and 
economic interests. It will help prevent future; fires and:provide an 
economic benefit which Arizona desperately needs right now.These 
projects would include hazardous, dead and dying tree removal.
    Self-proclaimed environmental groups cannot-slow down this process 
or the economic benefit of salvage wiil be permanently lost: The Rodeo-
Chediski salvage opportunities were lost due to environmental 
roadblocks and the remaining wood has no economic value to anyone. Had 
Arizona been able to clean/salvage the damaged and destroyed trees, we 
would have had economic growth.
    As you know, here at the State Capitol Representatives Brenda 
Barton and Chester Crandell have brought attention to this issue 
through the formation of the Ad Hoc Committee on Forest Management in 
which Congressman Paul Gosar testified at the first hearing.We look 
forward to working with.you in any capacity we can to make sure the 
mistakes that led to these catastrophic fires dp not happen again.
            Sincerely,*
---------------------------------------------------------------------------
    * Other signatures have been retained in subcommittee files.
---------------------------------------------------------------------------
                                              Andrew Tobin,
                                  Speaker of the House, District 1.
                                 ______
                                 
                                        City of Scottsdale,
                                     Scottsdale, AZ, July 21, 2011.
Hon. Jon Kyl,
U.S. Senate, 730 Hart Senate Office Building, Washington, DC.
    Dear Senator Kyl: I am writing today to express strong support for 
S. 1344, the Arizona Wallow Fire Recovery and Monitoring Act.
    If enacted, I believe this legislation will put into place an 
important process to initiate the removal of hazardous, dead, and dying 
trees in community protection management areas within the Arizona 
Wallow Fire--one of the most dramatic and devastating wildfires in 
Arizona's history. Also of importance, S. 1344 provides a mechanism to 
create new revenues that will be used to treat standing forests to help 
prevent another catastrophic wildfire in Arizona.
    I know it is important to expedite the passage of this legislation 
to the fullest extent possible so that the work of recovering fire-
damaged materials and the removal of tree hazards can begin before 
these materials lose much of their remaining economic value. The loss 
of value due to unnecessary delays will have a direct impact on the 
level of funds available for the much-needed forest restoration 
treatments in the Apache-Sitgreaves National Forest. I am very 
supportive of forest restoration projects to improve the health of our 
western forests.
    As you may recall from our recent phone conversation, I am 
currently working with other local officials to create a resolution 
that will ask the Congress for assistance in enacting large-scale 
forest restoration efforts to improve forest health and reduce the 
risks from catastrophic wildfires. Support for this federal legislation 
is specifically noted in the resolution. All ninety-one Arizona cities 
and towns will have the opportunity to vote to support this resolution 
during the annual meeting of the League of Arizona Cities and Towns in 
August.
    The forest health problem is widespread and is affecting wildlife 
habitat, watershed management, and increasing the dangers to human life 
and property from catastrophic wildfire events. I applaud your tireless 
work to ensure that our forests receive the proper restoration 
treatments that are so badly needed.
    Again, I would like to thank you for your efforts on behalf of 
Arizona's residents, and especially those who have been impacted by the 
Wallow Fire.
            Sincerely,
                                         W.J. ``Jim'' Lane,
                                                             Mayor.

                                    

      

</pre></body></html>
